<html>
<title> - MEETING THE NEEDS OF INJURED VETERANS IN THE MILITARY PARALYMPIC PROGRAM</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
   MEETING THE NEEDS OF INJURED VETERANS IN THE MILITARY PARALYMPIC 
                                PROGRAM 

=======================================================================

                                HEARING

                               before the

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 29, 2009

                               __________

                           Serial No. 111-38

                               __________

       Printed for the use of the Committee on Veterans' Affairs

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

51-877 PDF                       WASHINGTON : 2010 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 

















                     COMMITTEE ON VETERANS' AFFAIRS

                    BOB FILNER, California, Chairman

CORRINE BROWN, Florida               STEVE BUYER, Indiana, Ranking
VIC SNYDER, Arkansas                 CLIFF STEARNS, Florida
MICHAEL H. MICHAUD, Maine            JERRY MORAN, Kansas
STEPHANIE HERSETH SANDLIN, South     HENRY E. BROWN, Jr., South 
Dakota                               Carolina
HARRY E. MITCHELL, Arizona           JEFF MILLER, Florida
JOHN J. HALL, New York               JOHN BOOZMAN, Arkansas
DEBORAH L. HALVORSON, Illinois       BRIAN P. BILBRAY, California
THOMAS S.P. PERRIELLO, Virginia      DOUG LAMBORN, Colorado
HARRY TEAGUE, New Mexico             GUS M. BILIRAKIS, Florida
CIRO D. RODRIGUEZ, Texas             VERN BUCHANAN, Florida
JOE DONNELLY, Indiana                DAVID P. ROE, Tennessee
JERRY McNERNEY, California
ZACHARY T. SPACE, Ohio
TIMOTHY J. WALZ, Minnesota
JOHN H. ADLER, New Jersey
ANN KIRKPATRICK, Arizona
GLENN C. NYE, Virginia

                   Malcom A. Shorter, Staff Director

                                 ______

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.




















                            C O N T E N T S

                               __________

                             July 29, 2009

                                                                   Page
Meeting the Needs of Injured Veterans in the Military Paralympic 
  Program........................................................     1

                           OPENING STATEMENTS

Chairman Bob Filner..............................................     1
    Prepared statement of Chairman Filner........................    44
Hon. Steve Buyer, Ranking Republican Member......................     2
    Prepared statement of Congressman Buyer......................    45
Hon. John J. Hall, prepared statement of.........................    46

                               WITNESSES

U.S. Department of Defense, Dinah F.B. Cohen, Director, Computer/
  Electronic Accommodations Program, Office of the Assistant 
  Secretary of Defense for Health Affairs........................    34
    Prepared statement of Ms. Cohen..............................    61
U.S. Department of Veterans Affairs, Diane Hartmann, Director, 
  Office of National Programs and Special Events.................    40
    Prepared statement of Ms. Hartmann...........................    64

                                 ______

Clemons, Sergeant Kortney, USA (Ret.), Chula Vista, CA...........     4
    Prepared statement of Clemons, Sergeant Kortney..............    46
Disabled American Veterans, Adrian M. Atizado, Assistant National 
  Legislative Director...........................................    17
    Prepared statement of Mr. Atizado............................    49
Disabled Sports USA, Inc., Julia Ray, Manager, Wounded Warrior 
  Disabled Sports Project........................................    20
    Prepared statement of Ms. Ray................................    54
Iraq and Afghanistan Veterans of America, Carlos Leon, Member and 
  Paralympian....................................................    24
    Prepared statement of Mr. Leon...............................    59
Little, Captain Mark D., USA, Fairfax, VA........................     8
    Prepared statement of Captain Little.........................    49
National Recreation and Park Association, David Stringer, 
  Richland County, South Carolina, Parks and Recreation 
  Department.....................................................    22
    Prepared statement of Mr. Stringer...........................    58
Paralyzed Veterans of America, Carl Blake, National Legislative 
  Director.......................................................    18
    Prepared statement of Mr. Blake..............................    51
United States Olympic Committee, Charlie Huebner, Chief of 
  Paralympics....................................................    37
    Prepared statement of Mr. Huebner............................    63
Waldon, Captain Nathan, USA, Washington, DC......................     6
    Prepared statement of Captain Waldon.........................    47

                   MATERIAL SUBMITTED FOR THE RECORD

Post-Hearing Questions and Responses for the Record:
    Hon. Bob Filner, Chairman, Committee on Veterans' Affairs to 
      Adrian M. Atizado, Assistant National Legislative Director, 
      Disabled American Veterans, letter dated July 30, 2009, and 
      DAV responses..............................................    67
    Hon. Bob Filner, Chairman, Committee on Veterans' Affairs to 
      Carl Blake, National Legislative Director, Paralyzed 
      Veterans of America, letter dated July 30, 2009, and 
      response letter dated September 1, 2009....................    68
    Hon. Bob Filner, Chairman, Committee on Veterans' Affairs to 
      Julia Ray, Manager, Wounded Warrior Disabled Sports 
      Project, Disabled Sports USA, letter dated July 30, 2009, 
      and DSUSA response.........................................    70
    Hon. Bob Filner, Chairman, Committee on Veterans' Affairs to 
      Barbara Tulipane, Chief Executive Officer, National 
      Recreation and Park Association, letter dated July 30, 
      2009, response letter dated September 10, 2009.............    72
    Hon. Bob Filner, Chairman, Committee on Veterans' Affairs to 
      Paul Rieckhoff, Executive Director and Founder, Iraq and 
      Afghanistan Veterans of America, letter dated July 30, 
      2009, and IAVA responses...................................    74
    Hon. Bob Filner, Chairman, Committee on Veterans' Affairs to 
      Hon. Robert M. Gates, Secretary, U.S. Department of 
      Defense, letter dated July 30, 2009, and DoD responses.....    75
    Hon. Bob Filner, Chairman, Committee on Veterans' Affairs to 
      Charlie Huebner, U.S. Olympic Committee Chief, U.S. 
      Paralympics Division, letter dated July 30, 2009, and USOC 
      responses..................................................    78
    Hon. Bob Filner, Chairman, Committee on Veterans' Affairs to 
      Hon. Eric K. Shinseki, Secretary, U.S. Department of 
      Veterans Affairs, letter dated July 30, 2009, and VA 
      responses..................................................    91
    Hon. Steve Buyer, Ranking Republic Member, Committee on 
      Veterans' Affairs, to Hon. Eric K. Shinseki, Secretary, 
      U.S. Department of Veterans Affairs, letter dated July 30, 
      2009, and VA responses.....................................    93


                      MEETING THE NEEDS OF INJURED
                            VETERANS IN THE
                      MILITARY PARALYMPIC PROGRAM

                              ----------                              


                        WEDNESDAY, JULY 29, 2009

             U.S. House of Representatives,
                    Committee on Veterans' Affairs,
                                                    Washington, DC.

    The Committee met, pursuant to notice, at 10:01 a.m., in 
Room 334, Cannon House Office Building, Hon. Bob Filner 
[Chairman of the Committee] presiding.

    Present: Representatives Filner, Snyder, Hall, Halvorson, 
Perriello, Teague, Rodriguez, McNerney, Walz, Adler, 
Kirkpatrick, Buyer, Stearns, Boozman, Bilirakis, and Roe.

                 OPENING STATEMENT OF CHAIRMAN

    The Chairman. Good morning. The Committee on Veterans' 
Affairs will come to order. I ask unanimous consent that all 
Members may have 5 legislative days in which to revise and 
extend their remarks. Hearing no objection, so ordered.
    We have a very interesting and important hearing this 
morning. Since the early years of our country, Congress has had 
to reassess programs created to care for our men and women in 
uniform, our veterans who have courageously answered our call 
to duty, and their families who have joined in the military 
experience. For many servicemembers and veterans who have been 
severely injured from service to our country the rehabilitation 
can sometimes be quite disheartening. Many become concerned 
about having the same quality of life that they had prior to 
their injuries. This was known to be true in World War II and 
has held true today in the midst of our commitments in Iraq and 
Afghanistan. Fortunately, this Congress stands united in 
support of our Members of the armed forces and veterans who 
deserve the best resources to succeed in life after their 
military service.
    Some of my colleagues are aware of the history of how 
Paralympic sports have been used in the physical therapy of 
injured servicemembers and veterans and how it has evolved 
since World War II. As we will hear from some of our panelists 
today, the issue of Paralympic sports being used as a method of 
physical therapy is not new to them with many sharing strong 
partnerships with the VA that span more than two decades to 
provide rehabilitation services to our injured men and women 
who have worn the uniform.
    Last Congress, the Subcommittee on Economic Opportunity, 
under the leadership of Chairwoman Herseth Sandlin and Ranking 
Member Boozman, held a series of hearings on the future role of 
the U.S. Department of Veterans Affairs (VA) in Paralympic 
sports. In those hearings, we received testimony highlighting 
the need to conduct program outreach to veterans, conduct 
followups with veterans after a flagship event such as the 
National Veterans Wheelchair Games, and the need to implement 
programs to appeal to veterans seeking to participate in non-
traditional activities such as scuba diving.
    Today will provide the needed oversight on the VA's Office 
of the National Veterans Sports Programs and Special Events 
that we first authorized in Public Law 110-389. The law 
authorizes the Secretary of Veterans Affairs to make grants to 
the U.S. Olympic Committee (USOC) to provide Paralympic 
instruction, competition activities, and the training program 
development activities for servicemembers and veterans with 
physical disabilities. Many of you know that earlier this month 
we passed an amendment to the VA appropriations bill with the 
support of both sides of the aisle which ensures that this 
valuable program is fully funded and capable of providing the 
support and programs that our veteran athletes require. As some 
of my colleagues have highlighted in the past, it is important 
to understand the history of this new program so that we may 
avoid any pitfalls that have been encountered by similar 
programs.
    I look forward to working with all the Members of the 
Committee to make sure this program succeeds in its mission to 
provide rehabilitative sports therapy to our injured 
servicemembers and our veterans. Of course, they deserve it. 
But the inspiration that you provide to all Americans is an 
incredible by-product of this program and keeps our faith in 
all of you that you are going to succeed.
    I yield to Mr. Buyer for his opening comments.
    [The prepared statement of Chairman Filner appears on p. 
44.]

             OPENING STATEMENT OF HON. STEVE BUYER

    Mr. Buyer. Thank you, Mr. Chairman. General Douglas 
MacArthur while Superintendent at West Point had stated that, 
``upon the fields of friendly strife are sown the seeds that 
upon other fields on other days will bear the fruits of 
victory.'' General MacArthur eloquently conveyed that the value 
of participation in sports activities can carryover into other 
areas of life. Sports strengthen individuals physically, 
mentally, and emotionally. Athletes develop so many great 
qualities of the heart and the mind that when these attributes 
are translated into other areas of life's activities it often 
leads to great success and accomplishments. I believe that 
sports therapy is among the most valuable rehabilitative tools 
that we can provide our wounded warriors.
    I saw this firsthand when I had the pleasure of visiting 
the United States Olympic Committee Training Center in the 
Chairman's district years ago. The training site, located a few 
miles southeast of downtown San Diego, is a place, I believe, 
of joy, determination, dedication, sweat, and camaraderie. It 
is a very scenic place with a beautiful lake and landscape. 
Another notable feature is that the landscape is dotted with 
signs reminding visitors of rattlesnakes that are lurking in 
the shrubbery as part of the natural ecosystem. I found it a 
convincing reason to stay out of the landscape.
    But the real beauty of the site was the athletes. Walking 
around you see the positive energy with which they approach 
their life. You see how they encourage each other even when 
they are competitors in the same sport on the same team. In 
some, I suspect that you will see the very same vitality that I 
saw there at other training centers.
    At the same time I was there, the Olympic Committee was 
embroiled in a controversy over allegations of corruption and 
less flattering charges. I felt it was a duty to help the U.S. 
Olympic Committee refocus itself upon the athletes, and to 
reorganize the Committee and reduce its size to a more 
manageable board.
    That happened. A leaner, more efficient number of staff now 
exists and includes representatives of the athletes themselves 
on the Board. The upbeat, positive attitudes I saw during my 
visit made it clear to me that our disabled veterans would 
benefit greatly from their activities and increasing their 
participation in sports at all levels, from the beginner to the 
expert, would help them in their rehabilitation.
    With a bit of encouragement, the VA and USOC signed an 
agreement, a memorandum between them in 2005, to begin a 
program to bring more veterans into sports. I truly wanted to 
create an avenue for our military athletes who now find 
themselves disabled, if in fact they can aspire to go and find 
access to the Paralympic Games. As a result, the USOC began a 
series of training events at Colorado Springs, Colorado, and 
Chula Vista, California, for our wounded warriors. Many of 
these servicemembers were literally just a few weeks from being 
wounded in action and the great thing was that every one of 
them, they were smiling despite their injures and the exertions 
they were making to start life all over.
    I also introduced a bill that authorized the VA to provide 
grants via the USOC to other local disabled sports programs, 
and to offer a small per diem to disabled veteran athletes 
training at the USOC families. Chairman Filner also introduced 
legislation and we merged our ideas into one bill that was 
signed into law last year as part of title 38. I am proud that 
through our combined efforts, Mr. Chairman, we have also helped 
formalize the VA Sports and Special Events Programs and 
expanded sports therapy for disabled veterans. VA, and its 
cosponsors from the veterans service organizations, have put 
adaptive sports on the map with events such as the National 
Wheelchair Games, the Winter Sports Clinic, the Golden Age 
Games, and this year the VA will add a new disabled golf event 
to their calendar and I salute the VA and their partners for 
being pioneers in the adaptive sports arena.
    This year the Chairman and I amended the VA appropriations 
bill to increase funding for the program to the full amount of 
$10 million. And that was the number that the Chairman wanted. 
And I applaud and thank him for his work. I want to make it 
very clear that this legislation was not about producing 
athletes for the U.S. Paralympic Team itself. It is about 
increasing the number of disabled veterans who participate in 
all types of sports at all levels of cooperation with the U.S. 
Paralympics and their partners, such as those of whom are 
witnesses here today.
    I am sure Mr. Huebner would agree that you build a national 
team from the ground up beginning with local sports programs. 
One does not wave a magic wand and poof, you have an elite 
athlete. And as much as I am a frustrated athlete, I would have 
loved to have competed in the Olympics, I do not have that 
ability. So everybody will rise to a particular level. And what 
is wonderful about the design of these sports programs, is that 
we are trying to use sports as a platform of healing and for 
individuals to rise to their particular level. And that is why 
I want to applaud the Chairman for his work. And there is a 
real journey here in front of us. And the oversight over all of 
these programs is extremely important and I know it is personal 
to the Chairman. With that I yield back.
    [The prepared statement of Congressman Buyer appears on p. 
45.]
    The Chairman. Thank you, Mr. Buyer. And thank you for the 
nice words about the training center in southern California, in 
my district. It is a great place year-round and I think one of 
our panelists trained there.
    Let me introduce the first panel. All of these witnesses 
participate in the Paralympic program and are here to tell us 
about their experiences. Kortney Clemons is a retired Sergeant 
with the U.S. Army who resides in Chula Vista, California. 
There is an election coming up in 2010, I hope you will know 
who to vote for. He was the first Iraq veteran to qualify for 
the U.S. Paralympic Games and has earned numerous medals in 
track and field through the Paralympic program. Nathan Waldon 
is a Captain with the United States Army who lives here in 
Washington. Captain Waldon serves as the Assistant to the 
Adaptive Sports Coordinator at Walter Reed Army Medical Center 
and Captain Mark Little is in the United States Army and 
currently lives in Fairfax, Virginia. He is a police officer in 
Virginia and trains law enforcement and the military as he 
continues to serve the Department of Defense while completing 
his recovery from his own war injuries. We thank all of you for 
being here. We will insert your written statement in the record 
and you will be recognized for any oral remarks you would like 
to make. Sergeant Clemons, we will start with you. We greatly 
appreciate not only your own athletic talents but your 
ambassadorship to others to try to bring them into the program. 
Thank you for being here.

   STATEMENTS OF SERGEANT KORTNEY CLEMONS, USA (RET.), CHULA 
  VISTA, CA; CAPTAIN NATHAN WALDON, USA, WASHINGTON, DC; AND 
            CAPTAIN MARK D. LITTLE, USA, FAIRFAX, VA

       STATEMENT OF SERGEANT KORTNEY CLEMONS, USA (RET.)

    Sergeant Clemons. Thank you. Good morning Chairman Filner 
and Ranking Member Buyer. My name is Kortney Clemons. I was 
honored to serve in the Army from 2001 to 2006, and I am proud 
to stand before you today as an Army veteran, Purple Heart 
recipient, and a Paralympic athlete.
    I lost my right leg above the knee to a roadside bomb in 
Iraq in 2005. I never imagined when I was lying in the hospital 
bed in Landstuhl, Germany, that 4 years later I would be living 
and training full-time at the U.S. Olympic Training Center in 
Chula Vista as a part of the Paralympic track and field 
resident program. I cannot thank you enough for all you have 
done to support the VA Paralympic program. Your support has 
changed, and will continue to change, the lives of thousands of 
injured soldiers. Some like me may pursue representing their 
country again at the Paralympic Games. But all will benefit 
from the impact of sports in many areas of their lives.
    Paralympic sport has given me an opportunity that I never 
thought would even be possible. Prior to my injury, I was an 
athlete who absolutely loved sports. I played football and 
basketball in my little small town of Little Rock, Mississippi. 
And I played football at East Mississippi Community College. I 
served as an Army medic in Europe and was assigned to the 1st 
Battalion, 8th Cavalry Regiment in Baghdad in March 2004. 
Eleven and a half months after arriving in Iraq I lost my right 
leg to a roadside bomb. I was helping a soldier who had been 
wounded in an earlier incident. The bomb took the lives of 
three of my comrades. I was grateful to have survived, but 
following my injury, I struggled with thinking about my life as 
an amputee.
    When I lost my leg, I felt I had lost my identity. I 
thought I would be in a wheelchair forever. I had never been 
exposed to other amputees, prosthetics, and certainly not 
Paralympic sports. I wondered about where I would live, how I 
would get around, how would I even work? I was dealing with 
post-traumatic stress, coming to terms with the loss of my leg, 
and learning how to walk again. Sports was the last thing on my 
mind. But it was through sports that I found hope and found my 
future.
    I will never forget the day U.S. Paralympic Committee 
employee John Register came to BAMC, Brooke Army Medical 
Center. An amputee himself, he was meeting with injured 
soldiers like myself to tell them about the USOC's Paralympic 
Military Program. I was still learning how to walk. But seeing 
him demonstrate how to run that day changed me forever. I knew 
I could get back to playing sports and his inspirational 
message made me realize that sports could give me strength, 
courage, and confidence to live a great life.
    It is an important outlet for anyone with a physical 
disability. I believe it should be a part of rehabilitation of 
any injured servicemember. Everyone knows it is a benefit from 
a physical and health standpoint, but no one really realizes 
the psychological and emotional benefit that it serves.
    As an athlete, I have had an opportunity to meet many 
wounded soldiers during visits to military hospitals. It is 
wonderful to tell them about the Paralympic Military Program 
and how powerful sports can be in their lives. I know what it 
is like to lie in bed and believe that life no longer would be 
normal. So it gives me great pride to share my story with the 
patients and help them see that returning to sports is not only 
a possibility, it will also help them achieve many other things 
in life.
    To me, sports equals quality of life. It represents health 
and freedom. One of the past participants at the USOC military 
camp summed it up best. He said, ``Rehab helps you exist. 
Sports helps you really live.'' I understand that completely 
and what he meant by sharing those feelings. I remember the 
first time I walked after my injury and how awesome it felt. I 
want other servicemen and women to have the same experience. I 
want them to learn the same things that I did, that Paralympic 
sports can help them, lead them to a productive life, and 
achieve their dreams, and inspire others to do it along the 
way. Thank you.
    [The prepared statement of 
Sergeant Clemons appears on p. 46.]
    The Chairman. Thank you so much, Kortney. Captain Waldon, 
you are recognized.

            STATEMENT OF CAPTAIN NATHAN WALDON, USA

    Captain Waldon. Good morning. Good morning, Chairman 
Filner, Ranking Member Buyer, as well as all the other ladies 
and gentlemen on the panel today. My name is Nathan Wayne 
Waldon and I am a Captain in the United States Army. I 
appreciate the opportunity to testify.
    My affinity for physical activity has not been recently 
acquired. Growing up in the Southeast and thus afforded great 
year round weather, I have been an active participant in 
various sports from early on. This, of course, was strongly 
encouraged, or mandated, by my parents to make sure that I was 
not sitting around the house, playing video games, and watching 
television all day. Looking back now upon those years from a 
very different perspective, I have come to understand that 
there were a multitude of reasons they wanted me to 
participate. Physical activity is something that every child 
needs. An active lifestyle, which started at an early age, is 
something that has always been a part of my identity as a 
person. Sports is where I learned so many important life 
lessons: how to be a team player; putting the good of the team 
ahead of one's personal ambition; how to communicate or 
interact with other people from all walks of life; the 
importance of hard work, nothing is going to come easy; to be 
better you must put in the practice to improve; mental 
toughness, pushing yourself beyond what you think you are 
capable of; never quitting; confidence in oneself, that you can 
achieve what you put your mind to; humility in both victory and 
defeat. I could continue to list all the values that physical 
activity has taught me. But it is simpler to say it is both the 
reason I am alive today and has given me hope for my future.
    Before I ever applied to college, I knew I wanted to serve 
in the Army. I made sure I found a school that was both 
academically strong as well as having a good Reserve Officers' 
Training Corps (ROTC) program. I decided upon Furman University 
and began in the Fall of 2000. During this time, physical 
activity both in the military as well as intramural sports were 
a wonderful balance to all the academic studies. One of the 
first things I learned from my 1st Sergeant was the most 
important: an officer leads from the front in everything that 
he does. You should always set the proper example.
    I graduated in 2004 and proceeded to Fort Benning. 
Throughout all the Army schools I participated in, physical 
activity played a crucial role. The intensity with which I 
approached training was so that I could serve my men better. 
Physical fatigue can obviously lead to poor decision making. My 
sweat now would hopefully prevent their blood being spilled 
later.
    I was assigned to the 3rd Infantry Division, 3rd Brigade, 
2/69 Armor, Bayonet Company, 1st Platoon, as an infantry 
platoon leader. Once again, the lessons I learned living an 
active lifestyle continued to pay dividends. I had the top PT 
score in the company, earning a bit of credibility with my new 
men. I also won the Brigade fitness competition, a new 
tradition started by Colonel Brigsby, the Brigade Commander, 
who wanted to stress the importance of physical fitness to the 
entire Brigade. I received an Army Commendation Medal (ARCOM) 
as well as a 4-day pass for this accomplishment. But it also 
gained notoriety for my platoon and gave them something to be 
proud of as well.
    On 11 July, 2007, we were conducting combat operations in 
Baghdad. My platoon was mounted in gun trucks on the way to 
conduct dismounted patrolling operations. My vehicle was hit 
with an explosively formed penetrator (EFP), the signal to 
launch an ambush. The slug from the EFP went through my door 
and in my leg, and fortunately bit my rifle up pretty good 
perhaps saving my left leg. I was able to get the door open, 
climb or fall out, and my gunner assisted me from the top 
dragging me back to the third truck.
    It was so surreal, the magnitude of what had happened to me 
just now was taking a moment to set in. I did not have much 
time to contemplate my situation. My platoon sergeant was 
giving me the situation report (SITREP) and we were still in 
the fight. Luckily, everyone in the truck was fine. Everyone 
was going about their business or reacting to contact just as 
we had always trained. I was conscious and able to make 
rational decisions. Without my training, none of this would 
have been possible. Being in excellent shape kept the injury I 
had sustained from being far worse. The emergency room docs 
said it should have taken my leg off to the hip just from the 
force of the projectile. He cited my physical conditioning as a 
large part of the reason I did not go into shock or lost 
consciousness.
    I was transported back to Walter Reed Army Medical Center, 
where my surgeries and rehabilitation began. It was not a happy 
time. I was in pain. I had recently had a life altering 
experience, etcetera. I had always been very independent and 
self-sufficient but now I cannot walk. What made this even 
worse was that sports was such a large part of my identity. I 
was only focusing on the negative, but without that outlet who 
was I? I truly felt lost. My prior conditioning allowed me to 
achieve the goals of the therapist but I wanted more.
    Because of my physical progression, they recommended I try 
to participate in one of the adaptive sports programs. It was 
December at this point and DSUSA was hosting the Hartford Ski 
Spectacular along with the Wounded Warrior Project. I decided 
to go on this trip and it was one of the best decisions I made. 
It was like learning sports as a child all over again. I felt 
like such a fool falling all over the place. You want to quit. 
You want to get up. Your strength is not there. Your leg is not 
doing what it wants to. But the lessons instilled as a child 
were still there. Humility, just swallow your pride, get out 
there, battle it, do not give up. The instructors and the event 
were exceptional. By the end of the week, I had made great 
progress. But I did not want to be adequate; I wanted to excel.
    Since this initial event I have had the opportunity to 
attend others building upon what I learned at the last event 
and always pushing forward. As I have improved, it is always 
inspirational for other wounded who attend these events to see 
what they can accomplish if they commit themselves.
    Words cannot express how grateful I am to those who gave me 
the opportunity to participate in their events. Thank you so 
much for giving me my life back.
    Sorry about that.
    [The prepared statement of Captain Waldon appears on p. 
47.]
    The Chairman. Thank you for your very eloquent and moving 
testimony. Captain Little, you are recognized.

            STATEMENT OF CAPTAIN MARK D. LITTLE, USA

    Captain Little. Good morning, Chairman Filner, Ranking 
Member Buyer, ladies and gentlemen. Thank you very much for 
entertaining our testimony today. I personally feel that this 
is a very, very important project for all returning veterans, 
and disabled veterans in particular. My name is Captain Mark 
Little, United States Army, and luckily Captain Waldon's story 
is almost a mirror image of mine so we can save a lot of time 
here.
    I served 4 years almost in the National Guard enlisted, 
getting ready to be a Lieutenant Active Duty through George 
Mason ROTC. I was assigned also to 3rd Infantry Division, 
however the 2nd Brigade Combat Team, 1/30 Infantry. And 
deployed in 2007 with them to Iraq. Similarly, while conducting 
combat operations there I received an (EFP, which was my third 
improvised explosive device strike in the last month of the 3-
month tour I had, which came in through my door, took both of 
my legs off below the knee, and similarly, luckily, exited 
without injury to any other personnel. I was evacuated through 
Germany to Walter Reed and on September 11, 2007, began my road 
to recovery there.
    Very similarly, also, sports was huge in my identity, being 
an almost pro roller hockey player, ice hockey player, rugby, 
tennis, golf, soccer, football, etcetera. I had similar 
concerns. Now I am missing both of my legs, how am I going to 
be an excellent sports star like I always knew I would be? And 
it was as I was expressing those concerns my first day of 
physical therapy a couple weeks after returning home that a 
Gunnery Sergeant from the Marine Corps who is a double below 
the knee amputee walked in with his set of prosthetic roller 
blade inline skates, telling me that they had just custom made 
those for him. He was the second person to ever receive that 
style and was already skating outside.
    Right then and there competitive spirit took over and I 
knew exactly what I knew before in the military and even prior 
in sports: I have to be better than this man. I have to do one 
more. So I asked my physical therapist, who ironically was also 
his physical therapist, what records had he set? And she said 
pretty much everything for a double amputee. So after getting a 
laundry list of those I set out to beat every single one. Day 
5, walking up the helicopter pad hill on prosthetics 5 days in 
beat his 6-day record. And then snow boarding 4 months after 
injury, after 2\1/2\ months after receiving legs without any 
real adaptive equipment beat his record of about 3\1/2\. And 
continuing on from there, not to be an immodest person.
    But that is the point I am trying to convey. Is what we get 
through this adaptive sports type program is our competitive 
nature back, which is inherent to pretty much everybody in the 
military as an alpha type personality. We want to be better, 
and the best that we can personally. And seeing others that 
have come before us gives us that bar that we have to set new 
one higher and better.
    In addition to that, we learn lessons from each other that 
we would have never know. I would have never know half of what 
I do about being an amputee, being a returning disabled 
veteran, and just getting around in life, had it not been for 
people like my first snowboard trip, Captain Waldon, who you 
may have met earlier, teaching me how to properly fit my 
prosthetic in a snowboard boot to get down the hill, which I 
did successfully my first time. And then going on to be that 
person. There is somebody else out there now that is telling a 
story about how Captain Little showed him how to do that the 
first time he was out there. And he had questions about how to 
do X, how to do Y, and now he is a more striving and better 
functioning returning disabled amputee in the military. And 
that is what these programs are, brass tacks. It is how we get 
back up literally and figuratively, and move out with our life, 
and become better and more prosperous personnel both within the 
military as we still serve and within our communities, as I 
have gone on to be a reserve and volunteer police officer and 
train fully capable and able-bodied personnel with no injuries. 
And it is not until day 5, the last day of training when we go 
out for a brewski in the pub, when I wear shorts, that these 
guys who I have been running around with guns and on stairs 
realize, ``Holy, that guy has no legs.'' You know? That is what 
we strive to do. We do not want to be the target of pity. We 
want to get out there and show you that we can be better and we 
can do more than you will ever expect.
    DSUSA, Paralyzed Veterans of America (PVA), all these 
organizations like the Wounded Warrior Project (WWP), they give 
us those opportunities. And without that I do not think I would 
be where I am right now, literally and figuratively strutting 
my stuff down the hallways and just being a happy camper as I 
am. If you see me with a frown, that is probably the second 
time since injury because there has only been one, and that was 
when I fell the first time snowboarding.
    Otherwise, I really appreciate what you are doing for us 
and allowing us to help each other. And at the community level, 
that is what we are looking to do. Is keep together and keep 
pushing forward, and again, I thank you for your time.
    [The prepared statement of Captain Little appears on p. 
49.]
    The Chairman. I do not think we have had a more moving 
panel. Thank you so much for your testimony. It is not often 
that we debate issues and authorize millions of dollars for a 
program. To see the actual results of this program recommits us 
to doing the right thing. You continue to inspire us as you do 
others that you will meet along the way. Thank you so much for 
recommitting us to this struggle that you have gone through, 
have conquered, and are going to help others through as well. 
Mr. Rodriguez, do you have a statement or questions?
    Mr. Rodriguez. Yes, thank you very much. Let me say it is 
extremely inspirational just to hear you guys talk about your 
experiences. I have a daughter who is 27, and to see you young 
kids, in all honesty, where you are at, and the growth that you 
already display, I want to just congratulate each and every one 
of you. I sometimes talk to young people and people that have 
had difficulties in their lives. You have certainly had your 
share of difficulties. I usually tell them that there are two 
roads. One is where you ``feel pity, the poor old me'' 
syndrome, and it will get you nowhere. But you guys do not even 
have to talk about that. You are living it. And you are 
experiencing that. By you going out there it can make all the 
difference in the world to a lot of these individuals. And I 
know life has a lot of ups and downs. And whatever else you 
face in life is going to be nothing compared to what you have 
already experienced. So it is a piece of cake, the rest of it, 
in terms of going through in the future. And so I just want to 
congratulate each and every one of you for what you are doing, 
and what you continue to do. And that is inspire others to do 
and go beyond. Because we have a large number of young soldiers 
coming back with a lot of difficulties. And even outside the 
military, there are a lot of young people out there that feel 
sorry for themselves for one reason or another. And you guys 
are just a great inspiration and great role models. So I want 
to just thank you for who you are and what you have been able 
to accomplish at such a young age. Thank you.
    The Chairman. Thank you, Mr. Rodriguez. Mr. Walz?
    Mr. Walz. Well, thank you, Chairman. And I see the Ranking 
Member slipped out but I would like to thank both of you. You 
have been absolutely stalwartly committed to this program and 
it really sets the tone for the rest of us. And I will echo to 
all of you, thanks for being here today. Your stories are 
absolutely uplifting. It is a great example, and not just for 
other wounded veterans but for this entire country.
    And Captain Waldon I thank you for reminding me of that day 
almost 30 years ago when I got to do a little bit of physical 
activity at Fort Benning, in that beautiful resort. And they 
helped me so much, doing so many of those things. But my job 
before I got here, and what if I am on a leave of absence, and 
what I will do after I leave here, is that I am a high school 
teacher and a football coach. And actively engaged and 
understand what competitive sports do. And I have been on and 
coached the teams that failed to win a game, and then 3 years 
later coached the same team to win a State championship. And 
that striving for goals. And what I can say is, it is a lot 
more fun to win the State championship but there is also a lot 
of lessons in that journey in trying to get there. And so, your 
story of how you have taken that journey and seen these things 
as opportunities to overcome instead of obstacles, I would echo 
what the Chairman said. Is I do not think of the money we spend 
up here we could find a better place to put, a more rewarding 
place, and one that sets such an inspirational tone.
    And Captain Little, I would just say, is there anything 
more we can be doing on this outreach? I think you had a real 
moving statement there, about talking about how you were 
touched. And now I think it is just a great story for you to 
know, somebody saying, ``Captain Little, this guy showed me 
what to do.'' And that is being passed down. How do we increase 
that? Are we doing enough to get to these folks that, as we 
said, may not participate in the Paralympics but may go 
snowboarding on the weekends with their families? So if you 
could let me know, we would be glad to make sure we are pushing 
it.
    Captain Little. I can tell you personally, moving down to 
smaller, I guess, smaller scale, I use the term operations 
because that is what I am used to, is going to be great idea 
and a great benefit, whereas a national level program taking 
guys out to Vail or Breckenridge for a ski and snowboard event, 
or up to Northern New York, upstate for, you know, a summer 
camp, that is wonderful, uplifting, and inspiring. However, you 
know, the first time I ran ever missing both legs was not at 
physical therapy, and it was not at a national level event. It 
was a DSUSA intern invited me out to kickball out on the 
National Mall. And in order to get to first base I had to move 
expeditiously. And so I quickly taught myself how to run after 
thumping a ball with a titanium foot. And it is things like 
that that we need right here in our communities because not 
everyone stays in DC. A Fairfax native I am. However, if you 
are out in the middle of, you know, Green Springs, Idaho, no 
offense to Idaho, but there is not going to be that program 
there yet, and there needs to be. Little things, like the 
kickball, or like the softball league, is what is going to get 
guys back up and moving.
    Mr. Walz. Captain Waldon or Sergeant Clemons, anything on 
that, too, of how we do that? How we get this outreach more? 
What are, I think it is a great point of at the local levels, 
how do we make sure we are letting those folks know where they 
have the resources to do this? If you have any insights, we 
would appreciate it.
    Captain Waldon. No, just stressing the same thing. You 
know, reiterating what Mark said. Pretty much the daily 
community programs, just moving it down to more, just like 
classroom size. The smaller the classroom the more personal the 
instruction can be for the students. It is the same thing with 
this. The more one on one, one on three, one on four time you 
can really get with an instructor or someone to help you out, 
you know, the better it will be. And, you know, just pretty 
much being everywhere. I mean, it is a far reaching goal but, 
you know, you at least have, you know, something in mind. Like, 
something to push forward. So no reason to settle if we can 
achieve something else.
    Mr. Walz. Well again, thank you all. Go ahead, Sergeant 
Clemons? All right.
    Sergeant Clemons. Well I think, just to bounce off some of 
the same things they said, I think one of the most important 
things is the programs working together. The main thing, just 
spreading the knowledge, so to speak, to let them know that, 
okay, these programs are going on. And just letting them know 
that, okay, once you leave this camp, or once you leave this, 
maybe some type of camp or whatnot, whenever you get back home 
there are things that you can do to continue to move forward. 
And I think that would be the main thing. Make sure that these 
guys know, at all levels, that they can get back in, get up and 
going again.
    Mr. Walz. Well again, I thank all three of you. It is 
incredibly inspirational. And as I said, the attitude you have 
taken on this is really great to see. And we will make sure we 
do our part to enable you to do that. So I yield back, and 
thank you Mr. Chairman.
    The Chairman. Thank you. Mr. Roe.
    Mr. Roe. Thank you, Mr. Chairman. And I want to start by 
saying, and Captain Waldon, where you said words cannot express 
how grateful I am, I cannot express how grateful I am to the 
three of you for service to your country, to our Nation. And 
thank you for that.
    I totally understand. I am an old second ID guy. We had a 
war in the 1960s in Vietnam, we sort of forgot about our troops 
for awhile. I promise you that will not happen here. I am going 
to, and I know everyone, I have heard everyone speak on this 
panel. And we are committed to be sure that you get the care 
you need from now on. I know you, you guys are very young, and 
you do not think you are ever going to be 40-, or 50-, or 60-
years old. Guess what? You wait around a few years, you will 
be. And those needs will change. And competitors like you are 
going to be able to teach us a lot about how, because I, being 
an old athlete as I am, I have done this DC Marathon four 
times, and for my 60th birthday I summited Mt. Rainier for the 
fourth time. I understand competition. And I think one of the 
best things, the best treatments for depression is sweat. And 
you guys have shown that. I mean, it is amazing what you have 
done. And we have a VA in my district back in Tennessee. And I 
certainly would like to keep in contact with you all to be able 
to get ideas that we can take back to our VA. So when soldiers 
come there we can take what you have learned and pass that 
along to them. And these devices that you have are going to 
improve with time. They are going to get better. And you are 
going to help us make them better. You can actually do that 
because of what you are doing, excelling in the field of 
athletics.
    Captain Waldon, I look forward to seeing you. I am sure we 
have friends because there are a lot of people from Johnson 
City, Tennessee, where I live, go to Furman University. And, 
but once again, I will yield back my time. But I just want to 
tell you, everyone on this panel I have heard speak now for 
months are committed to being sure that you get the things you 
need. And we can learn from you all. So thank you, do not thank 
us, we want to thank you.
    The Chairman. Thank you. Mr. McNerney.
    Mr. McNerney. Thank you, Mr. Chairman, for pulling together 
this hearing. And I want to say when I first came in here I was 
sleepy from jet lag. And hearing your testimony, it inspired me 
and it was truly, it was worthwhile.
    Now, one thing I noticed in all three of you that was a 
moment of inspiration, that was you came out of the injury, you 
were in the hospital, you were depressed, and then something 
sparked you. Sergeant Clemons, in your case it was an 
individual that you saw that had a similar injury. And Captain 
Little, same thing, an individual came in and you said, ``Hey, 
I can do that. I can beat this guy.'' And so, it seems to me 
that that is the key here. It is reaching people with an 
inspiring story that can get them going, can lift them up out 
of that depression or that slump they are in after getting 
injured and seeing their life potentially change. And so what I 
want to do is encourage you to tell your story and to go out 
there and inspire those guys that need that inspiration.
    But there are only three of you here. And you are young. 
And when you saw this inspiration you were young. But we have a 
lot of veterans that are not young that have lifelong injuries. 
And what I would like to know is if you have any idea on how to 
reach them with an inspiration? How to get them reengaged and 
engaged in sports, or something that will get them back into 
the community. If anyone wants to take a shot at that I would 
appreciate it.
    Captain Waldon. The only thing I have not even really 
looked at it from that perspective before. I totally agree with 
you. I mean, things have advanced so much with technology as 
well as, I mean, even how they conduct the ways to treat your 
amputation, how they are doing just the surgeries, totally 
different kind of theory than they used to do, where they tried 
to keep the most length. And now they are actually padding it a 
certain way. Things that I am definitely not an expert in. But 
what they gave me works out great.
    The only time I really see the people is when they are 
coming through, like, you know, the amputee clinic, the 
Military Advanced Training Center that they opened recently, 
and they come down there on a Wednesday. I mean, Kirk Bauer 
from DSUSA being, you know, a Vietnam veteran who is, you know, 
an above knee amputee. And you see a lot of those guys from the 
VA get siphoned through it that way. And then they kind of see 
what is out there at that point, and they can get interested. 
But as far as, you know, specific targeting for those people is 
really going to have to be done at more the VA level, and their 
local communities. Because, I mean, we are very fortunate here 
at Reed, you know, BAMC. What is it down in Texas? Balboa, 
yeah, Balboa is the other center. Any of the, like, the main 
treatment centers that we will go through, very fortunate to 
have the prosthetic care. And the programs are there almost 
force fed to you, which is wonderful. It really, I mean, they 
get you up, they get you going. And maybe something like that, 
you know, maybe a sports coordinator or something at the local 
VAs. Some sort of just point of contact, POC, when they get to 
these places, you know, if they are coming through there, going 
back to their hometown community. Okay, I am going to be going 
to this VA. You know, put them in touch with that person, or 
have it be almost like their in-processing thing. Just to know 
they are there.
    Mr. McNerney. I mean, it is important for them to see 
someone that has sort of been through the same thing. Someone 
that is, ``Hey, I have been there. I have lost my leg. I have 
spent, I have been through rehab,'' all that sort of thing, you 
know. And yet, ``I got inspired.'' You know? And then, 
``Hopefully, you can too.'' Is that, it just seems that that is 
a critical element. Is for them to see someone that gets to 
them, that says, ``Hey, we can do this.'' Or, ``I can do 
this.''
    I was pretty touched by your story, Sergeant Clemons. How 
you saw an individual and you said, ``Hey, this guy is doing 
it.'' You know, ``I can do the same thing.''
    Sergeant Clemons. To bounce off what you were saying, I 
feel that that is the best way. A therapist can tell me with 
both limbs how to run and I could, you know, follow that. But I 
did not, to see someone do it was just, you know, was, like, so 
enlightening for me. It gave me hope. It gave me, you know, a 
sense that, ``Okay, I can get this done.'' And for those guys 
that are older, they may not, we may be younger for those guys 
but it is a way. And so, it is a way for us to give back and, 
you know, and help those guys. Because those guys invested in 
our future. Because of the Vietnam guys we are better taken 
care of.
    So I do not really think, I really feel that it gives us 
the opportunity, I know I would love the opportunity to go back 
and help those guys. So I think the main thing is just getting 
us together. I think we will all be able to learn from one 
another.
    Mr. McNerney. So giving you the opportunity to go out there 
is also important? And not just giving them, but it gives you 
an opportunity as well. So with that I yield back.
    The Chairman. Thank you. Mr. Boozman.
    Mr. Boozman. Thank you, Mr. Chairman. I really do not have 
any questions. I just appreciate you guys being here and 
telling us your accounts. And I appreciate your courage. I had 
the opportunity to play football at the University of Arkansas 
as just kind of a journeyman guy. But I understand how 
important athletics are. And not just, you know, athletics at 
the level that you guys are at. But just competition. Getting 
your mind on something else as you are rehabilitating and 
things. And I appreciate your courage, the fact that you are 
here. Your achievements really are making a difference. It is 
helping us to push these programs forward. You are tremendous 
examples of what they can do for individuals. And so, again, I 
just appreciate you and thank you for your testimony.
    The Chairman. Thank you. Mr. Teague.
    Mr. Teague. Yes, Mr. Chairman, thank you. And I also agree 
with the Chairman earlier when he said that this was the most 
moving panel that we had had. And I do not want to take a long 
time either, but I do want all of you to know that, you know, 
we are grateful not only for what you have done for your 
country in the past but for what you are doing for veterans 
that are coming back now that see you as an example. And I want 
to thank you for the inspiration that you have given to all of 
us here so that we know that we are doing the right things in 
working on these programs. And once again, just to tell you 
that we thank you and I appreciate your inspiration.
    The Chairman. Thank you. Mr. Stearns.
    Mr. Stearns. Mr. Chairman, thank you. I had the opportunity 
to participate in the winter sports clinic that was in Aspen, 
and I think Diane Hartmann is in the back there, and I see she 
is testifying, and she has been one of the organizers. And I 
would encourage members--if you get a chance--to go out there 
and ski with the disabled. You know, when you are skiing on the 
slope and you see someone with has no legs and he is skiing 
very well, perhaps better than I was, or a person skiing 
without arms, it is an inspiration to see these people. And 
then at the end of the ceremony they have awards and things 
like that. So it is quite emotional. And I think those are the 
kind of activities that promote the wherewithal, both 
spiritually, mentally, and physically for the veterans. So I 
think things like that program are something to be emulated for 
all the veterans who are disabled.
    And the question I have for all of you, what are the 
barriers to your continued participation in a disabled sports 
program? Just a short sentence or two of what you think the 
barriers are. And Captain Little, let's start off with you.
    Captain Little. Well, I can tell you a lot of the programs 
right now that are very beneficial are kind of what I mentioned 
earlier. Longer programs, as in 5, 6, 7 days, things like that, 
trips out to Colorado. And as veterans go back into the 
workforce you cannot just nudge your boss three grades over you 
on the GS scale and say, ``I am going to cut out for 7 days, 
hit the slopes in Vail so I can inspire some new guys on how to 
ski.'' Unfortunately, that does not cut it. However, things 
like, ``I am going to cut out early this afternoon to go to a 
softball game and a picnic with a bunch of returning vets,'' 
would be more apt to be smiled upon, especially within the 
government and private employers I am sure as well. So I would 
have to say distance and length of time that you would have to 
take to put an impact out there would be one barrier that I 
could foresee.
    Mr. Stearns. So that the employee who wants to participate 
still does not feel that he is disadvantaging his corporation 
or his productivity?
    Captain Little. I would say so. It is not a problem for the 
vets who are just returning, you know, while in therapy because 
your therapy is your job. But veteran veterans after they are 
out of the service and back in the workforce who still want to 
participate, that may be the potential barrier I see foremost.
    Mr. Stearns. Captain Waldon.
    Captain Waldon. We could keep going around and around the 
same thing, he and I. It is, you really have to inundate 
yourself for any of these programs. I mean, I was flopping all 
over the place my first couple days. But then the 3rd day, the 
4th day, that is when you really start picking it up. And a 
good thing when we are initially there is that you do have that 
extended trip. So it has the benefit of inspiring you or giving 
you that competitive edge instead of discouraging you, which 
could also have, you know, consequences that are not intended. 
That is the thing, they have a lot of alumni programs with 
these groups, but----
    Mr. Stearns. But if you have other disabled people that are 
with you--your peers--and you do not do well, they can help. 
When I was in Aspen, these other disabled veterans came up to 
the person who had a tough time getting down the slope and 
said, ``Let us try, try again like the little choo-choo train, 
you will get up the hill.''
    Captain Waldon. Oh, yeah.
    Mr. Stearns. And by the end of the afternoon they were 
doing things that probably they could not have done on their 
own, all through the inspiration of other disabled veterans.
    Captain Waldon. Yes, sir, without a doubt. That is why we 
need to get back to those programs. But like he was saying, 
once you go back to having a real job somewhat again, it makes 
it a little more difficult. But being there for whatever amount 
of time you can is obviously optimal.
    Sergeant Clemons. I would say the same thing as Captain 
Little and Captain Waldon. It is just a time barrier. Once you 
get back and get your quality of life back, and you have a job, 
and being able to take off work for those 3 or 4 days to do 
those camps, or whatnot, would be the problem. Would be a 
barrier, rather.
    Mr. Stearns. Mr. Chairman, they have all sort of echoed the 
same problem, this taking off from work. And there might be 
some way to give incentives for employers through tax credits, 
or some kind of incentive that we have for hiring of veterans 
in the marketplace so that these people can get the opportunity 
to do this. Because in the end, we owe these veterans this kind 
of incentive. And in a larger sense by them being healthy, it 
is saving the Veterans Administration from caring--
psychological caring, physical caring--because they are taking 
it upon themselves to do rehabilitation on their own. And so, 
it is to the government's benefit to have some kind of 
incentives for employers to allow these disabled veterans to 
have this extra time off, I suspect. And that might be an idea 
we will kick around here. Thank you, Mr. Chairman.
    The Chairman. Thank you, Mr. Stearns. Again, thank you all. 
You have helped us all understand your situation and the 
situation of thousands of others. You have made sure that we 
will recommit ourselves to making certain that these programs 
continue. We thank you all so much and we will look to the next 
panel also to help us. Thank you again.
    Welcome to the second panel. We thank all of you for being 
here. We have Adrian Atizado, who is the Assistant National 
Legislative Director for the Disabled American Veterans (DAV); 
Carl Blake, the National Legislative Director of the Paralyzed 
Veterans of America; Julia Ray, the Manager of the Wounded 
Warrior Disabled Sports Project of Disabled Sports USA (DSUSA); 
David Stringer, who is representing the National Recreation and 
Park Association (NRPA) on behalf of Richland County, South 
Carolina, Parks and Recreation; and Carlos Leon is a Member of 
the Iraq and Afghanistan Veterans of America (IAVA), and also a 
Paralympian. Any written statement will be made a part of the 
record and we look forward to your oral statement. Mr. Atizado, 
we will begin with you.

STATEMENTS OF ADRIAN M. ATIZADO, ASSISTANT NATIONAL LEGISLATIVE 
  DIRECTOR, DISABLED AMERICAN VETERANS; CARL BLAKE, NATIONAL 
LEGISLATIVE DIRECTOR, PARALYZED VETERANS OF AMERICA; JULIA RAY, 
  MANAGER, WOUNDED WARRIOR DISABLED SPORTS PROJECT, DISABLED 
 SPORTS USA, INC.; DAVID STRINGER, RICHLAND COUNTY, SC, PARKS 
AND RECREATION DEPARTMENT, ON BEHALF OF NATIONAL RECREATION AND 
PARK ASSOCIATION; AND CARLOS LEON, MEMBER AND PARALYMPIAN, IRAQ 
              AND AFGHANISTAN VETERANS OF AMERICA

                 STATEMENT OF ADRIAN M. ATIZADO

    Mr. Atizado. Mr. Chairman, Members of the Committee, I 
would like to thank you for inviting the DAV, an organization 
of 1.2 million service-disabled veterans, to offer our views 
and experience with disabled veterans rehabilitation through 
sports, and National Disabled Veterans Winter Sports Clinic, 
and any anticipated impact Public Law 110-389 may have.
    First, I would like to note that the research indicates 
that recreational therapy offers a diversity of rehabilitation 
benefits, addressing the needs of disabled veterans with a wide 
range of disabling conditions. For example, recreation therapy 
is an effective means for improving physical, cognitive, social 
and emotional functioning. It helps develop skills needed to 
enhance functional independence for community living, to 
promote a higher quality of life for veterans and their 
families. Recreational therapy prevents a decline in physical, 
cognitive, and psychosocial functioning and results in reduced 
need for health services. It also reduces secondary disability 
and associated higher healthcare costs.
    Now, through the Winter Sports Clinic, veterans are able to 
reap the rehabilitation benefits of recreational therapy 
through adaptive sports. The DAV recognizes the benefits on the 
lives of disabled veterans that the Winter Sports Clinic has, 
and we have been a cosponsor of the event along with VA and a 
number of other generous corporate and individual donors.
    The Clinic has grown tremendously over the past 23 years. 
It is the largest annual disabled learn-to-ski clinic in the 
world and is a leader in promoting rehabilitation. While it is 
geared to first timers, of which there were 114 new 
participants this year, 29 attendees were women, and over a 
third of the total participants were servicemembers and 
veterans from the Wars in Iraq and Afghanistan.
    Now in addition to adaptive sports, educational and 
instructional activities are also available at the Clinic. The 
U.S. Secret Service teaches a self-defense course to 
participants who are in wheelchairs or are visually impaired. A 
traumatic brain injury (TBI) peer support group meeting was 
again on the agenda this year, where veterans suffering from 
TBI participated, as well as their families and their 
caregivers. A DAV past National Commander, Chad Colley, and his 
wife Betty Anne hosted a discussion with the participants 
entitled, ``Veterans--Not Just About You!'' And the couple 
spoke at this event about the relationship between disabled 
veterans and their spouses and offered what we believe was sage 
advice on maintaining relationships and marriages.
    If it is not already apparent, Mr. Chairman, the Winter 
Sports Clinic is a rehabilitation program. It is open to 
veterans of all ages, all levels of ability and impairment. 
Some of these veterans have never skied before but they do 
learn none the less. And the thrill of victory at the Clinic is 
not over an opposing team but rather one's own disability and 
perceived impairments.
    Last Congress, I know that DAV was invited to testify on 
H.R. 4225, which is now contained in title 7 of Public Law 110-
389. The intent of this title, we believe, is laudable and it 
has obviously shown its positive impact as indicated by the 
first panel. However, section 702 of the law may have an impact 
on the Winter Sports Clinic, which I would like to discuss 
right now. It requires any application for VA grants by the 
U.S. Paralympics to include partnerships for adaptive sports at 
the national and local levels, and to do so with other 
organizations, such as the DAV. Currently, our organization 
does not have a relationship with the U.S. Paralympics but we 
are going to be meeting with them here shortly.
    This Section also allows for individuals with disabilities 
who are not veterans or members of the armed forces to 
participate in sports programs that receive funds that were 
originally from VA grants. As an organization devoted to 
improving the lives of our Nation's wartime disabled veterans, 
we are concerned about any shift in VA's mission, personnel, or 
resources away from the intended community. Moreover, section 
703 requires the Director of the VA Office of National Veterans 
Sports Programs and Special Events to seek sponsors and 
donations from the private sector to defray costs for the 
programs it oversees. This provision may, and I say may, have 
an adverse impact on our organization's ability to discharge 
our responsibilities contained in the memorandum of 
understanding with VA at the Winter Sports Clinic.
    DAV is deeply committed to achieving each year a successful 
Winter Sports Clinic and we value our responsibility to 
administer the corporate sponsorship program as well as other 
mutually agreed upon activities. Mr. Chairman, this concludes 
my statement and I would be glad to answer any questions you or 
other Members of the Committee may have.
    [The prepared statement of Mr. Atizado appears on p. 49.]
    The Chairman. Again, thank you so much. Mr. Blake.

                    STATEMENT OF CARL BLAKE

    Mr. Blake. Mr. Chairman, Members of the Committee, on 
behalf of Paralyzed Veterans of America I would like to thank 
you for the opportunity to testify today. Before I begin my 
formal remarks I would just like to say that I do not think 
that anything we could say on this panel would better reflect 
the importance of these programs than the stories that the 
gentlemen on the first panel told. If that does not make the 
case for why these programs are important, then nothing could.
    Since its inception in 1946, PVA has recognized the 
important role that sports and recreation play in the spinal 
cord injury rehabilitation process. In fact, it was paralyzed 
veterans who returned injured from World War II who started 
playing pickup games of wheelchair basketball in VA hospitals. 
This really marked the birth of wheelchair sports. PVA sponsors 
a wide array of sports and outdoor activities to improve the 
quality of life and health of veterans with severe 
disabilities. Most notable of these is the National Veterans 
Wheelchair Games which recently concluded, and marked the 25th 
year of the partnership between PVA and the Department of 
Veterans Affairs. As you know, we also run a number of other 
sports and outdoor recreation programs meant to get severely 
disabled veterans involved. Those include a shooting sports 
program, and boating and fishing program, a program in 
association with the National Wheelchair Pool Players 
Association, as well as a program run in conjunction with the 
American Wheelchair Bowling Association.
    PVA was pleased to support the provisions of Public Law 
110-389, the Veterans Benefits Improvement Act of 2008. Section 
7 of the law authorized the VA to provide assistance to the 
Paralympic Military Program and expand sports and recreation 
opportunities available to severely disabled veterans. The 
intent of the law is consistent with the mission of PVA's 
Sports and Recreation Program, which is to expand the quantity 
and quality of sports and recreation opportunities, especially 
those that promote a lifetime of fitness and a healthy 
lifestyle for PVA Members and other people with disabilities. 
PVA was also pleased to see that the law creates an office of 
National Disabled Veterans Sports Programs and Special Events, 
and a Director position to oversee this office. However, we 
remain concerned that the office is required to report to the 
Veterans Benefits Administration. We believe that this office 
would be more appropriately placed under the Veterans Health 
Administration (VHA) given that rehabilitation is a part of the 
mission of VHA and what we also believe is a fundamental 
mission of this new office.
    We believe that much progress and enhanced cooperation has 
resulted from the Paralympic Military Program. Under this 
program, PVA has witnessed improved coordination between our 
organization, USOC Paralympics, and other veterans and 
community-based sports organizations that has enhanced existing 
programs and advanced development of new programs in 
communities that previously had not been served.
    PVA and its chapters have recently expanded specific 
opportunities with the Paralympic Military Program. These 
opportunities include partnering with PVA to implement a new 
handcycling program in four strategic locations throughout the 
United States. These are in Chicago, Illinois; San Antonio, 
Texas; San Diego, California; and the Washington, DC/Richmond, 
Virginia area. We have also partnered with the USOC Paralympics 
to introduce USOC shooting sponsored airgun and air pistol 
clinics and competitions at the PVA National Trap Shoot Circuit 
events. We have also partnered with the Paralympics to 
introduce Paralympic-style events at the National Veterans 
Wheelchair Games for the purpose of identifying future 
potential Paralympic level athletes. Also, PVA's Mid-America 
chapter has partnered with the USOC Paralympics to coordinate a 
multi-event sports camp hosted by the University of Central 
Oklahoma which will be held in August of this year at Lake 
Arcadia, Oklahoma.
    As part of our testimony on sports and recreation 
opportunities offered last year, we made several 
recommendations that we believed would expand veteran 
participation in those programs administered by the VA. One of 
our principal concerns was to remove barriers to participation. 
Our concern then was that newly injured veterans should be 
provided timely access to education and training regarding 
sports and recreation opportunities. Furthermore, we believed 
then that the VA and the U.S. Department of Defense (DoD) 
should facilitate outreach efforts of legitimate organizations 
promoting sports and recreation opportunities by improving 
their access to newly injured veterans. We believe that the 
Paralympic Military Program has helped alleviate some of these 
concerns and we look forward to continued progress as a result 
of this program.
    Mr. Chairman, I would like to thank you again for the 
opportunity to testify and I would be happy to answer any 
questions that you might have.
    [The prepared statement of Mr. Blake appears on p. 51.]
    The Chairman. Thank you, Mr. Blake. Ms. Ray, you are 
recognized.

                     STATEMENT OF JULIA RAY

    Ms. Ray. Thank you for the opportunity to speak today. 
Disabled Sports USA, or DSUSA as it has been referred to today, 
was established in 1967 by disabled veterans to serve the war 
injured from Vietnam. Since that time it has grown to serve 
both military and civilian adults, as well as youth, with 
disabilities. Its chapter and national leadership still 
includes disabled veterans, including its National Executive 
Director Kirk Bauer, who is a decorated disabled Vietnam 
Veteran. DSUSA has 100 community-based sports chapters 
operating in 38 States offering over 30 different year round 
sports. Sports offered include alpine and nordic snow skiing, 
rock climbing, kayaking, sailing, and many others, which I will 
not run all of them today. DSUSA's emphasis is on sports 
rehabilitation and recreational activities that lead to an 
active and healthy lifestyle. We also offer sports competitions 
and training camps that provide a pipeline for emerging 
athletes who want to train for the summer and winter Paralympic 
Games.
    Since 2003, Disabled Sports USA in partnership with its 
local community-based chapters and the Wounded Warrior Project 
has conducted the Wounded Warrior Disabled Sports Project 
(WWDSP). Under the program, severely wounded servicemembers are 
provided the opportunity to learn over 25 different sports as 
part of their rehabilitation. All of their expenses are paid 
for by DSUSA, including airfare, lodging, and training by 
experienced adaptive sports instructors. Family members are 
also paid for to participate in order to keep the family unit 
intact by sharing positive, healthy experiences with their 
wounded warrior. Programs are offered at the major military 
medical centers where the severely wounded are treated, 
including those mentioned today, Walter Reed, National Naval 
Medical Center, Brooke Army Medical Center, and San Diego. 
DSUSA also serves patients from many veterans hospitals, 
including polytrauma centers at Palo Alto and Tampa for injured 
servicemembers with traumatic brain injury, paralysis, and 
multiple other injuries. Since its inception, over 2,500 
severely wounded servicemembers, family members, and hospital 
staff have been served through more than 350 events in 25 
different sports.
    The WWDSP model is based on offering immediate 
participation opportunities as part of ongoing therapy while 
the wounded warrior is in hospital, and then as a continued 
part of their recovery. Sports are particularly effective 
during rehabilitation because the basics of almost any sport 
can be taught in as little as one day. A quick, successful 
experience helps provide a positive outlook and is reflected in 
our motto, ``If I can do this, I can do anything.''
    DSUSA endorses the USOC Paralympic Military Program as a 
model that will support the work of the Wounded Warrior 
Disabled Sport Project, as well as responding to a critical 
need to continue to provide sports and recreation opportunities 
when the wounded warrior transitions to civilian life and 
returns to his or her local community.
    Currently, DSUSA, U.S. Paralympics, and other disabled 
community-based organizations are contributing more than $40 
million in private resources to help rehabilitate the severely 
wounded through sports. However, the current economic climate 
and an ever increasing demand to serve servicemembers returning 
with conditions such as traumatic brain injury and combat 
stress will require ongoing assistance provided by Public Law 
110-389, which is critical to the continuation and expansion of 
these important programs at the community level.
    Recent studies have demonstrated that disabled veterans 
have increased societal risk factors in areas such as suicide, 
homelessness, divorce, and lifestyle diseases such as heart 
disease, obesity, and so on. The introduction of sports in the 
rehabilitation process and continued participation in sports 
after discharge from the hospital will have a direct and 
positive influence on prevention of these conditions. In 2008, 
DSUSA commissioned a survey conducted by Harris Interactive 
entitled, ``Sports and Employment Among Americans with 
Disabilities.'' Two hundred servicemembers who had received 
permanent disabled injuries while recently serving overseas, 
and who had also participated in the Wounded Warrior Disabled 
Sports Project, took the survey. And they found that they were 
more than twice as likely than the general disabled population 
to be regularly involved in physical activity, and that 52 
percent compared with 33 percent of the general population were 
employed. In addition, over half of those not working were 
enrolled in college or other certification courses. Given 
today's higher unemployment rate, the survey confirmed how 
important it is for wounded warriors to stay active in sports, 
utilizing all the tools possible to gain employment and 
advancement in their careers.
    Participation in community recreation programs provided 
under the proposed legislation will enable the disabled veteran 
to participate in sports alongside his or her family and 
friends, which will help to maintain family cohesion and 
support for the veteran. This will be critically important to 
those disabled veterans who transition from the hospital to 
remote communities which may not have the resources currently 
to adequately serve them. This network will encourage regular 
exercise, a health lifestyle, making activities available on a 
daily, weekly basis close to home. The long-term legacy of this 
will be healthier, happier, more active disabled veterans who 
due to these preventative measures will have less healthcare 
social support needs. The new generation of disabled veterans 
will be the most equipped, informed, and empowered group of 
disabled veterans this country has ever had, ready to teach and 
serve others in their footsteps.
    I also just want to mention in conclusion the younger 
generation has new individualized interest. We all have the 
expertise as community programs to provide extreme sports 
endurance events along with the high-level coaching that they 
are demanding. There are those that wish to compete and train 
as integrated, nondisabled members of society in golf 
tournaments, triathlons, adventure races, conquer Kilimanjaro, 
compete in the Paralympics, or complete the Hawaii Ironman. 
This is an ongoing basis that is going to require support at an 
unprecedented level.
    Therefore, this legislation comes at a more important time 
than ever before as thousands of severely injured veterans 
return home and work alongside their loved ones to rebuild 
their lives. We know that adaptive sports are critical to this 
process, allowing disabled veterans to choose to lead an active 
and healthy lifestyle, which in turn leads to employment, good 
mental/physical health where it is most needed, at home. I 
encourage you to look at some of the quotes that we have 
included with our testimony from wounded warriors that will 
tell the story a lot better than I have today. Thank you.
    [The prepared statement of Ms. Ray appears on p. 54.]
    The Chairman. Thank you very much. Mr. Stringer, you must 
be from Columbia, South Carolina. I noticed your Congressman 
came in to say hello.
    Mr. Stringer. Correct. We flew in with him yesterday.
    The Chairman. Welcome.

                  STATEMENT OF DAVID STRINGER

    Mr. Stringer. Good morning, Chairman Filner, Ranking Member 
Buyer, and Members of the Committee. My name is David Stringer 
and I work with the Richland County Recreation Commission in 
Columbia, South Carolina. On behalf of the National Recreation 
and Park Association I want to thank you for allowing us the 
opportunity to provide testimony at this important hearing 
addressing the needs of injured servicemembers and the 
Paralympic Military and Veterans Program.
    As you may know, the NRPA is a national nonprofit 501(c)(3) 
organization dedicated to advancing parks, recreation, and 
conservation efforts that enhance the quality of life of all 
people. More than 31,000 military personnel have been severely 
injured while serving our country during the conflicts in Iraq 
and Afghanistan, and there are now more than 1.3 million 
disabled veterans in the United States. These individuals want 
to be physically active but to do that they must have access to 
close to home places and spaces and opportunities for physical 
activity that are able to meet the needs and aid in their 
rehabilitation.
    The Paralympic Program for Injured Servicemembers that was 
authorized in 2008 is beginning to do just that in communities 
around our country. And I have seen firsthand the different 
Paralympic sports programs are making. I applaud this Committee 
for recognizing the importance and the role of therapeutic 
sports and recreation in rehabilitating those who were injured 
while serving our country, and for your leadership in passing 
legislation that will ensure their improved quality of life 
despite their physical limitations. Unfortunately, those 
returning from duty with debilitating injuries face a host of 
challenges as they try to integrate back into their community 
and family life. I faced similar adjustments as a teenager 
trying to cope with a disability. At the age of fifteen the 
world as I had known it completely changed in an instant as a 
result of a traumatic diving accident. I went from being your 
typical teenager without a care in the world to a paraplegic 
who uses a wheelchair. So I can relate to the challenges that 
our newly injured servicemembers and disabled veterans face. 
Imagine being a strong, healthy, competent person to one lying 
in a hospital bed, unable to move, uncertain about the future, 
and thinking about all the things you will never be able to do 
again. And then add to that the emotions and adjustments that 
your family is experiencing.
    Fortunately for me, there was a wheelchair athlete, 
Paralympic gold medalist, his name was Rick Siccatto. He came 
to my hospital room with a videotape on wheelchair Paralympic 
sports. And after watching that I could not believe all the 
possibilities that were out there: basketball, tennis, track 
and field, even swimming. Soon after getting out of the 
hospital I helped start the first ever wheelchair basketball 
team at a local park and recreation facility in Charleston, 
South Carolina. And 32 years later that team is still going.
    Participation in adaptive sports changes the focus from the 
things that cannot be done to the things that can be done. And 
it helps those who once felt helpless due to their disability 
realize the possibilities of what they can do, and those 
possibilities are endless. As a public servant I have seen many 
disabled servicemembers and their families from the nearby Fort 
Jackson Army installation directly benefit from the programs 
provided by the Richland County Recreation Commission. Wounded 
servicemembers who were once sedentary at home are now out of 
the house leading physically active lives again, participating 
in community sports service programs. And those also support 
family members, and they are once again able to reconnect with 
their friends.
    An illustration of this is the wonderful work that is being 
done in Washington State. Here Metro Tacoma Park's NRPA and the 
U.S. Paralympics have organized a task force on the Utilization 
of Sports and Recreation in the Rehabilitation of 
Servicemembers. As a result of the task force, Fort Lewis began 
a recreation and sports program for 450 injured servicemembers 
stationed there, a sports camp on post, and therapeutic 
recreation programming, as well as family integration 
opportunities. Another example comes from the Sacramento 
Department of Parks and Recreation who is working locally there 
in California to introduce Paralympic sports.
    The impact of this work can be summed up by the comments 
made by a soldier who attended the event. ``I wanted to let 
both of you know the experience I had at the camp was one of 
the most memorable I have ever had in my life. I have learned a 
lot about myself and about life. I think the most important 
thing I learned, however, is that no matter what stumbles life 
may throw at you, if you have the determination they will not 
stop you. I would say that as a soldier in the United States 
Army if all of our soldiers could somehow take the 
determination and positive attitude of these individuals that I 
met and bottle it into a formula, we would have the most 
unstoppable force in the world.''
    The National Recreation and Park Association has the 
ability to reach into each local community to assist the 
recovery and rehabilitation of those injured servicemembers and 
veterans. NRPA provides a tremendous network around the country 
to provide opportunities for physical activity. In addition, 
they have the ability to efficiently train park and recreation 
professionals and provide technical assistance to the field. 
These assets, along with the U.S. Paralympics expertise, 
prominence, and distinction, creates a significant partnership 
that has the potential to impact lives of injured 
servicemembers, veterans, and their families around the 
country.
    In closing, I think we can all agree that serving our 
country can be hard at times. But coming home injured is even 
harder. These innovative partnerships help our servicemembers 
regain their quality of life while improving their mental and 
physical health as they face a challenging return and 
adjustment. Thank you for your leadership in passing 
legislation and vocal support of your Congressional colleagues 
to help our men and women of the armed services confront the 
challenges they face. Thank you.
    [The prepared statement of Mr. Stringer appears on p. 58.]
    The Chairman. Thank you so much. Mr. Leon.

                    STATEMENT OF CARLOS LEON

    Mr. Leon. Chairman Filner, Ranking Member Buyer, thank you 
for the opportunity to testify on behalf of Iraq and 
Afghanistan Veterans of America. IAVA is the Nation's first, 
large, nonpartisan, not for profit organization representing 
veterans of the Wars of Iraq and Afghanistan. Chairman Filner 
and Chairwoman Herseth Sandlin, I am especially grateful for 
the both of you for the work you and your Committee did last 
year in support of the Military Paralympic Program.
    America's newest generation of heroes are surviving 
injuries unthinkable in previous conflicts and as a result are 
facing serious challenges upon returning home. Thankfully, 
Members of Congress have been forward thinking and supporting 
and funding programs like the Military Paralympic Program that 
can give these heroes hope and health through athletic training 
and competition.
    I was a 19-year-old Marine when I deployed to Iraq. After 
returning home from a successful tour I had a chance to relax a 
little while before moving to Camp Pendleton. I was stationed 
in Kaneohe Bay, Hawaii, where I took advantage of the beaches 
and the weather while we stayed there. On June 18, 2005, I was 
at the beach, a day that would change my life forever. I was 
the first to go in the water. While my friends remained on 
shore I jogged slowly into the water and turned to them to tell 
them to hurry. Before turning back I dove forward and hit a 
rock head on. My neck broke instantly and I remained 
immediately motionless in the water. I received a laceration 
across the top of my head that needed fifteen staples to close. 
Soon thereafter in the hospital I got the news from the doctor 
and I was paralyzed from the neck down. I stayed in Hawaii 
until I was stable enough to fly and then chose to have my 
therapy at the VA medical center in Miami, Florida where I was 
closest to my family.
    Early in my therapy one of my phenomenal therapists came in 
my room and started to talk to me about sports. I did not think 
that playing sports was something that I could have done again. 
I thought it was beyond my new life in a wheelchair. But 
learning that that may not be the case early on in my injury 
was key to my recovery. After learning about this opportunity I 
signed up for the military sports camps in San Diego, 
California. The program was a week long and they showed us 
different sports we can play from our chairs. It was more than 
a positive experience, it opened my eyes to a different world, 
one that I wanted to be a part of.
    I was told I needed to train in order to qualify for a 
competition early the next year. I could not wait to get 
started. When I got home, I was ready to get started but had 
absolutely no idea how to start. The best I could do was just 
to make sure I was at least fit, so I began working out at the 
local gym. And as the time went on I noticed that I was getting 
stronger and stronger. Not only did going to the Military 
Paralympic Program give me something to shoot for, it made my 
quality of life much better. Instead of being at home bored I 
was out and about living my life again.
    There are great benefits to the Military Paralympic 
Program. Health is especially important to a wheelchair user. 
If I gained weight it would be harder to move around, or push 
myself around in my wheelchair. Excuse me--or I would always be 
sick or in and out of the hospital. So training gave me 
something to shoot for, not only being a Paralympian but to 
improve my physical and mental health.
    After training for a year it was finally time to compete. 
And unbelievably I was named to the U.S. Track and Field team 
that summer. I traveled to Beijing where I was proud to 
represent my country on the playing fields again as one of the 
first military vets to compete in the Paralympic Games. My 
story is now being included in an upcoming documentary called, 
``Warrior Champions.''
    If it was not for the Military Paralympic Program I would 
not be here today, or have accomplished my proudest feats. The 
program saved my life. But there are still more things we can 
do to pave the way for newly injured vets. Not all injured 
veterans have access to the resources I did. Depending on where 
they live they may not have access or resources to go to a 
local gym, or who to turn to. After being invited to testify I 
learned that this Committee has done things to support the 
Military Paralympic Program and I am grateful that this 
Committee was responsible for passing the law to create the VA 
grants especially for this program. I was also encouraged to 
learn that the VA asked Congress to fund the grant program for 
$6.5 million starting in 2010. This money will go a long way 
toward reaching out to the disabled veterans that are involved 
in this great program. This money can also be used toward 
recruiting, supporting, and equipping a new generation of 
Paralympians.
    Last summer, I had a chance to be a coach at one of these 
military sports camps. And I remember parents of one veteran 
who was recently paralyzed came to me with many questions about 
equipment and training. Yet, I felt powerless that I did not 
have very many answers. There is no good place for me to direct 
these parents, or where they live did not have access to these 
gyms let alone gyms that would understand the modifications 
needed to train a handicapped veteran. With this money, we can 
build more centers for veterans to train and resources for them 
to train with. I was lucky I found out about the Military 
Paralympic Program soon after my injury. I was able to start 
training quickly before physical and emotional strain set in. 
Not all handicapped veterans are that lucky. I know that the 
new VA grant program will make it easier to reach out for vets 
sooner in their injury, introduce them to veterans like me, 
start their training, and give them hope. Thank you for all you 
have done and will continue to do for injured veterans.
    [The prepared statement of Mr. Leon appears on p. 59.]
    The Chairman. Thank you all very much. Mr. Rodriguez, do 
you have any questions?
    Mr. Rodriguez. Thank you very much, Mr. Chairman. And let 
me thank each and every one of you for your testimony. I want 
to ask you to see if you can have any recommendations as to 
what else we might be able to do to make things happen. But I 
also wanted to ask in terms of the piece of legislation that we 
did with the GI Bill in terms of how that is, you know, you are 
seeing it impacting anyone out there, and what changes we might 
need to make to help that also help individuals in the process? 
And how we might be able to also make some things happen in 
addition to what has already occurred in your lives. Because I 
am sure that there are some that have fallen through the 
cracks. And that we have a good number of Vietnam veterans from 
Vietnam that have definitely have been left out there hanging. 
And seeing what we might be able to do. I want to just see if 
you might have some suggestions, to anyone that might want to 
react, as to what else we can do as a government in helping 
enhance the capabilities of other young people that might be 
out there?
    Mr. Blake. I think that is almost an impossible question to 
answer, but I will take a shot at it. I think access is the key 
no matter how you look at it. The first panel mentioned some of 
the barriers. I wholeheartedly agree that employment is one of 
the barriers, simply because of the time involved. But we have 
also found that access is the key. And I was taken by the 
gentleman from South Carolina's testimony. We have worked on a 
number of occasions to increase recreation opportunities at 
local facilities, State parks, boat ramps, fishing facilities. 
It is all about accessibility for, at least from PVA's 
perspective, our Members being principally users of 
wheelchairs. Without access they cannot get to the programs 
that would most benefit them. So we have taken an active 
approach to educating communities on accessibility needs and 
then ensuring that they provide those accessible facilities 
that are necessary.
    We also leverage our chapters around the country to talk 
about our programs and encourage them to conduct their own 
sports programs to reach out to the Members in their 
communities. Because while we run things like the National 
Veterans Wheelchair Games, and it is a national focus, 
ultimately what happens at the community level will dictate 
whether these folks are able to come in and participate, and 
ultimately go up to whether it be elite athletics or just 
participation for the fun of it. And I am, we are pleased that 
at the Wheelchair Games, we had over 100 new participants, many 
of whom were Vietnam era veterans. Which is amazing that they 
could go that long in their life, and not know that something 
like that happens. But it all starts, that learning about it at 
the community level and working its way up.
    So I would also agree with the first panel that discussed 
about the community access, and having more locations. Now 
granted, that does take money. But I think that is the key, is 
community access.
    Mr. Rodriguez. I do not know if anybody else wants to 
answer. Yes?
    Mr. Stringer. I have to agree. Local community access is 
the key. Where in the past you may have had to travel hundreds 
of miles to find a program, there are now, we are beginning to 
see programs in individual communities. And that is really the 
key, is instead of having to travel miles to find one of these 
programs there are now programs in your community.
    And I think one thing everybody has pointed out is the need 
for mentors. That person that encourages you, that tells you 
about all the opportunities out there. Because when you first 
get hurt, everybody wants to avoid you. Your friends do not 
know what to say to you. Your family, they are upset. The 
nurses, they see you injured, they kind of avoid you, too. But 
the one person that, people that do not avoid you is the 
athletes. They see a teammate, a prospective teammate. So they 
come to the hospital to see you. So those, and those are the 
people that we really need to train. The mentors to come see 
the people when they are newly injured, to encourage them. I 
think that is a big key.
    Mr. Rodriguez. Yes. So I guess the peer-to-peer type of 
programs also can be extremely helpful, I would presume. Let me 
ask you, because I really see the potential with the previous 
panel and your panel, even going across, beyond, and I know 
that reaching out to other veterans is key. But to the general 
population and the importance of creating that inspiration that 
is needed in others that might not have the disabilities, or 
lost limbs, or whatever. But find themselves in a rut in terms 
of inspiring. And I think, you know, I do not know if any of 
you want to comment on it, but I think there is a great 
opportunity there to help others out that have pity for 
themselves and do not want to go, and might not have the same 
problems that you have encountered, or not even close to what 
you guys have encountered.
    Ms. Ray. I would like to comment on that, if I may. I think 
what we are noticing from this most recent group of injured 
veterans is the extreme diversity in what their needs and 
interests are. It is not your classic disabled sports that we 
began with back in the Vietnam era, of skiing etc. They are 
wanting to do the Ironman in Hawaii. They are wanting to 
compete and train alongside the communities, people with and 
without disabilities. All kinds of different things. And that 
kind of support needs to be individualized. It needs to be 
adjusted according to the type of injury. With polytrauma we 
are seeing the effects of traumatic brain injury, multiple 
amputations, and very severe injuries that require very 
individualized attention. And all of this, of course, requires 
a great deal of investment financially. As a nonprofit 
organization, I can certainly speak to the fact that in these 
recent times are becoming harder and harder. We want to make 
sure that we can continue our programs at the level we have and 
also expand them to serve the veterans in their communities, 
and do these 5K runs, and compete in the local golf tournament, 
all the things that they want to do. So, you know, this 
legislation is going to be really vital to helping us continue 
doing that work.
    Mr. Blake. Mr. Rodriguez, I might add, too, the idea of 
mentoring is really not unlike what goes on with the VA Vet 
Centers. The reason that that program is so successful is 
because of the shared experience of the veteran as a counselor 
and the veteran who needs the counseling. And I think the very 
same thing holds true in sports and recreation opportunities. I 
think nothing is more inspiring to get up and do something than 
to have someone who has shared your experience. And when it 
comes to the disabled and the disabled veteran it is not, while 
it is about being a veteran, and veterans all can sort of 
relate, when the gentleman on the first panel mentioned about 
having, you know, a double amputee come in, and rising to the 
challenge. I mean, that is the type of thing that really makes 
this type of program work. That is why our programs are so 
successful across the board, because it is our Members out 
there participating and encouraging younger veterans, older 
veterans, whoever it may be, to get out there and participate 
as well.
    Mr. Rodriguez. Thank you very much to each and every one of 
you. Thank you.
    The Chairman. Thank you. Mr. Bilirakis, do you have any 
questions?
    Mr. Bilirakis. Thank you, Mr. Chairman, I appreciate it 
very much. Thank your for your testimony and your service. How 
can I discover if there are veterans in my district who are 
likely candidates to participate in the Paralympics? And the 
question is for Mr. Atizado, and anyone else on the panel that 
would like to respond.
    Mr. Atizado. Well sir, I could not tell you what is 
required for a veteran or a disabled veteran to be eligible 
for, or to be a good candidate for Paralympics. We do not have 
a relationship with them. We do not have a lot of interaction 
with them at this point. But as I said, we are hoping to change 
that here in the near future. But I can tell you that even in 
my local community, and this relates to Congressman Rodriguez' 
question about being aware. You know, in my local community I 
can tell you that the way it is structurally set up is not very 
conducive for any disabled person to go out and even just walk 
along the paths along the community, much less handcycle. I 
think if community leadership were aware of the issues that a 
disabled veteran, whether they want to be at the elite level, 
or just as a recreational endeavor, to get into sports then I 
think if the local leadership in the communities were aware of 
the barriers, which I am sure they are not. Because who goes 
around thinking like a disabled person if one is not? I think 
would go a long way. Because not every disabled veteran wants 
necessarily to be at the elite level. I myself cannot. But I do 
partake in cycling. In fact, Lance Armstrong a few years ago, 
who now is a well known sports athlete, was the one that 
inspired me, not being disabled at all, to get into cycling.
    But to identify them is extremely hard, I believe. Because 
if you can, to give you an example. A couple of years ago, a 
couple of Winter Sports Clinics ago, I was reading through a 
newspaper about this young Iraq veteran who said to the news 
reporter his first thought after waking up and seeing his legs 
gone was that how is he going to snowboard again? And I had 
asked the folks in our organization to track this guy down and 
see if we could get him to the Winter Sports Clinic. So it is 
things like that, I think, that require a certain amount of 
awareness from all of us, whether it is in the disabled veteran 
community or in the private sector, to not only be aware of 
what is available out there, not only with VA but with 
Paralympics and even at the local level, and to help even just 
approach them and guide them that way. Because I did not know 
any of this stuff until I got into the disabled advocacy side 
of the house.
    Mr. Bilirakis. Okay. Anyone else?
    Mr. Stringer. You know, Mr. Bilirakis, that is a challenge, 
is finding the people. In Columbia, South Carolina, we have 
Fort Jackson and we have a huge, Dorn Veterans Hospital. But it 
is just by chance that I ran across two veterans that are now 
playing wheelchair basketball with me. So finding them is a 
challenge and maybe having some kind of system where we can 
have made available the names of the people in the area, if 
there was a system for doing that. And there may be that I do 
not know of. But getting the people involved is a real 
challenge, finding them to get them involved.
    Mr. Blake. Mr. Bilirakis, I would say that that is where 
the partnership with the Paralympics is key. Because ultimately 
it is sort of a question better answered by them. They know 
what it takes to be a Paralympian. That is why we partnered 
with them through the Wheelchair Games, and in a number of our 
other principal sports recreation events, where those events 
would coincide with Paralympic activities. Because they can 
work with us to identify these individuals. Now, that is sort 
of starting at the top. But, I mean, I think that is where you 
have to start, is with the partnership with the Paralympics.
    Ms. Ray. I also just want to add, of course, just like you 
and I, it is a choice to participate. So the way we have been 
successful is going to the hospitals, tracking people down one 
by one, explaining what we do, and then signing them up. We 
have been very successful that way. But, you know, because of 
Health Insurance Portability and Accountability Act 
regulations, that is a choice. They have to elect into the 
sports programs rather than to always being completely 
mandatory. Now fortunately, the major military medical centers 
have been extremely supportive of these rehabilitative sports 
programs and have seen the benefit of encouraging people to 
speak to us and to sign up for the programs. But I think 
certainly this legislation and the partnership will help 
improve that communication and Nation awareness to the general 
public as well about what it is we are all doing. And hopefully 
that will reach out to all the people who count who need our 
services.
    Mr. Bilirakis. Well, very good. Ms. Ray, you mentioned that 
there is a local chapter of the Sports USA in the Tampa area?
    Ms. Ray. There is not a local chapter in the Tampa area.
    Mr. Bilirakis. There is not?
    Ms. Ray. No, not in Tampa. But we have 100 community-based 
chapters, but just not in the Tampa area. We have national 
staff that go down to the Tampa VA and talk to the patients 
down there about opportunities available.
    Mr. Bilirakis. Okay. I would like to work with you on that. 
Maybe we can set one up.
    Ms. Ray. Mm-hmm.
    Mr. Bilirakis. I participated in a golf tournament, a 
charity golf tournament, with the VA recently. And there was a 
demonstration on a special golf cart to help out the disabled 
veterans, can you tell me about that? And then also, if you are 
familiar, about the availability of the cart to our veterans? 
How we can help with that? Because it was fascinating to see 
how that worked, and are you familiar with it?
    Mr. Leon. Yes, I myself have not had much experience with 
the golf cart but I have seen it and I have spoken with other 
veterans who have used it. And it is pretty amazing. You just, 
you sit in the golf cart and when you are ready to tee off it 
stands you up. And you are strapped in. And then the veteran, 
you know, can just have their golf spin, and then, you know, 
they move on. And I think that is amazing, you know? It is 
more, it is incredible what it does to you and your mindset. 
Because when you are out there playing golf you are not a 
disabled person, you are out there playing golf. And that, to 
give someone, it is almost like you are getting your dignity 
back. It is incredible what sports do. And, from anything, from 
shooting, to golf. And I myself do not play golf. I practice 
track and field. So when I am out there and I am competing, I 
am not a quadriplegic. I am competing, I am an athlete. So I 
think things like that are extremely important. And I, you 
know, back to the golf cart again, I do not have much 
experience with golf. But I have seen it and it is incredible 
what it can do.
    Mr. Bilirakis. Well, in my opinion we need to make these 
readily available to our veterans.
    Ms. Ray. They are actually, I can just say that I believe 
they are available at all DoD and public golf courses now.
    Mr. Bilirakis. Thank you very much. I appreciate it.
    The Chairman. Thank you.
    Mr. Bilirakis. Thank you, Mr. Chairman.
    The Chairman. Mrs. Kirkpatrick.
    Mrs. Kirkpatrick. Thank you, Mr. Chairman. And thank you 
panelists for being here today. What a great program. And I 
love the competitive nature of it. My first question is for Mr. 
Atizado. Why is the DAV concerned if the VA seeks corporate 
sponsorships to help reduce the need for funding through 
taxpayer dollars?
    Mr. Atizado. That is a great question, ma'am. It is not so 
much that we are concerned about seeking out corporate 
sponsorship. But the problem is, when you have an event as big 
as the Winter Sports Clinic and you have a non-coordination, or 
two entities trying to seek out the same source of funds, it 
can cause some conflicts. I will give you an example. Sprint 
has been a long time supporter, a very generous supporter. And 
if one were to go out and say, perhaps, find a corporate 
sponsorship or donor that is in competition, you know, these 
things are much like politics. You have to treat it with the 
same kid glove to sustain that relationship and ensure the 
viability of the program. So I think that is kind of a concern 
that we have, that we do not lose well-meaning and well-
fostered relationships.
    Mrs. Kirkpatrick. You know, I represent a huge rural 
district in Arizona. There is not really one big town. It is 84 
small towns. And our baseball teams, our sports teams, often 
get business sponsors in the community so they can maintain the 
fields, so they can purchase equipment. Now would that be 
objectionable to you? I think, you know, at the local level? Or 
are you really just talking about national, big corporations?
    Mr. Atizado. Oh, I am just talking in general. And I guess 
in more specific with the Winter Sports Clinic. I mean these, 
you know, there is no, I do not think there is a handbook out 
there on how to actually be competitive with other 
organizations, or other entities, that seek out corporate 
donors. It is very much an art. And, like I said, if you have 
two competing entities in the same arena it can be, you know, 
it can hamstring the entire event.
    But yeah, at the local level I think it is a much different 
ball game there, no pun intended.
    Mrs. Kirkpatrick. Thank you for that clarification. My next 
question is for Ms. Ray. What percentage of veterans leave 
sports therapy because they live in rural areas, and how can we 
address that?
    Ms. Ray. I am afraid I cannot give you an exact statistic 
on those that leave, unfortunately. We are just doing 
everything that we can to ensure that they leave the hospital 
well educated about the opportunities that are available to 
them. They have tried a great variety of activities, because 
the sports that they may have been interested in as a non-
disabled person often can change and they might try some 
Paralympic sports, or they might try some other individual 
sport they have never even done before. And we find that fairly 
commonly. So I think really it is access, as Mr. Blake was 
talking about earlier. We need to be able to respond to what 
the veterans want to do once they return home, stay in touch 
with them, provide regular communication, especially for those 
in very remote rural communities. Because you are not going to 
have a full wheelchair basketball team in every community. It 
is just not realistic. And so we need to empower those 
individuals, educate them from the moment they leave the 
hospital so they feel that they can go home, go out cycling 
independently, or be inspired to start a team themselves, or do 
whatever is necessary. So it is going to be a lot of work, and 
a lot of coordination between all the entities involved here 
today but I think we are up to it.
    Mrs. Kirkpatrick. Thank you. And Mr. Blake, you talked 
about access being really one of the biggest barriers to the 
program. And again, you know, I am really concerned about the 
rural communities because that is what I represent. And, you 
know, and I am thinking back about, you know, where would you 
go to the gym to work out? I mean, usually it is the school, 
you know, the football gym, or something like that. But again, 
it sounds like a big problem is identifying people who could be 
a participant in the program. And do you have any thoughts on 
what the VA could do to work with you to partner with you to 
somehow inform not only the wounded warrior, but also you, 
about possibility for an outreach?
    Mr. Blake. I had a good answer until you asked me what 
could the VA do, and then I think I kind of lost it.
    Mrs. Kirkpatrick. You can take it wherever you want to go 
with that.
    Mr. Blake. As it relates to the rural issue I would say 
this is, I would sort of liken this to the idea about if you 
build it they will come. A lot of our chapters have taken to 
getting involved more in the small communities and even in the 
rural setting. Something as simple as, say, an accessible trail 
in a park somewhere makes a big difference. And it might be out 
in the middle of nowhere, particularly if you go in places like 
the desert Southwest, or if you go up into the Upper Midwest, 
and the Dakotas and places like that. It is mostly just 
country. But there are plenty of parks and things like that. 
And if the access is there, people will go there. Once the 
access is developed, you know, we leverage our own chapters and 
our local folks to put the word out through magazines, through 
the media. I mean, nothing gets people more interested than 
seeing something on the TV, or hearing about it on the radio, 
or whatever.
    With regards to the VA involvement, I think, you know, we 
talked about VA and its outreach to veterans in general and 
obviously I think the outreach to the rural veteran is a 
difficulty. I mentioned the Vet Centers earlier, and we have 
sort of taken to the idea that the Vet Centers, and 
particularly as it has expanded, this mobile Vet Centers has 
become the outreach tool of choice for the rural setting. And 
maybe this is just another component that has to be added to 
that, as if they do not have a pretty hefty load already. But I 
think it is probably something else that could be shared 
information as they go out into these small communities and 
into the rural areas to share that information.
    Mrs. Kirkpatrick. That is a great idea. We have one of 
those mobile Vet units in my district. And I will be out 
hopefully next week. That is a good idea. I will bring it up 
with them. Anyone else want to comment on that?
    Ms. Ray. Yes, I would like to. I think in our working with 
the VA hospitals, what we have experienced is the major 
polytrauma centers have very experienced, very active, 
proactive recreational therapists who really believe in and 
support sports rehabilitation. I think the VA needs to extend 
that to more of the rural hospitals and more VA hospitals, and 
have somebody in a position that really drives the sports 
programs and helps veterans who come to their facility to be 
educated on what is available. Because that can be patchy, in 
our experience.
    Mrs. Kirkpatrick. Anyone else?
    Mr. Stringer. Yes, Mrs. Kirkpatrick, that is what I think. 
Partnering with the community parks and recreation agencies is 
so important. There is probably more than 20,000 of these 
individual agencies throughout the country in local areas. So 
partnering with them, they already have, you know, gyms, ball 
fields, tracks, tennis courts, available. So partnering, making 
adaptions for the disabled, I think that is a key.
    Mrs. Kirkpatrick. All right. Thank you so much, and thank 
you, Mr. Chairman.
    The Chairman. Thank you. Mr. Boozman.
    Mr. Boozman. Thank you, Mr. Chairman. Again, I appreciate 
your testimony. And just quickly, Ms. Ray, I guess I am curious 
like a lot of the rest of the Committee, kind of your activity 
in Arkansas? Do you have any chapters, or----&
    Ms. Ray. I am sorry, would you repeat the last----
    Mr. Boozman [continuing]. Your activity in Arkansas, if you 
have any chapters?
    Ms. Ray. We do not, unfortunately. Arkansas is not a State 
that we are in right now. We are very heavy through the Rocky 
Mountains, the East, and West Coast. But certainly----
    Mr. Boozman. We need to get you heavy in the Ozark 
Mountains.
    Ms. Ray. We do. We do.
    Mr. Boozman. Thank you very much.
    Ms. Ray. Thank you.
    The Chairman. We thank you all for your contributions. 
There is a common theme here. The first and second panels 
talked about how the community resources have to be there. I am 
sure Mr. Stringer that when you started the wheelchair 
basketball games that the gyms were not adapted to that?
    Mr. Stringer. No. You know, there was no handicapped 
parking spaces at that point.
    The Chairman. Right.
    Mr. Stringer. There was no curb cuts.
    The Chairman. But has that----
    Mr. Stringer. The bathroom doors were small. But, you know, 
as we got there then they started making the----
    The Chairman [continuing]. Has the Americans with 
Disabilities Act (ADA) made any requirements?
    Mr. Stringer. Definitely that has helped.
    The Chairman. Do they apply to the gyms and the recreation 
centers?
    Mr. Stringer. Yes, it does.
    The Chairman. In terms of the adaptions that are necessary?
    Mr. Stringer. But if nobody goes there and tries it out, 
and they do not know that an adaption is needed, so----
    The Chairman. It seems to me that with the 20,000 different 
agencies that there ought to be some place where they could go 
for these, to make their facilities adaptive.
    Mr. Blake. Mr. Chairman, might I address that just briefly 
also? PVA has been one of the leading advocates as it relates 
to the ADA. We were involved from its passage in the very 
beginning. And I would suggest that one of the issues remains 
enforcement of what is in the ADA. I think it is telling that 
nearly 20 years after the passage of the ADA just last year the 
Congress had to pass the ADA Amendments Act to clarify a number 
of things that are in the ADA. So there is still a lot of work 
that remains to be done in enforcing the provisions of the ADA 
to ensure that access is there and that the barriers are broken 
down.
    The Chairman. We have a program in housing that gives a 
veteran a grant to be able to adapt his or her living space. If 
he or she also lives in a community that needs adaptations. I 
am wondering if we can require that those changes are made to 
accommodate those with disabilities. Does that have any 
legitimacy anywhere?
    Mr. Blake. I think what we found is what often occurs, 
particularly in small towns and local communities, is the 
veteran goes to access something, particularly if it is a 
severely disabled veteran, most notably in the wheelchair. And 
they discover, ``I cannot get to this, I cannot get to that.'' 
And they affect the change from their end, whether it be 
through legal means or otherwise. In some cases legal is the 
only way to get it done. But in many cases it is just a matter 
of opening the eyes of the community. There are many, there are 
plenty of people out there that never think about what, you 
know, people with disabilities see as everyday necessities. And 
until they become educated these changes do not occur.
    The Chairman. Again, we thank you all for your 
contributions, both in your local communities and nationally, 
and we look forward to working with you in the future. Thank 
you so much.
    I know you all have jobs to get back to, so we will try to 
get you out of here as quickly as possible. Ms. Cohen, thank 
you for being here. You are the Director of the Computer/
Electronic Accommodations Program (CAP) with the Office of the 
Assistant Secretary of Defense for Health Affairs, Mr. Huebner 
is Chief of Paralympics with the U.S. Olympic Committee and Ms. 
Hartmann is the Director of the Office of National Programs and 
Special Events with the Department of Veterans Affairs. Ms. 
Cohen, I think you have an engagement and need to leave soon. 
Please proceed.

 STATEMENTS OF DINAH F.B. COHEN, DIRECTOR, COMPUTER/ELECTRONIC 
 ACCOMMODATIONS PROGRAM, OFFICE OF THE ASSISTANT SECRETARY OF 
DEFENSE FOR HEALTH AFFAIRS, U.S. DEPARTMENT OF DEFENSE; CHARLIE 
HUEBNER, CHIEF OF PARALYMPICS, UNITED STATES OLYMPIC COMMITTEE; 
 AND DIANE HARTMANN, DIRECTOR, OFFICE OF NATIONAL PROGRAMS AND 
      SPECIAL EVENTS, U.S. DEPARTMENT OF VETERANS AFFAIRS

                 STATEMENT OF DINAH F.B. COHEN

    Ms. Cohen. Chairman and distinguished Members of the panel 
and Committee, I am so pleased and honored to be with all of 
you today to talk to you about the program known as CAP and how 
we provide assistive technology to our wounded servicemembers.
    The CAP, better known as Computer/Electronic Accommodations 
Program, is under the direction of the TRICARE management 
activity under the direction of the Assistant Secretary of 
Defense for Health Affairs. We were established in 1990 as a 
centrally funded program in DoD to buy and pay for assistive 
technology for our Federal employees with disabilities so they 
can access the electronic and information environment. 
Following the National Defense Authorization Act of fiscal year 
2000, Congress granted us the authority to expand our program 
and serve other Federal agencies. We now provide assistive 
technology to DoD employees with disabilities and 65 other 
Federal agencies. Our mission is to ensure that people with 
disabilities have equal access to the information environment 
and opportunities in Department of Defense and throughout the 
Federal Government. Our mission was expanded now also to 
provide the same level of accommodations to our returning 
wounded servicemembers. By fulfilling our mission, we are able 
to help Federal employees have that access to employment 
throughout the Federal Governmant for people with disabilities.
    In fiscal year 2000, we hit another milestone. In one year 
alone, we filled over 10,000 requests for accommodations. In 
fiscal year 2008, CAP filled 2,782 requests for accommodations 
for DoD employees with disabilities; 2,985 requests for 
accommodations from our non-DoD Federal employees in our other 
Federal agencies; and 4,589 accommodations in support of our 
wounded servicemembers.
    It was very easy to see post-9/11. Many of our soldiers, 
sailors, airmen, and Marines were returning every day from 
deployment with significant injuries and disabilities. It was 
easy for me to see that CAP could play a part in their 
recovery. CAP works closely with the medical providers, 
therapists, case managers, and wounded servicemembers across 
the Nation to ensure they receive the appropriate assistive 
technology for their needs. Accommodations are available for 
servicemembers with vision, hearing loss, dexterity 
impairments, which includes upper extremity amputees, 
communication, and cognitive disabilities.
    Once the appropriate assistive technology has been 
identified, CAP provides a solution free of charge to that 
servicemember during their medical recovery and rehabilitation. 
CAP's services for our servicemembers are pretty easy and 
clear. First and foremost, we provide that individual needs 
assessment. Second, we start to provide training to the medical 
professionals on site so they would be able to identify the 
requirements. Third, we provide that assistive technology 
directly to that servicemember so they can go through their 
recovery and rehabilitation better. And fourth, we provide that 
accommodation. When they are ready to come back to work in DoD 
or any of our Federal agencies, during their internships so 
they can become engaged sooner, quicker, and better.
    The ability to use assistive technology during the early 
phases of recovery greatly helps in their rehabilitation 
outcomes and future employment opportunities. It is just part 
of the picture. For future wounded servicemembers, they now can 
also retain the assistive technology they get from CAP during 
their time they are on my DoD dime.
    We are very pleased in what we have been able to 
accomplish. In fiscal year 2008, CAP provided over 780 needs 
assessments and as I said over 4,500 requests for 
accommodations in the military treatment facilities throughout 
our Nation. We have a wonderful technology center at the 
Pentagon, but we have also set up miniature technology centers 
at Walter Reed, at Brooke Army Medical Center, and at the Naval 
Medical Center in San Diego. CAP also partners with several 
other organizations to support disabled veterans as they go 
through rehabilitation and reemployment efforts, such as Hiring 
Heroes Career Fairs. In order to integrate us all into their 
recovery, we work closely with all of them. DoD greatly 
appreciates your support, sir, and ladies, in helping support 
our wounded warriors, our disabled veterans. Thank you for the 
opportunity to speak today to all of you, talking about CAP, 
and what we do in support of our soldiers, sailors, airmen, and 
Marines. Thank you very much.
    [The prepared statement of Ms. Cohen appears on p. 61.]
    The Chairman. Thank you, Ms. Cohen. I know you have to 
leave. If you could just give us one or two specific examples 
of the accommodations you are talking about? Just for the 
layman?
    Ms. Cohen. Of course, sir. Many of you may have seen or 
have heard of Captain Smiley, who is currently teaching up at 
West Point. Captain Smiley is still active duty. Captain Smiley 
is blind. Captain Smiley uses technology so he can hear 
everything on his computer screen. So he has a speech output 
program that allows him to hear what is on his computer screen, 
and then he can take notes using some of the technology he got 
from CAP. He was introduced to that early in his rehab time at 
Walter Reed.
    Or for the person down who was a national Guardsman, who 
had a traumatic brain injury, lost his sight and his hands were 
badly burned. He is able now to talk to his computer using 
assistive technology. He is able to hear back what is happening 
on his computer using JAWS voice output. When I first met him 
he was very detached. He was not talking. He was very depressed 
because he said, ``What can I do now?'' as he held his twins 
that were born during deployment. About a month later, thanks 
to the tremendous talent of people down at Brooke Army Medical 
Center, I found out, I went back and I said, ``How are you 
doing?'' And he said, ``Ma'am, I think I am going to become a 
lawyer.'' Now, no offense to anyone here----
    The Chairman. So you have not done good for this world?
    Ms. Cohen. I know. I said, ``I do not know if I need 
another lawyer.'' But he said that thanks to the technology he 
was able to get on all those Web sites they need and should be 
accessible. He read about the places where he can go to law 
school. He now is teaching other young disabled veterans who 
are blind in Arkansas at one of the VA centers how to use 
assistive technology. So he can talk to his computer and he can 
listen to what is coming back out. That is just a sample. So I 
encourage you to come over and visit our tech center and see 
the technology that is really available.
    The Chairman. At the Pentagon? Okay. Mrs. Kirkpatrick has a 
question for you, and then you can feel free to leave if you 
need to.
    Mrs. Kirkpatrick.
    Mrs. Kirkpatrick. Thank you. I have one quick question.
    Ms. Cohen. Yes.
    Mrs. Kirkpatrick. But I, I am a lawyer and I thank you for 
encouraging that young man.
    We always need, we need good lawyers, so thank you. You 
know, we have been hearing a lot about disconnects when people 
leave the jurisdiction of the Department of Defense and go 
under Veterans Affairs. And so my question is, do you have an 
active partnership with the VA to help in that transition? And 
how does that work?
    Ms. Cohen. I am very proud to say that we have a truly 
seamless transitional program. We work closely with the VA and 
all of their rehab facilities to make sure that the equipment 
that I provide during the time they are at DoD is the same 
equipment they would get at the VA. So they get to hold on to 
technology I provided to them even upon separation. So they do 
not have to wait until the VA can chime in. But when they need 
upgrades, when they need new technology, when they need a new 
version, the VA can provide it. And they do the same types of 
assistive technology. So it makes it very easy.
    When we were discovering what would be the best technology 
for our men and women with traumatic brain injury, we spoke 
once a week on a conference call to make sure that we were 
putting a policy that included both what DoD was doing to match 
up with what VA was doing so they would have that ability to 
take that piece of equipment we gave them, move on to the VA, 
and continue to use it.
    Mrs. Kirkpatrick. Thank you. Thank you, very much.
    The Chairman. Thank you, Ms. Cohen. Again, feel free to 
leave if you need.
    Mr. Huebner, we thank you. I just want to personally thank 
you and Mr. Crane. You took it upon yourselves in the last few 
years to educate us about Paralympics. You did an incredible 
job. I know you are not through yet and we have tried to 
respond with the knowledge that you have given us so I 
appreciate your very incredible activity on behalf of 
Paralympics.

                  STATEMENT OF CHARLIE HUEBNER

    Mr. Huebner. Thank you, sir. Chairman Filner, Ranking 
Member Buyer, and Members of the Committee. I would like to 
thank you for the opportunity to testify this morning. 
Congresswoman Kirkpatrick, I would like to make a special 
message to you. I spent 4 years cooking steaks at Black Barts 
Steakhouse in Flagstaff, Arizona, while attending Northern 
Arizona University (NAU). So your small rural area in northern 
Arizona is very close to my heart. So thank you for your 
service.
    First of all, I would like to thank Chairman Filner and 
Ranking Member Buyer for your leadership in making the VA 
Paralympic Program a reality, and for the amendment ensuring 
that your legislation is fully funded. I would also like to 
recognize Congressman Boozman, Congressman Kennedy, Congressman 
Langevin, Congressman Murtha, and Congressman Salazar for their 
continued leadership.
    Because of this leadership, the Paralympic Military Program 
has accomplished the following in 2009. We have provided free 
training to more than 1,200 community, military, and veteran 
leaders on how to implement a local community-based program. We 
have provided services to more than 6,000 injured military 
personnel and veterans; distributed grant funding to more than 
45 organizations; created Paralympic Programs in 99 communities 
to support injured servicemembers and veterans. This includes 
providing technical assistance and training, with mentors, to 4 
military medical centers, 11 warrior transition units, and 14 
VA facilities. And that is something I want to emphasize that 
was part of the question earlier, and hopefully at the end of 
my testimony, I can address some earlier questions in some of 
the earlier panels. But these programs are all led by 
Paralympic mentors, a very critical part of what we are 
collectively doing with all the other organizations that are 
here today.
    Your amendment requesting the full funding of $10 million 
through the VA and the Paralympic Veterans Program, and your 
support of a $5 million request through the DoD, will create 
the continuum of care from active duty to veteran status and 
expedite the delivery of programs, allowing the USOC and its 
partner organizations in 2010 to accomplish the following: 
expand programming and services to more than 150 communities; 
expand community technical assistance and support from 14 to 30 
VA facilities; expand community warrior transition unit support 
from 11 facilities to 20 facilities. Our overall goal by 2012 
is to have programming in support of veterans and injured 
servicemembers in more than 250 communities based on need.
    We can do this because of the collaboration with partner 
organizations like the Department of Veterans Affairs and the 
Department of Defense, as well as a well-established 
infrastructure of community sport programs. More than 60 
organizations are currently members of the U.S. Olympic 
Committee, reaching more than 50 million Americans in big 
cities and small. Our strategy is focused on a cost efficient 
model of training and collaboration, with key partners, such as 
Disabled Sports USA, the Paralyzed Veterans of America, 
National Park and Recreation Association, the American Legion, 
and other USOC member and veteran organizations. Collectively, 
we are investing more than $40 million in private resources to 
deliver programming today. This model eliminates duplication 
and allows for the USOC and its partner organizations to 
deliver technical assistance, equipment, Paralympic mentors, 
funding, and services to local communities.
    I would like to share with you an example. Our hometown of 
Colorado Springs, Colorado, where the USOC is headquartered, a 
community with significant military and veteran presence prior 
to 2008 had no Paralympic programs. We have collaborated with 
Fort Carson, the Army base in Colorado Springs, Colorado, the 
Air Force Academy, Schriever and Peterson Air Force, and the 
City of Colorado Springs parks and recreation department to 
develop Paralympic Sport Colorado Springs. Today injured 
servicemembers and veterans, and this was a question that was 
in an earlier panel, access, today injured servicemembers and 
veterans in Colorado Springs do not have to commute 1 to 3 
hours daily to receive daily physical activity or participate 
in local community programming. Very important aspect of what 
we are trying to do.
    The USOC's recommended utilization of funds would be to 
continue supporting technical assistance at the community 
level. Create enhanced awareness of programs available to 
injured servicemembers or veterans as they leave the VA and DoD 
systems. And most importantly, and this puts us in a very good 
position to work with partner organizations, we would recommend 
that the majority of the resources available through this 
funding be provided via grants to community organizations, many 
of which are in this room today, to deliver programs at the 
community level. The USOC has already built and implemented a 
system to manage, monitor, and measure impact of grants 
provided to external organizations. So that system currently 
exists today. The 45 grants that we have distributed this year 
to 45 different community organizations is an example of that 
system that is working currently.
    The impact of these programs on injured servicemembers is 
best demonstrated through the words of a veteran, or in this 
case a parent. And this was shared with a Paralympic mentor who 
happens to be a USOC employee, a veteran who was injured in 
Afghanistan. And the actual words are in my testimony, I will 
just share two points of it. ``For my son, a corporal in the 
Marine Corps, it was important for me to restore dignity and 
respect in him after he was injured. One of the ways he was 
able to restore his soul is through Paralympic sports.'' That 
was from the mother of a Marine corporal.
    When most people are injured, a typical support network 
tends to focus on all that was lost. In many cases, it is 
something as simple as skiing with your friends or running with 
your mom that allows both the injured servicemember and the 
support network to begin to think about the possibilities. 
Possibilities in sport, possibilities in education, 
possibilities in employment, and possibilities in life. This is 
especially critical when a servicemember returns home to their 
community. And our primary focus with the Paralympic Military 
Program and Paralympic Veteran Program is to work in 
collaboration with the organizations here today, as well as 
numerous other organizations, to ensure that programs exist at 
the community level for an injured servicemember or veteran to 
immediately return to upon their return home.
    While the primary focus of our development in this program 
is the community-based sport program, not elite sport, not 
going to the Paralympic Games, everyday physical activity, we 
do have the great honor of sending Americans to the Olympic and 
Paralympic Games, which creates an unbelievable platform for us 
to create awareness about programs but most importantly create 
role models. And you have seen a couple of those today.
    I would like to close my testimony with a quick video about 
three individuals that pursued representing their country for a 
second time at the Paralympic Games in 2008.
    [Text of video shown:]
        I woke up, a portion of me was missing. That is it. 
        Shift that weight back. You are doing good. The RPG 
        when I came just hit me out of nowhere, and I looked 
        down and saw my guts sitting out. We lost two guys, and 
        they had to amputate my leg. Just 3 weeks into her 
        deployment she was on a routine convoy. Her Humvee was 
        hit by a roadside bomb. You know, when I was younger I 
        dreamed of going to the Olympics. So now I lost my leg 
        and I have bigger dreams than I ever would have had 
        with two legs. I woke up a portion of me was missing. 
        Like, I could see the sheets and I could see that my 
        leg was missing. The fact that they are traumatic 
        amputees from the War and they are already 
        participating in the Olympics, that is unheard of. With 
        a new American record of Melissa Stockwell. The whole 
        reason I went into the Army was because I love our 
        country. And, you know, I lost my leg trying to defend 
        our country. And I would not have it any other way. 
        Scott was an Army specialist serving in Iraq when an 
        accident cost him the use of his legs. And here is the 
        way he put it: ``I fought for this country and now I 
        would love to win for this country in Beijing.'' Scott, 
        we honor your service to our country and we will be 
        pulling for you. Oh, yes. Yes. We are going to give 
        them a run for their money, and for their medals, too. 
        I just had my 162nd surgery since my injury, coming 
        back from Iraq. If they cannot get all the infection 
        out I will go ahead and get the amputation. But that is 
        going to be my last alternative. I still got one half 
        an arm to work with. I do not want nobody feeling sorry 
        for me. There you go, you got it. There you go. There 
        you go. Whoop! You all right, big guy? Okay. I can tell 
        when he is down. I brought it up to the doctors and 
        they cannot see it but I can. It is okay to ask for 
        help. I mean, there is, you are going to have ups and 
        downs in your life. I mean, look, our lives have 
        changed a lot. Before I go home, but a few places I 
        want to go before I go home. China is one of them. And 
        next up the first heat in the mens' 100 meters. In lane 
        two, Kortney Clemons, an Iraq War veteran representing 
        the U.S. Come on Kortney, dig. And now on to the 27 men 
        who will be nominated to the 2008 Paralympic Team. 
        Carlos Leon. We are very proud of him. And I do not 
        know what we will do if he gets some gold. You know, I 
        guess just cry a lot. I had these daydreams about 
        winning and hearing the national anthem. And that would 
        be probably the best moment of my life.
    The Chairman. Thank you, sir.
    Mr. Huebner. Sure. I would like to take credit for that 
video, but this young man over here and his brother are the 
producers of Warrior Champions. And with a lot of the footage 
that was shot we will be creating educational and awareness 
materials that we hope to distribute to community 
organizations, Paralympic organizations, the Department of 
Defense, and Department of Veterans Affairs to give to parents, 
family Members, and injured servicemembers.
    [The prepared statement of Mr. Huebner appears on p. 63.]
    The Chairman. Thank you so much. Ms. Hartmann, please 
proceed.

                  STATEMENT OF DIANE HARTMANN

    Ms. Hartmann. I would like to ask that my full statement be 
submitted for the record.
    The Chairman. Yes, that will be done.
    Ms. Hartmann. Mr. Chairman and Members of the Committee, 
thank you for the opportunity to discuss the Department of 
Veterans Affairs progress in implementing Title 7 of Public Law 
110-389, providing our Nation's disabled veterans with the 
opportunity for self-development while at the same time 
providing important therapeutic assistance is in the highest 
tradition of the Department's mission. We are very pleased to 
have the U.S. Olympic Committee join us in these efforts. 
Although there is much work left to be done, VA has already 
achieved a great deal, which I will share with you today.
    On July 13, 2009, VA Deputy Secretary W. Scott Gould and 
Ms. Stephanie Streeter, Chief Executive Officer, USOC, signed a 
memorandum of understanding as specified in this legislation. 
VA did not wait until July 13th to begin implementing the other 
provisions of Title 7. Funding to support Title 7 is in the 
President's budget for 2010. VA has already begun to draft 
regulations for the payment of allowances and other policy 
guidelines necessary to achieve the full implementation of 
Title 7. VA is collaborating with the United States Olympic 
Committee to develop a certification process and we have 
identified a payment system within Veterans Benefits 
Administration that can be used to process and authorize the 
monthly assistance allowance. We are now beginning to develop a 
grant approval and review process.
    In 1999, VA established the Office of National Programs and 
Special Events to oversee highly successful and well-attended 
national rehabilitative programs for disabled veterans, the 
National Disabled Veterans Winter Sports Clinic, the National 
Veterans Wheelchair Games, the National Veterans Golden Age 
Games, and the National Veterans Creative Arts Festival. VA 
currently has memorandums of understanding (MOU) with partner 
organizations that cosponsor these programs, Disabled American 
Veterans, Paralyzed Veterans of America. The Veterans Canteen 
Service, Help Hospitalized Veterans, and the American Legion 
Auxiliary. Last year the National Programs and Special Events 
began the Summer Sports Clinic, which is specifically designed 
for recently injured veterans with amputations, traumatic brain 
injuries, burn injuries, or post-traumatic stress disorder. The 
National Veterans TEE, which is Training, Exposure, and 
Experience Tournament, will be elevated to a national program 
this year under the Office of National Programs open to 
veterans with a wide range of disabilities. These events are 
open to all veterans enrolled in the VA healthcare system. Each 
event, encourages first time participation. However, able 
bodied and disabled veterans who meet the eligibility criteria 
can participate. Each year, thousands of veterans who 
participate in VA's local programs have the opportunity to 
further their self-development through these national 
rehabilitative events.
    In 2005, VA entered into a MOU with the United States 
Olympic Committee to increase interest in and access to 
Paralympic sports programs for veterans with disabilities. 
Prior to Public Law 110-389's enactment, VA partnered with the 
USOC to expand the awareness of Paralympic sports and to 
provide elite level athletes with direct access to the United 
States Olympic Committee's Paralympic Program. On February 23, 
2009, the Secretary of Veterans Affairs redefined the functions 
of the Office of National Programs and Special Events to 
include carrying out the new requirements of section 702 and 
703 of Public l10-389. And he realigned the new office of 
National Veterans Sports Programs and Special Events directly 
under the Office of the Secretary.
    VA medical staff is currently supporting veterans' 
participation in Paralympics sanctioned events by accompanying 
veterans to such events and assisting with the procurement of 
specially adapted equipment for these veterans. At this time, 
we do not have an assessment on the impact on the local medical 
services.
    VA has made great progress toward implementing the 
provisions of Public Law 110-389 and enhancing its partnership 
with the United States Olympic Committee. Although work remains 
before us we have developed a spirit of cooperation and 
teamwork with the USOC and I am confident that we are moving in 
the right direction. Thank you again for the opportunity to 
come before you and I will be happy to answer any questions 
that you may have.
    [The prepared statement of Ms. Hartmann appears on p. 64.]
    The Chairman. Thank you. Mrs. Kirkpatrick, do you have any 
further questions?
    Mrs. Kirkpatrick. Thank you, Mr. Chairman. Thank you, Mr. 
Huebner. It is so nice to see an NAU grad, and the great work 
that you are doing. Thank you very much. You know my district. 
You know the challenges of reaching those communities and 
including the Native American communities. I just want your 
thoughts on how we can expand outreach to those communities. We 
have so many veterans up there who just do not have services.
    Mr. Huebner. Well, it is an excellent question and it is 
one of the things that keeps me up at night. But we have 
implemented a model focused on training. And when I say ``we,'' 
and I just want to emphasize this, the U.S. Olympic Committee 
working in collaboration with leadership organizations, many of 
which are behind me today and have testified today. It is a 
collaborative partnership to address the need. A training 
component is one way of doing it. As the gentleman from South 
Carolina mentioned earlier, in a lot of communities we have 
gyms, we have coaches, we have teachers, we have tracks. A lot 
of times what we do not have is expertise. We have, the 1,200 
community leaders, military leaders, and veteran leaders, that 
is a role we are playing via training, is providing in a rural 
area especially, if one veteran returns home to a rural area, 
Holbrook or Winslow, and you are not going to go create a whole 
program for that one individual. It is not cost efficient and 
it is not effective. Via training, we can work with one of the 
partner organizations we had talked about, whether it is parks 
and recreation, or PVA, or Disabled Sports USA, or Disabled 
American Veterans, to work with either a chapter or work with 
an existing entity, many of which are Member organizations of 
the U.S. Olympic Committee, to provide the training, the 
technical assistance, a Paralympic mentor if needed, and 
potentially equipment. And the plus up with the funding, what 
is so significant there is it allows us to expedite immediately 
the opportunity to reach more communities with that type of 
training and community service. So that is our focus with what 
we are trying to do. We do not implement programs. We work with 
organizations that I mentioned earlier to implement the 
programs, provide the technical assistance and training to 
allow them to do it at the local level. So if it is a rural 
area, the need can be met. And that veteran can integrate into 
existing programming, whether it is a parks and recreation 
organization or a Paralympic organization, or we can provide 
the training to allow them to do that. And it is a major 
emphasis.
    And the other key is flexibility. Diane talked a little bit 
about the impact on local VA facilities. And Congressman 
Bilirakis, and I wanted to answer this question, we are working 
with Tampa Parks and Recreation right now, who is providing 
services to the Tampa VA. And our philosophy is, ``Be 
flexible.'' Knowing that DoD military medical centers and VA 
facilities have their priorities and their mission. And taking 
on additional programs might not be realistic. In Tampa, the 
Tamps Parks and Recreation organization in the community is 
providing the expertise as requested by the Tampa VA to meet 
the need there. So it is a real cost efficient model that is 
flexible. We can go into the VA facility and provide expertise. 
We can do it in the community. Or we can just provide equipment 
and coaching. I mean, we are flexible in terms of how to 
deliver the service based on the local community need.
    Mrs. Kirkpatrick. Thank you. I am out of time, so thank you 
very much.
    The Chairman. Well, I want to thank you all for an 
incredibly informative and moving morning. We have the Federal 
agencies working in cooperation with the U.S. Olympic Committee 
and working with the stakeholder organizations at a local 
level. Of course, the proof is how the individuals have 
responded to that. We have to do more. One thing that I am 
impressed with is that what we are doing to at the VA to help 
veterans is also helping others who are not veterans. When you 
deal with local communities and make things adaptable you are 
helping all disabled people, not just disabled veterans. I 
think that is an important side benefit of what you all do 
every day.
    In war, and especially in America, people do not want to 
think about the war after it is over. Yet we have people who 
were injured while they were doing what they wanted to do, or 
considered their duty to do. We have to take care of these 
people after the war. We cannot lose track of the people who 
have given so much. This is one way that has become very 
effective and it is very important and inspires all of us to do 
better. Kortney, I see you sitting there and when I watch you 
running, it inspires us to do our jobs better. We know that 
pain of that first moment that was shown in the video and how 
hard it was how many months, and years you had to work to get 
into condition. All of that is incredible, incredible work that 
inspires us to say, ``Hey, we can do better for you and we can 
do better in anything we do.''
    Thank you all for teaching us so much. We are looking 
forward to supporting you in the future. This hearing is 
adjourned.
    [Whereupon, at 12:23 p.m., the Committee was adjourned.]


















                            A P P E N D I X

                              ----------                              

            Prepared Statement of Hon. Bob Filner, Chairman,
                     Committee on Veterans' Affairs

    Since the early years of our country, Congress has had to reassess 
programs created to care for our men and women in uniform, our veterans 
who have courageously answered our call to duty and their families who 
have joined in the military experience.
    For many servicemembers and veterans who have been severely-injured 
from service to our country, their rehabilitation can be a 
disheartening experience. Many become concerned about having the same 
quality of life that they had prior to their injuries.
    This was known to be true in World War II, and has held true today 
in the midst of our nation's commitments in Iraq and Afghanistan. 
Fortunately, this Congress stands united in support of our members of 
the Armed Forces and veterans who deserve the best resources to succeed 
in life after their military service.
    Some of my colleagues may be aware of the history of how paralympic 
sports have been used in the physical therapy of injured servicemembers 
and veterans, and how it has evolved over the years since World War II.
    As some of our panelists will testify today, the issue of 
paralympic sports being used as a method of physical therapy is not new 
to them with many sharing strong partnerships with the VA that span 
more than 20 years to provide rehabilitation services to our injured 
men and women who have worn the uniform.
    In the last Congress, the Subcommittee on Economic Opportunity 
under the leadership of Chairwoman Herseth Sandlin and Ranking Member 
Boozman, held a series of hearings on the future role of the VA in 
paralympic sports.
    In those hearings they received testimony highlighting the need to: 
conduct program outreach to veterans; conduct followups with veterans 
after a flagship event such as the National Veterans Wheelchair Games; 
and, the need to implement programs to appeal to veterans seeking to 
participate in non-traditional activities such as scuba diving.
    Today, we will provide the needed oversight on the VA's Office of 
National Veterans Sports Programs and Special Events that we first 
authorized in Public Law 110-389 on October 10, 2008. This law 
authorizes the Secretary of Veterans Affairs to make grants to the U.S. 
Olympic Committee to provide: paralympic instruction, competition 
activities, and, training program development activities for 
servicemembers and veterans with physical disabilities.
    Many of you may know that earlier this month I offered an amendment 
to the VA appropriations bill, with the support of Ranking Member 
Buyer, which ensures that this valuable program is fully funded and 
capable of providing the support and programs that our veteran athletes 
require.
    As some of my colleagues in the Committee have highlighted in the 
past, it is important to understand the history of this new program so 
that we may avoid the same pitfalls that have been encountered by 
similar programs.
    I look forward to working with Ranking Member Buyer, Chairwoman 
Herseth Sandlin, Ranking Member Boozman and all the Members of the 
Committee to ensure this new program succeeds in its mission to provide 
rehabilitative sports therapy to our injured servicemembers and our 
veterans. They definitely deserve it.

                                 <F-dash>
  Prepared Statement of Hon. Steve Buyer, Ranking Republican Member, 
                     Committee on Veterans' Affairs

    Thank you Mr. Chairman. General Douglas MacArthur, while he was 
Superintendent of West Point, stated:

            ``Upon the of friendly strife are sewn the seeds, that upon 
            other fields,
            on other days, will bear the fruits of victory.''

    General MacArthur eloquently conveyed that the value of 
participation in sports activities can carry over into other areas of 
life.
    Sports strengthen individuals physically, mentally and emotionally.
    Athletes develop so many great qualities of the heart and mind that 
when these attributes are translated into other areas of life's 
activities, it often leads to great success and accomplishments. I 
believe that sports therapy is among the most valuable rehabilitative 
tools we can provide our wounded warriors.
    I saw this firsthand when I had the pleasure of visiting the U.S 
Olympic Committee training site in Chula Vista, CA. The training site 
is located just a few miles southeast of downtown San Diego and is a 
place of joy, determination, dedication, sweat, and comradeship. It is 
a very scenic place with a beautiful lake and landscaping. Another 
notable feature is that the landscaping is dotted with signs reminding 
visitors that the rattlesnakes lurking in the shrubbery are part of the 
natural ecosystem.
    I found it a convincing reason to stay out of the landscaping. . .
    But the real beauty of the site was in the athletes.
    Walking around, you see the positive energy with which they 
approach life. You see how they encourage each other even if they are 
competitors for the same spot on the U.S team. In sum, I suspect you 
will see the same vitality at any of the USOC's training sites.
    About the same time I was there, the USOC was embroiled in a 
controversy over allegations of corruption and other less than 
flattering charges. I felt it was our duty to help the USOC refocus on 
the athletes. We did that, reducing the U.S. Olympic Committee to a 
manageable size.
    The leaner, more efficient number of staff that exists now includes 
representatives of the athletes themselves. The upbeat, positive 
attitudes I saw during my visit made it clear to me that our disabled 
veterans benefited greatly from their activities and that increasing 
their participation in sports at all levels, from beginner to expert, 
would help them in their rehabilitation.
    With a bit of encouragement, VA and the USOC signed an agreement in 
2005 to begin a program to bring more veterans into sports. As a 
result, the USOC began a series of training events at Colorado Springs 
and Chula Vista for our wounded warriors. Many of these servicemembers 
were literally just a few weeks from being wounded in action. And the 
great thing was that every one of them was smiling despite their 
injuries and the exertions they were making to restart a life of 
activity through sports.
    I also introduced a bill that authorized VA to provide grants via 
the USOC to other local disabled sports programs and to offer a small 
per diem to disabled veteran athletes training at USOC facilities.
    Chairman Filner also introduced legislation, and we merged our 
ideas together into one bill which were signed into law last year as 
part of title 38.
    I am proud that through our combined efforts Mr. Chairman, we also 
helped formalize VA's sports and special events program and expand 
sports therapy for disabled veterans. VA and its cosponsors from the 
veterans service organizations have put adaptive sports on the map with 
events such as the National Wheelchair games, the Winter Sports Clinic, 
and the Golden Age Games. This year, VA will add a new disabled golf 
event to their calendar and I salute VA and all their partners for 
being pioneers in the adaptive sports arena.
    This year, the Chairman and I amended the VA appropriation bill to 
increase funding for the program to the full authorization of $10 
million and I thank Chairman Filner for using the language in my 
amendment.
    I want to make it very clear that this legislation was not about 
producing athletes for the U.S. Paralympic Team. It is about increasing 
the number of disabled veterans who participate in all types of sports 
at all levels in cooperation with U.S. Paralympics and their partners 
such as our witnesses here today. I am sure Mr. Huebner would agree 
that you build a national team from the ground up beginning with local 
sports programs. One does not wave a magic wand and--POOF--you have an 
elite level athlete.
    This has been a bit of a journey, but today, the USOC has reached 
agreements with about a hundred local disabled sports programs and is 
working with over a dozen hospitals where our wounded warriors are 
undergoing treatment.
    The glowing results are that thousands of disabled veterans have 
been touched at the local level and 16 disabled veterans, three from 
the wars in Iraq and Afghanistan, made the U.S. Paralympic Team and 
brought home several medals from the Beijing Paralympics.
    So Mr. Chairman, while you and I don't always see eye-to-eye, we 
are in total agreement on the value of using sports to improve the 
lives of our disabled veterans.
    Increasing the availability of disabled sports programs is just one 
more resource to speed recovery and bring the positive attitudes and 
values I mentioned seeing at Chula Vista to our disabled veterans.
    I am sure we can do more and I look forward to working closely with 
the Chairman and any Member who shares our vision of improving the 
lives of disabled veterans through sports.
    I yield back.

                                 <F-dash>
                Prepared Statement of Hon. John J. Hall

    Thank you, Mr. Chairman, and thank you to all of the witnesses for 
testifying. I'm pleased that we are here today to talk about the 
Military Paralympic Program and ways to improve its effectiveness.
    The wars in Iraq and Afghanistan are unlike many of the wars that 
our service men and women have fought throughout our history. Many more 
brave men and women are returning home alive, but have sustained the 
most serious injuries. As I have heard from countless veterans in my 
district, the battle doesn't end once the last bullet is fired. War 
leaves a scar. In some veterans, the scar of war is invisible to 
everyone else. That's why I've been pushing for better treatment and 
compensation for servicemembers with Post Traumatic Stress Disorder. 
For other veterans, like the men testifying in the first panel today, 
their wounds are physical. The men here today have given a part of 
themselves in service to our Nation. Thank you, gentlemen, for your 
service, and for your sacrifice.
    Congress must do more to help our men and women heal their wounds 
from war and lead active lives. The Military Paralympic Program can 
play a big role in that by providing support and camaraderie for our 
veterans, and by helping these strong men and women overcome their 
physical disabilities.
    I hope that in this hearing we will discuss ways to improve 
outreach to returning veterans, increase the program's effectiveness, 
and expand funding opportunities. I look forward to hearing your 
testimony and your suggestions to reform the Military Paralympic 
program.
    Thank you.

                                 <F-dash>
      Prepared Statement of Sergeant Kortney Clemons, USA (Ret.),
                            Chula Vista, CA

    Good morning. My name is Kortney Clemons. I was honored to serve in 
the Army from 2001 to 2006 and I'm so proud to stand before you today 
as an Army Veteran, Purple Heart recipient and a Paralympic hopeful. I 
lost my right leg above the knee to a roadside bomb in Iraq in 2005. I 
never imagined when I was lying in the hospital bed in Landstuhl, 
Germany, that 4 years later, I would be a proud graduate of Penn State 
University, and living and training full-time at the U.S. Olympic 
Training Center in Chula Vista as part of the USOC Track & Field 
Resident Program.
    I can't thank you enough for all you have done to support the VA 
Paralympic Program. Your support has changed--and will continue to 
change--the lives of thousands of injured soldiers. Some, like me, may 
pursue representing their country again at the Paralympic Games, but 
all will benefit from the impact of sports in many areas of their 
lives.
    Paralympic sport has given me opportunities that I never thought 
would be possible. Prior to my injury, I was an athlete who absolutely 
loved sports. I played football, basketball and baseball in high school 
in Little Rock, Mississippi and played football at East Mississippi 
Community College before joining the Army.
    I served as an Army medic in Europe and was assigned to the 1st 
Battalion, 8th Cavalry Regiment in Baghdad in March, 2004. Eleven 
months after arriving in Iraq, I lost my right leg to a roadside bomb. 
I was helping a soldier who had been wounded in an earlier incident 
when the IED exploded. The bomb took the lives of three of my comrades. 
I was grateful to have survived, but following my injury, I struggled 
when thinking about my life as an amputee. When I lost my leg, I felt 
like I had lost my identity.
    I thought I'd be in a wheelchair forever. I had never been exposed 
to other amputees, prosthetics and certainly not Paralympic sports. I 
was worried about where I would live, how I would get around, how I 
would be able to work. I was dealing with Post-Traumatic Stress 
Disorder, coming to terms with the loss of my leg and learning how to 
walk again. Sports were the last thing on my mind. But it was through 
sports that I found hope and healing--and my future.
    I'll never forget the day a U.S. Olympic Committee employee and 
Paralympic mentor, John Register, came to the Amputee Care Center at 
Brooke Army Medical Center. An amputee himself, he was meeting with 
injured soldiers to tell us about the USOC's Paralympic Military 
Program. I was still learning how to walk, but seeing him demonstrate 
how to run that day changed everything for me. I knew I could get back 
to playing sports and his inspirational message made me realize that 
sports could give me the strength, courage and confidence to live a 
great life.
    It's an important outlet for anyone with a physical disability and 
I believe it should be a key part of the rehabilitation of any injured 
service member. Everyone knows it benefits you from a physical and 
health standpoint, but what not everyone realizes is how much it helps 
you psychologically and emotionally.
    As an athlete, I've had the opportunity to meet many wounded 
soldiers during visits to military hospitals. It's wonderful to be able 
to tell them about the Paralympic Military Program and how powerful 
sports can be in their lives. I know what it's like to be lying in bed 
believing that life will no longer be ``normal'' and you won't be able 
to enjoy all the things you once did, especially sports. So it gives me 
great pride to share my story with patients and help them see that 
returning to sports is not only possible, it will also help them 
achieve many other things in life.
    To me, sport equals quality of life. It represents health and 
freedom. One of the past participants at a USOC Military Sports Camp 
summed it up best when he said ``Rehab helps you exist. Sports help you 
really live.'' I understand completely what he meant when he shared 
those feelings.
    I remember the first time I walked after my injury and the 
exhilaration I felt the first time I ran! It was unbelievable. I want 
other injured servicemen and women to have that same experience. I want 
them to learn the same thing I did . . . that Paralympic sport can help 
them lead a productive life, achieve their dreams and inspire others 
along the way.
    Thank you.

                                 <F-dash>
    Prepared Statement of Captain Nathan Waldon, USA, Washington, DC

    Good morning Chairman Filner and Ranking Member Buyer. My name is 
Nathan Wayne Waldon and I am a Captain in the United States Army. I 
appreciate the opportunity to testify.
    My affinity for physical activity has not been recently acquired. 
Growing up in the southeast and thus afforded great year round weather 
I have been an active participant in various sports from early on. 
This, of course, was strongly encouraged/mandated by my parents who 
made sure that I was not sitting around the house playing video games 
and watching television. Looking back now upon those years from a very 
different perspective, I have come to understand that there were a 
multitude of reasons they wanted me to participate. Physical Activity 
is something that every child needs.
    An active lifestyle which started at an early age is something that 
has always been a part of my identity as a person. Physical Activity/
Sports is where I learned so many important life lessons. For example: 
How to be a team player, putting the good of the whole ahead of one's 
personal ambition. How to communicate/interact with other people from 
all walks of life. The importance of hard work, nothing comes easy. To 
be better you must put in the practice to improve. Mental toughness, 
pushing yourself beyond what you think you are capable of, never 
quitting. Confidence in oneself, that you can achieve what you put your 
mind to. Humility, in both victory and defeat. I could continue to list 
all of the values that physical activity/sports has taught me, but it 
is simpler to say that physical activity is both the reason I am alive 
today and is what has given me hope for my future.
    Before I ever applied to college I knew I wanted to serve in the 
army. I made sure I found a school that was both academically strong as 
well as having a strong ROTC program. I decided upon Furman University 
and began in the fall of 2000. During this time physical activity both 
in the military as well as intramural sports were a wonderful balance 
to all the academic studies. One of the first things I learned from my 
First Sergeant was the most important. An officer leads from the front 
in everything that he does. You should always set the proper example.
    I graduated in 2004 and proceeded to Ft. Benning. Throughout all 
the army schools I participated in, physical activity played a crucial 
role. The intensity which I approached training was so that I could 
serve my men better. Physical fatigue can obviously lead to poor 
decision-making. My sweat now, would hopefully prevent their blood 
being spilled later.
    I was assigned to the 3rd ID, 3 BDE, 2/69 AR, Bayonet Company, 1st 
PLT, as an Infantry platoon leader. Once again the lessons I learned 
living an active lifestyle continued to pay dividends. I had the top PT 
score in the company earning a bit of credibility with my new men, many 
of whom had already seen multiple deployments. I also won a brigade 
wide fitness competition, a new tradition COL Grigsby the Brigade 
commander started wanting to stress the importance of physical fitness. 
I received an ARCOM as well as a 4 day pass for this accomplishment. It 
also gained more notoriety form my platoon and gave them something to 
be proud of.
    On 11 July, 2007 we were conducting combat operations Baghdad. My 
platoon was in mounted in gun trucks on the way to conduct dismounted 
patrolling operations. My vehicle was hit with an EFP, the signal to 
launch an ambush. The slug from the EFP went through my door, then my 
leg, and fortunately bent my rifle up pretty good perhaps saving my 
left leg. I was able to get the door open and climb/fall out. My gunner 
hopped out the top and came to my assistance, helping to drag me back 
towards the third vehicle. It was so surreal; the magnitude of what had 
happened to me just now was taking a moment to set in. I did not have 
much time to contemplate my situation, my platoon sergeant was giving 
me the SITREP on what was going on and we were still in the fight. 
Luckily everyone else in my truck was fine. Everyone was going about 
their business reacting to contact just like we trained. The medic was 
working on me, PSG was keeping me updated and as soon as someone set 
the outer cordon we evacuated to FOB Shield. During this entire episode 
I was conscious and able to make rational decisions. Without my 
training none of this would have been possible. Being in excellent 
shape, kept the injury I sustained from being much worse. The ER docs 
said it should have taken my leg off to the hip just from the force of 
the projectile. He cited my physical conditioning as a large part of 
the reason I did not go into shock or lose consciousness.
    I was transported back to Walter Reed Army Medical Center (WRAMC) 
where my surgeries and rehabilitation began. It was not a very happy 
time, I was in pain, I had recently had a life altering experience, 
etc. I had always been very independent and self sufficient. But now I 
can't walk. What made this even worse was that sports/ physical 
activity was such a large part of my identity. I was only focusing on 
the negative, but without that outlet, who was I. I truly felt lost. My 
conditioning even after my inpatient time allowed me to quickly achieve 
the goals of the physical therapists, but to me they seemed somewhat 
mundane. I didn't want to be able to do crunches and pull ups. I wanted 
to be active.
    Because of my physical progression and my PT and OT recommended 
that I try and participate on one of the adaptive trips. It was 
December at this point and an organization known as DSUSA was hosting 
the Hartford Ski Spectacular. I decided to go and it was one of the 
best decisions I have made. It was like learning sports as a child all 
over again though. I felt like such a fool falling all over the place. 
You want to quit, you want to give up. Your strength isn't there your 
fake leg isn't doing what you want it to, but the lessons instilled as 
a child were still there. Humility, just swallow your pride get out 
there battle it, don't quit. The instructors and event were 
exceptional. By the end of the week I had made progress, but I did not 
want to be adequate, I wanted to excel like I always had.
    I came away from this weekend with a sense of purpose. I had a 
taste of what I could do. No it was not going to be the same, hence the 
phrase adaptive sports. The way I view that term is perhaps different 
than others; it should be adaptive just from an equipment standpoint. I 
require a certain device to perform, but given the resources and 
training, I should be as good as anyone on the mountain. This one event 
gave me my life back. I was able to accept who I was, and with this 
acceptance came a sense of grounding to my life. I was no longer 
fighting it by focusing on the negative aspects of what had occurred. 
This was just another challenge to undertake.
    Since this initial event I have had the opportunity to attend 
others. Building upon what I learned at the last always pushing 
forward. As I have improved, it is also inspirational for newly wounded 
to see what they can accomplish if they commit themselves.
    Words cannot express how grateful I am to those who have given me 
the opportunity to participate in their events. Thank you so much for 
giving me my life back.

                                 <F-dash>
     Prepared Statement of Captain Mark D. Little, USA, Fairfax, VA

    Biographical Information:
    Home town: Fairfax, VA
    In the course of one month, Mark was hit by three IED's while 
serving in Iraq, and it would be the final one that would cause him to 
lose both his legs below the knee on September 7, 2007. He received 2 
Purple Hearts, a Bronze Star, and several other awards for his service. 
Despite his severe injuries, Captain Little was snowboarding under DS/
USA's Wounded Warrior Disabled Sports Project four months after injury. 
He also has also learned alpine and Nordic skiing, golf, and cycling 
through the program. Mark is now a police officer in his native 
Virginia and trains Law Enforcement and Military. He is continuing to 
serve within the Department of Defense while finishing his recovery in 
the Washington DC area.

    <bullet>  Personal Army History
    <bullet>  Explanation of Injuries Received in Combat (OIF V)
    <bullet>  Inpatient time in hospital
        <bullet>  Concerns about personal recovery
        <bullet>  Visit from fellow amputee who had participated in 
        DSUSA activities
        <bullet>  Shift in mindset and setting goals for recovery

    <bullet>  Receiving prosthetic limbs and immediate competitive 
spirit
    <bullet>  Introduction into the DSUSA program
        <bullet>  Attitude towards wounded Veterans
        <bullet>  Adaptive nature and positive spirit of the program 
        and volunteers
        <bullet>  Ability to interact with experienced Veteran amputees 
        and learn new things
        <bullet>  Camaraderie of DSUSA event participants and family 
        atmosphere
    <bullet>  How DSUSA activities have helped me get to where I am now
    <bullet>  How this legislation is critical to helping me and other 
disabled veterans stay active in sports and recreation in my home 
community.
        <bullet>  Maintaining lifelong health and fitness
        <bullet>  Meeting the individual needs of veterans
        <bullet>  Keeping the family intact
        <bullet>  Leading to success in all areas of life, including 
        employment

                                 <F-dash>

Prepared Statement of Adrian M. Atizado, Assistant National Legislative 
                  Director, Disabled American Veterans
    Mr. Chairman and Members of the Committee:

    Thank you for inviting the Disabled American Veterans (DAV), an 
organization of 1.2 million service-disabled veterans, to testify at 
this important hearing to discuss disabled veterans rehabilitation thru 
sports. We appreciate the opportunity to offer our views and experience 
with the National Disabled Veterans Winter Sports Clinic.
            NATIONAL DISABLED VETERANS WINTER SPORTS CLINIC
    The National Disabled Veterans Winter Sports Clinic is the world 
leader in promoting rehabilitation by instructing veterans with 
disabilities in adaptive skiing, and introducing them to a number of 
other adaptive recreational activities and sports. The Clinic is 
cosponsored by the DAV and Department of Veterans Affairs (VA), as well 
as a number of generous corporate and individual donors.
    As the largest annual disabled learn-to-ski clinic in the world, 
the Clinic is an annual rehabilitation program open to active duty 
servicemembers and veterans with spinal cord injuries, orthopedic 
amputations, visual impairments, traumatic brain injuries, certain 
neurological problems and other disabilities who receive care at a VA 
or military medical facilities. It provides the extrinsic motivation of 
excitement and camaraderie, but more importantly, it fosters the 
intrinsic motivation in each participant to find their strength of 
purpose and achieve what can only be described as miracles on a 
mountainside.
    This event evolved from the pioneering efforts of the VA in 
rehabilitation and adaptive sports. Mr. Sandy Trombetta, founder and 
director of the Clinic, began bringing VA patients to a nearby mountain 
resort to participate in disabled ski programs in the early 1980s. As a 
recreation therapist at the VA Medical Center in Grand Junction, 
Colorado, he recognized the physical and mental healing that skiing and 
other winter sports can provide to veterans with disabilities. Just a 
few years after the first Clinic was held in 1987, with 20 staff 
members and about 90 veterans, it became apparent that more support was 
needed due to the therapeutic benefits and popularity of the Clinic. 
The DAV answered that call and has become a co-sponsor of the event 
since 1991.
    It has grown tremendously over the past 23 years. The most recent 
Clinic was held in Snowmass Village, Colorado from March 29-April 3, 
2009, where more than 370 participants attended from across the 
country, along with 200 certified disabled ski instructors. Of those 
veterans and servicemembers who participated, 114 were first-time 
participants, 29 were women and over a third were servicemembers and 
veterans are from the wars in Iraq and Afghanistan.
    Some of these veterans have never skied before. Most have spent 
months in hospitals, convinced their lives are over. A great many have 
been told they would never walk again. Yet there on the majestic high 
Alpine terrain of the Colorado Rockies, they learn otherwise and are 
proof positive that empowerment allows them to determine their own 
fate. Known for inspiring ``Miracles on a Mountainside,'' the Clinic 
shows that the lives of disabled veterans can be changed forever when 
they discover the challenges they can overcome. I invite you to view 
the 2008 National Disabled Veterans Winter Sport Clinic DVD to get a 
sense of the profound impact this event has on the participants and the 
volunteers. The 2009 video is available for viewing at VA's website.\1\ 
It is an intense week that touches everyone involved.
Not Just Skiing
    Adaptive ski equipment is updated and modified for each Clinic, and 
skiing is integrated with other exploratory activities. In addition to 
learning Alpine and Nordic skiing, participants are introduced to a 
variety of other sports such as rock climbing, scuba diving, trap 
shooting, horseback riding, snowmobiling and sled hockey.
    Other educational and instructional activities are also available 
such as the U.S. Secret Service teaching a self-defense course to 
participants who are in wheelchairs or are visually impaired; service 
dog owners and trainers meeting to discuss the care and availability of 
canine companions; a traumatic brain injury (TBI) Peer Support Group 
Meeting was again on the agenda this year where veterans suffering from 
TBI participated, including families who attended the Clinic and the 
veteran's caregiver. In typical peer support fashion, stories were 
shared of survival above and beyond the adversity their injuries 
caused.
    DAV Past National Commander Chad Colley and his wife Betty Anne 
hosted a discussion entitled ``Veterans--Not Just About You!'' The 
couple spoke about relationships between disabled veterans and their 
spouses and offered sage advice on maintaining marriages. Women also 
had a reception of their own to talk about the issues they face and to 
bond as veterans and participants. As the veterans met together and in 
smaller groups, they developed lifestyle solutions and gained 
inspiration that will reverberate beyond the event.
Rehabilitation First
    While the Clinic holds a race training and development program to 
help veterans develop their skiing abilities to an elite level to 
qualify for U.S. Paralympic Team participation, its primary purpose is 
to promote rehabilitation, fitness, and an enhanced quality of life. 
The rehabilitation of disabled veterans through the annual Winter 
Sports Clinic drives DAV's commitment to the event as it truly reflects 
our organization's mission of building better lives for our Nation's 
disabled veterans and their families.
    In 1992, we instituted the DAV Freedom Award at the National 
Disabled Veterans Winter Sports Clinic. It is given each year to the 
veteran who makes the most progress during the week, showing 
outstanding courage and accomplishments in taking a giant step forward 
in his or her journey of rehabilitation. The award's inscription reads: 
``Their accomplishments during the National Disabled Veterans Winter 
Sports Clinic have proven to the world that physical disability does 
not bar the doors to freedom. We salute your desire to excel so that 
others may follow.''
    This year's recipient, Portray Woods, was serving as Army's 1st 
Armored Division on a reconnaissance patrol in Baghdad. He was behind a 
.50 caliber machine gun when a roadside bomb hit this vehicle. Missing 
his right arm and left thumb, and suffering from a traumatic brain 
injury, Portray was unable to walk, talk, see out of his left eye, and 
was paralyzed on his right side. With courage, humility, and strength 
of the warrior spirit, he hunkered down to do battle with the long-term 
effects suffered by the thousands of servicemembers who have been 
injured by explosive blasts in our current conflicts in Afghanistan and 
Iraq. In 2008, he attended his first National Disabled Veterans Winter 
Sports Clinic. The event reaffirmed the tremendous strides he'd taken 
in recovery when he quickly picked up downhill skiing, cross-country 
skiing and other events. He joined DAV Chapter 52 in Indianapolis and 
continued to rapidly advance and exceed expectations throughout his 
recovery at the Richard L. Roudebush VA Medical Center in Indiana.
    Portray and other recipients of the DAV Freedom Award before him 
serve as an example to all participants of what the National Disabled 
Veterans Winter Sports Clinic is all about. Research shows that people 
who participate in daily physical activity experience enhanced self-
esteem and improved peer relationships, which correlate to increased 
achievement, overall better health and a higher quality of life. 
Further, while it is well established that recreation therapy plays a 
key role in the rehabilitation of disabled veterans in VA medical 
centers throughout the country, the Clinic enhances the physical, 
social, and emotional well-being of the veterans and their families who 
participate in this life changing event.
                     PUBLIC LAW 110-389, TITLE VII
    Mr. Chairman, the DAV recognizes the purpose of Title VII of Public 
Law 110-389 to expand disabled veterans access to sports and recreation 
opportunities, including needed education and training. The law 
provides assistance to the United States Paralympics, Inc., to plan, 
develop, manage, and implement an integrated adaptive sports program 
from the local to national level through direct grants from the VA. The 
law also established the VA Office of National Veterans Sports Programs 
and Special Events that is to oversee sports programs or other events 
for disabled veterans to participate as well as seek corporate 
sponsorship to defray costs.
    The DAV does not currently have a relationship with the U.S. 
Paralympics program; however, we do participate with the National 
Rehabilitation Special Events Management Group. While the intent of 
Public Law 110-389 is laudable, our concern is the impact it may have 
on the National Disabled Veterans Winter Sports Clinic, which is a 
rehabilitation event and not a training ground for future Olympians.
    In addition, section 702 of the law allows for individuals with 
disabilities who are not veterans or members of the Armed Forces to 
participate in sports programs that receive funds originating from VA 
grants. As an organization devoted to improving the lives of our 
Nation's wartime disabled veterans we are concerned for any shift of 
VA's mission, personnel, and resources away from disabled veterans. 
Moreover, section 703 requires the Director of the VA Office of 
National Veterans Sports Programs and Special Events to seek 
sponsorships and donations from the private sector to defray costs. 
This provision may have an adverse impact on our organization's ability 
to discharge our responsibilities contained in the Memorandum of 
Understanding for the National Disabled Veterans Winter Sports Clinic 
between the DAV and VA. DAV is deeply committed to achieving each year 
a successful Winter Sports Clinic and we value our responsibility to 
administer the corporate sponsorship program, sponsor recognition, and 
other mutually agreed upon activities.
    Mr. Chairman, this concludes my statement, and I will be pleased to 
respond to any questions you or any Member of the Subcommittee may wish 
to ask.
---------------------------------------------------------------------------
    \1\ http://www1.va.gov/vetevent/wsc/2009/WSC2009_Lg_Prog_001.asx

                                 <F-dash>

                   Prepared Statement of Carl Blake,
      National Legislative Director, Paralyzed Veterans of America

    Chairman Filner, Ranking Member Buyer, and Members of the 
Committee, I am pleased to be here today on behalf of Paralyzed 
Veterans of America (PVA) to offer our views on the Military Paralympic 
Program and rehabilitation through sports and recreation for severely 
injured servicemembers and veterans. We would like to thank this 
Committee particularly for its efforts to expand sports and recreation 
opportunities for disabled servicemembers and veterans. Perhaps no 
veterans' service organization understands the importance of sports as 
a rehabilitation tool more than PVA.
    Since its inception in 1946, PVA has recognized the important role 
that sports and recreation play in the spinal cord injury (SCI) 
rehabilitation process. In fact, it was paralyzed veterans, injured 
during World War II, who first started playing pick-up games of 
wheelchair basketball in VA hospitals. This marked the birth of 
wheelchair sports. Doctors quickly realized the significance of these 
types of activities and the powerful therapeutic benefits on the 
physical, mental and social levels that could be derived from 
participating in wheelchair sports. It is for this reason that PVA 
developed, and annually administers, a comprehensive sports and 
recreation program for its members and other Americans with 
disabilities.
    PVA sponsors a wide array of sports and outdoor recreation events 
to improve the quality of life and health of veterans with severe 
disabilities. Most notable of these activities is the National Veterans 
Wheelchair Games (NVWG) which PVA has co-sponsored with the Department 
of Veterans Affairs for 25 years. In fact the most recent Games just 
wrapped up in Spokane, Washington earlier this month. This year, the 
NVWG drew 513 veterans. Of that number, 34 were veterans of Operation 
Enduring Freedom and Operation Iraqi Freedom (OEF/OIF). More 
importantly, 110 of the veterans were first-time participants. In fact, 
PVA has one of the highest participation rates of members in this 
event. Likewise, we fully support the activities of the National 
Disabled Veterans Winter Sports Clinic, the National Veterans Golden 
Age Games, and the National Creative Arts Festival.
    PVA also runs a number of other sports and outdoor recreation 
programs meant to get severely disabled veterans involved. Our Shooting 
Sports Program consists of the PVA National Trapshoot Circuit, pistol 
and rifle competitions and various hunting opportunities. The Trapshoot 
Circuit includes 10 events annually that draw approximately 600 
participants. Our Boating and Fishing Program consists of the PVA Bass 
Tour and a variety of other fishing opportunities. The Bass Tour is 
comprised of six events annually that draw more than 350 participants.
    PVA, in association with the National Wheelchair Poolplayers' 
Association, has developed a unique series of billiards tournaments for 
people with disabilities. In 2009, PVA will conduct eight billiards 
events with approximately 160 participants. Likewise, PVA has partnered 
with the American Wheelchair Bowling Association to create a bowling 
tournament series. In 2009, PVA will conduct seven events with 
approximately 280 participants. Finally, PVA also financially sponsors 
several National Governing Bodies of Disabled Sport, including 
organizations that conduct program opportunities for wheelchair 
basketball, quad rugby, wheelchair bowling, wheelchair softball and 
wheelchair billiards to strengthen existing infrastructure for 
wheelchair sports and recreation participation.
    In the past 5 years, PVA has conducted significant outreach at 
Department of Defense (DoD) and VA hospitals to make its sports and 
recreation programs available to recently injured Operation Iraqi 
Freedom (OIF) and Operation Enduring Freedom (OEF) veterans. In fact, 
PVA was recognized in 2007 by the staff at Walter Reed Army Medical 
Center for our important work with the men and women being treated at 
that facility. In addition, in 2008 PVA edited a chapter entitled 
``Sports and Recreation Opportunities for the Combat Amputee'' to be 
included in the DoD medical handbook Care of the Combat Amputee.
    PVA was pleased to support the provisions of Public Law 110-389, 
the ``Veterans' Benefits Improvement Act of 2008.'' Section 7 of the 
law authorized the VA to provide assistance to the Military Paralympic 
Program and expand sports and recreation opportunities available to 
severely disabled veterans. The intent of the law is consistent with 
the mission of PVA's Sports and Recreation Program which is to expand 
the quantity and quality of sports and recreation opportunities, 
especially those that promote lifetime fitness and a healthy lifestyle, 
for PVA members and other people with disabilities. As we have 
testified in the past, PVA's primary goal for its Sports and Recreation 
Program is all about healthcare and rehabilitation first.
    P.L. 110-389 specifically emphasizes the need to enhance the 
recreation activities provided by the Department of Veterans Affairs by 
promoting disabled sports from the local level through elite levels and 
by creating partnerships among organizations specializing in 
supporting, training, and promoting programs for disabled veterans. 
This will be accomplished by providing training, technical assistance, 
equipment and Paralympic mentors for injured veterans to participate in 
daily physical activity at the community level as an aspect of their 
rehabilitation. This relationship affords many of our members an 
opportunity that they would not otherwise have.
    PVA was also pleased to see that the law creates an Office of 
National Disabled Veterans Sports Programs and Special Events and a 
Director position to oversee this Office. PVA has a special interest in 
this Office as the chief presenter, along with the VA, of the National 
Veterans Wheelchair Games. However, we remain concerned that the Office 
is required to report to the Veterans Benefits Administration. We 
believe that this Office would be more appropriately placed under the 
Veterans Health Administration (VHA). The ultimate purpose of the 
Wheelchair Games, Winter Sports Clinic, Golden Age Games and Creative 
Arts Festival is to provide the best rehabilitative therapy possible to 
maximize independence and enhance the quality of life for severely 
disabled veterans. Given that rehabilitation is part of the mission of 
VHA, we believe that it should be the controlling authority.
    We believe that much progress and enhanced cooperation has resulted 
from the Military Paralympic Program. Under this program, PVA has 
witnessed improved coordination between our organization, USOC-
Paralympics, and other veterans' and community-based sports 
organizations that has enhanced existing programs and advanced 
development of new programs in communities that previously had not been 
served.
    PVA and its chapters have already expanded specific opportunities 
with the Military Paralympic Progam. These opportunities include:

    <bullet>  Partnered with PVA to implement a new handcycling program 
in four strategic locations throughout the United States (Chicago, 
Illinois; San Antonio, Texas; San Diego, California; and Washington, 
DC/Richmond, Virginia).

    <bullet>  Partnered with PVA to introduce USOC Shooting sponsored 
air gun and air pistol clinics and competitions at PVA National 
Trapshoot Circuit events.
    <bullet>  Partnered with PVA to introduce Paralympic-style events 
at the National Veterans Wheelchair Games for the purpose of 
identifying future potential Paralympic-level athletes.
    <bullet>  Partnered with PVA's Mid-America Chapter to coordinate a 
multi-event sports camp hosted by the University of Central Oklahoma 
from August 7-10, 2009 at Lake Arcadia, Oklahoma.

    As a part of our testimony on sports and recreation opportunities 
offered last year, we made several recommendations that we believed 
would expand veteran participation in those programs administered by 
the VA. One of our principle concerns was to remove barriers to 
participation. Our concern then was that newly injured veterans should 
be provided timely access to education and training regarding sports 
and recreation opportunities. Furthermore, we believed that the VA and 
DoD should facilitate outreach efforts of legitimate organizations 
promoting sports and recreation opportunities by improving their access 
to newly injured veterans. We believe that the Military Paralympic 
Program has helped alleviate some of these concerns, and we look 
forward to continued progress as a result of this program.
    Interestingly, PVA found in a sports and recreation survey that we 
conducted in 2002 that employment, whether full-time or part-time, is a 
barrier to sports and recreation activities due to a lack of time to 
participate. Furthermore, inadequate training, lack of local programs, 
high equipment and licensing fees, and a shortage of accessible local 
facilities are critical barriers to participation. We remain hopeful 
that through new coordination with the Military Paralympic Program, 
these barriers can be overcome.
    There is no doubt that activities such as those listed above and 
all disabled sports and recreation activities have positive impact not 
only on the disabled service member or veteran, but on his or her 
family. Research shows that physical activity is an important aspect of 
the rehabilitation process for persons with disabilities. It enhances 
self-esteem, reduces stress and the incidence of secondary medical 
conditions, and obviously improves conditioning. Equally important is 
that sports and recreation rehabilitation allows a disabled service 
member or veteran to reengage with family, friends, and the community. 
This contributes to a greater level of success in education and 
employment.
    PVA appreciates the focus being placed on these important programs. 
With disabled servicemen and women exiting the military everyday, 
especially from Operations Enduring Freedom and Iraqi Freedom, these 
programs will provide a beacon of hope to those men and women who will 
continue to face challenges every day of their lives. We look forward 
to working with this Committee to ensure that a wide range of sports 
and recreation activities are available to the men and women who have 
served and sacrificed.
    I would like to thank you again for the opportunity to testify. I 
would be happy to answer any questions that you might have.

                                 <F-dash>

               Prepared Statement of Julia Ray, Manager,
   Wounded Warrior Disabled Sports Project, Disabled Sports USA, Inc.
                              Summary Page

    <bullet>  A member of the U.S. Olympic Committee, Disabled Sports 
USA (DS/USA) was established in 1967 to serve the war injured from the 
Vietnam War; and later civilian youth and adults with disabilities. 
Disabled Sports USA now has 100 community based sports chapters 
operating in 38 states offering over 30 different sports year round.
    <bullet>  For the past 6 years, DS/USA in partnership with its 
chapters and Wounded Warrior Project has conducted the Wounded Warrior 
Disabled Sports Project. Under the program, over 2500 severely wounded 
servicemembers, family and hospital staff has been provided the 
opportunity to learn over 25 different sports as part of their 
rehabilitation.
    <bullet>  The WWDSP model is based on offering immediate sport 
participation opportunities as part of ongoing rehabilitation therapy 
and as part of recovery to a full and active life.
    <bullet>  Disabled Sports USA endorses the U.S. Olympic Committee 
(USOC) Paralympic Military Program.
    <bullet>  Disabled Sports USA supports the full appropriation of 
the authorized $10 million for the United States Paralympic Integrated 
Adaptive Sports Program (P.L. 110-389) to provide training, technical 
assistance, equipment and Paralympic mentors for injured Veterans to 
participate in regular physical activity at the community level.
    <bullet>  PL 110-389 is critical to the health and fitness of 
disabled veterans and their families, offering adaptive sports on an 
ongoing basis in their home communities, leading to success in life.
    <bullet>  A 2008 Disabled Sports USA survey, which Harris 
Interactive was commissioned to conduct, demonstrated a positive 
correlation between participation in sports during and after the 
rehabilitation process and higher levels of employment. Other studies 
have shown that regular exercise and health diet can reduce the risk of 
many diseases that cause millions of deaths each year, such as 
cardiovascular disease, diabetes, high blood pressure, obesity, and 
certain cancers. The Paralympic Military program will help reduce these 
risk factors for recently disabled veterans and consequently reduce 
healthcare costs for the Department of Veterans Affairs and higher 
employment rates for disabled veterans.

                              ----------                              


Background on Disabled Sports USA, Inc.
    A member of the U.S. Olympic Committee, Disabled Sports USA was 
established in 1967 by Disabled Veterans to serve the war injured from 
Vietnam. Since that time it has grown to serve both military and 
civilian adults as well as youth with disabilities. Its chapter and 
national leadership still includes disabled veterans, including its 
national Executive Director, Kirk Bauer, who is a decorated disabled 
Vietnam veteran.
    Disabled Sports USA has 100 community based sports chapters 
operating in 38 states offering over 30 different year round sports. 
Sports offered include alpine and Nordic snow skiing, snowboarding, 
golf, cycling, rock climbing, kayaking, rafting, sailing, outrigger 
canoeing, horseback riding, shooting, fishing, rafting, track and 
field, and many other activities. DS/USA's emphasis is on sports 
rehabilitation and recreational activities that lead to an active and 
healthy lifestyle. DS/USA also offers sports competitions and training 
camps that provide a ``pipeline'' for emerging athletes who want to 
train and compete for the Summer and Winter Paralympic Games.
Wounded Warrior Disabled Sports Project (WWDSP)
    Since 2003, DS/USA in partnership with its local community based 
chapters and Wounded Warrior Project, has conducted the Wounded Warrior 
Disabled Sports Project. Under the program, severely wounded 
servicemembers are provided the opportunity to learn over 25 different 
sports as part of their rehabilitation. All expenses for their 
participation are paid by DS/USA including airfare, lodging, meals, 
adaptive sports equipment and training by experienced adaptive sports 
instructors. Family members are encouraged to participate, in order to 
keep the family unit intact by sharing positive, healthy experiences 
with their wounded warrior.
    Programs are offered at the major military medical centers where 
the severely wounded are treated, including Walter Reed Army Medical 
Center, National Naval Medical Center, Brooke Army Medical Center in 
San Antonio and Naval Medical Center San Diego. DS/USA also serves 
patients from many Veterans Hospitals, including Polytrauma centers at 
Palo Alto and Tampa, for injured servicemembers with Traumatic Brain 
Injury, paralysis and multiple injuries. Since its inception, over 2500 
severely wounded servicemembers, family members and hospital staff have 
been served through more than 350 events in 25 different sports.
    The WWDSP model is based on offering immediate participation 
opportunities as part of ongoing therapy while the wounded warrior is 
in the hospital and as part of recovery.
    Sports are particularly effective during rehabilitation because 
basics of almost any sport can be taught in as little as one day. A 
quick, successful experience helps to provide a positive outlook and 
shows the wounded warrior the way to an active and successful future. 
From this new confidence the warrior is able to progress in life in a 
positive way. This result is embodied in DS/USA's motto: ``If I can do 
this, I can do anything!''.
Disabled Sports USA, Inc. supports the U.S. Paralympic Military Program 
        and P.L. 110-389
    Disabled Sports USA endorses the U.S. Olympic Committee (USOC) 
Paralympic Military Program as a model that will support the work of 
the Wounded Warrior Disabled Sports Project as well as responding to a 
critical need to continue to provide sports and recreation 
opportunities when the wounded warrior transitions to civilian life and 
returns to his or her their own local community as a disabled veteran.
    Currently Disabled Sports USA, U.S. Paralympics and other community 
based sports organizations are contributing more than 40 million in 
private resources to help rehabilitate the severely wounded through 
sports. However, the current economic climate and an ever increasing 
demand to serve servicemembers returning with conditions such as 
polytrauma,traumatic brain injury and combat stress will require 
ongoing assistance provided by P.L. 110-389, which is critical to the 
continuation and expansion of these important programs at the community 
level, enabling the disabled veteran to lead an active and healthy 
life.
Importance of Adaptive Sports Rehabilitation
    Many recent studies have demonstrated that disabled veterans have 
increased societal risk factors in areas such as suicide, homelessness, 
divorce and ``lifestyle diseases'' such as heart disease, obesity, high 
blood pressure, and certain cancers. The introduction of sports in the 
rehabilitation process and continued participation in sports after 
discharge from the hospital, will have a direct and positive influence 
on the prevention of these conditions.
    In 2008, Disabled Sports USA (DS/USA) commissioned a survey 
conducted by Harris Interactive entitled ``Sports and Employment among 
Americans with Disabilities'' to demonstrate a positive relationship 
between involvement in sport and employment levels.
    Over 200 servicemembers who had received permanent disabling 
injuries while serving overseas and who had participated in the Wounded 
Warrior Disabled Sports Project, took the survey. The survey found that 
wounded warriors were more than twice as likely (64 percent vs. 30 
percent) than the general disabled population to be regularly involved 
in physical activity and that 52 percent (compared with 33 percent of 
the general population) were employed. In addition, over half of those 
who were not working were enrolled in college or in certification 
courses.
    Given today's high unemployment rate, this survey confirmed how 
important it is for Wounded Warriors to stay active in sports, 
utilizing all the tools possible to gain employment and advance in 
their careers. Wounded Warriors are even finding gainful employment in 
the field of adaptive sports--WWDSP has seen several participants make 
meaningful contributions as program managers, mentors, coaches and 
volunteers.
    One such example is Scott Winkler, a Paralympian and WWDSP 
participant. After sustaining a spinal cord injury while serving as an 
Army SPC in Iraq, Scott has chosen to turn his injury into a positive 
life experience, working tirelessly for a non-profit ``Champions Made 
From Adversity'', spending his time visiting and encouraging people in 
similar situations to his own. In addition he continues to be an 
accomplished athlete, having competed as a member of the USA Paralympic 
Track and Field Team in Beijing.
Need for VA support of ongoing community programming
    Participation in community recreation programs provided under the 
proposed legislation, will enable the disabled veteran to participate 
in sports alongside his or her family and friends which will help to 
maintain family cohesion and support for the veteran. This will be 
critically important to those disabled veterans who transition from the 
hospital to remote communities which may not have the resources to 
adequately serve them.
    This network will encourage regular exercise and a healthier 
lifestyle, making activities available on a daily or weekly basis, 
close to home. The long term legacy of this will be healthier, happier, 
more active disabled veterans; who, due to these preventative measures 
will have less healthcare and social support needs. The new generation 
of disabled veterans will be the most equipped, informed and empowered 
group of disabled veterans this country has ever had, ready to teach 
and serve others in their footsteps.
    Particularly during this economic downturn, DS/USA is experiencing 
an ever increasing demand for services by disabled veterans, but at the 
same time, reduced corporate and foundation support. In the first half 
of 2009 alone the Wounded Warrior Disabled Sports Project has served 
over 500 Wounded Warriors, their families and hospital staff through 
over 60 sports programs, including weekly programs in the hospitals in 
sports such as golf, kayaking, swimming and scuba. Despite this 
extensive outreach, we are consistently asked to meet individual needs 
by warriors in their home communities; however financial resources 
currently limit this capability. The proposed legislation is key in 
enabling us to meet these needs.
    The younger generation also has new individualized interests. We 
have the expertise to respond by providing programs in extreme sports, 
endurance events, along with the high level coaching that the Wounded 
Warriors are demanding. There are those who wish to compete and train 
as integrated, non-disabled members of society, in golf tournaments, 
triathlons, adventure races, and conquer goals that many of us would 
only dream of; such as climbing Kilamanjaro, competing in the 
Paralympics, or completing the Hawaii Ironman. This is an ongoing 
process requiring support at an unprecedented level.
    Increased attention is required for those with moderate to severe 
traumatic brain injuries, particularly once they have left full time 
rehabilitation. WWDSP has conducted camps that demonstrate the 
effectiveness of individualized sports programs built specifically to 
their needs. Family members learn how they can not only facilitate 
this, but enjoy the sports alongside their loved ones. This needs to be 
expanded at the community level, which the appropriation of P.L. 110-
389 is vital to providing.
    Therefore, this legislation comes at a more important time than 
ever before, as thousands of severely injured veterans return home and 
work alongside loved ones to re-build their lives. We know that 
adaptive sports are critical to this process, allowing disabled 
veterans to choose to lead an active and healthy lifestyle; which in 
turn leads to employment, good mental and physical health where it is 
most needed--at home.
    Sample quotes from Wounded Warriors are included in this testimony 
clearly demonstrating this impact. Thank you Chairman Filner and 
Ranking Member Buyer--we welcome any questions.
                               __________
Appendix I--Wounded Warrior, Family and Medical Staff Quotes
    These patients change and transform in the eight days they are with 
Disabled Sports USA . . . in ways they did not change in six months of 
hospitalization. It's reintegration of who they once were.
Susan Feighery, Lead Therapeutic Recreation Specialist
Palo Alto VA Traumatic Brain Injury Unit--2009

    When you're in the hospital all day, you're with injured people. 
All you talk about is what you did in Iraq, who you killed. Here it's 
just you and the mountain. I don't think about my flashbacks, I don't 
think about my injury. It's just-beautiful.
Army Pfc. Drew Goin, Visually Impaired

    You get injured like this, you tell yourself you'll be OK, but deep 
inside you know there are limits. But doing something like this, you 
realize there aren't as many as you think, if you put your mind to it.
Marine Lance Cpl. Ufrano Rios Jimenez, Below Knee Amputee
    The project showed me the path where I could still feel like I'm 
living this active lifestyle where I'm not like jumping out of planes 
and all this other cool stuff I did before my injury.
Adriel Gonzalez

    They are learning as a family . . . it's got nothing to do with 
disability or ability, it's about learning something you can do as a 
family.
1st Lieutenant (Ret) Ed Salau, Above Knee Amputee

    When you're in the water, you're free.
Dennis Cline

    If it wasn't for [the Wounded Warrior Disabled Sports Project], I'd 
be sitting at home depressed and just withering away. Wounded Warriors 
and DSUSA have totally changed my life and kept me from getting down 
and showed me that there's things out there I can do.
    When I'm out there boarding, it takes the disability away from my 
mind and gives me more of my freedom. I'm enjoying what I went to 
protect. I owe a lot to this program. It saved my life.
Navy PO3 Mark Mix, Spinal Cord Injury

    This is a life changing event. I really don't think that people who 
are volunteering understand that, I know they love what they're doing, 
but I don't think they understand the impact they have, because you get 
out there, you get back out into the world, away from the pain, away 
from the physical therapy, and you know everything is going to be ok.
Diane Cochran, US Army Ret., Spinal Cord Injury

    [Thank you] so much. This is an opportunity that is much needed in 
my life. I don't leave my house and this is just what the doctor 
literally ordered. Thank you so much God bless you and yours.
James Smiley, Visually Impaired

    It really shows me that I'm still alive. I'm still a person I can 
still do anything I set my mind to. I may not be able to see, but a 
loss of sight is not a loss of vision.
National Guard Sgt Chris Paiser, Visually Impaired

    I'd like to give you a short anecdote relating to your study, as 
simple yes's and no's won't provide the real world information you may 
be looking for.
    A few months ago when I filled out your survey I had the mentality 
that participating in sporting events would undoubtedly have a positive 
impact on my employment because I would much rather not be working and 
playing sports instead. I thought that if I could be participating in 
something else and not sitting at my desk I would be a happy man.
    I was injured stateside in 2001 while on active-duty and things 
haven't gotten terribly better for me since. I still have significant 
issues with my BK prosthesis and high-impact activity remains out of 
the question for now. What has improved is my career orientation. 
Shortly after my injury I decided to pursue a degree in public 
relations and completed my requirements in May 2006. After graduation, 
I immediately began (and remain in) a 3-year career development 
internship that rapidly progresses me through the civil service pay 
grades. It is an exceptional management-focused program that is highly 
competitive in its selection and I was about to walk away from it 
because of a distraught mindset. One of your events changed that.
    I was invited to participate in the recent SUDS/WWDSP diving trip 
to Guantanamo Bay, Cuba. When I left home for the event, I was a mess--
physically, mentally, and emotionally. I was in constant pain, I hated 
my job and I couldn't work full days. I was considering leaving the 
employment program knowing deep down things probably wouldn't get much 
better even if I wasn't working, but I knew I just didn't want to be at 
work. Looking back, I'm not sure what the problem was, but spending 
just a few days diving changed it all.
    After the trip I returned home and went to work with a new 
attitude. I feel better physically and I feel exceptional mentally. 
Something happened over the course of the event that brought me back to 
working full days, enjoying what I do, and looking forward to my 
future. I'm back into the swing of things at work and once again 
striving to be the best I can at my job. As an added bonus, I made 
several new friends and look forward to meeting up with them again 
soon. Those social contacts will help get through personal challenges 
as much as the sporting events themselves.
    Beyond diving, I've discovered that my interest to get involved in 
other adaptive sports has returned.
    Having physical and social activities to look forward to after 
several days of hard work is a great feeling. As far as the study goes, 
there is no question in my mind that there is a direct correlation 
between participation in adaptive sports and maintaining gainful 
employment. I assume there's a key element to the social interaction, 
confidence, and physical therapy that sports provide to help influence 
the decisions I make on my career. Your program is effective and thanks 
for allowing me to be involved.
Marine LCPL Aaron Schoenfeld, Above Knee Amputee

                                 <F-dash>
 Prepared Statement of David Stringer, Richland County, South Carolina,
 Parks and Recreation Department, on Behalf of National Recreation and
                            Park Association

    Good morning Chairman Filner, Ranking Member Buyer and Members of 
the Committee.
    My name is David Stringer and I work for the Richland County Parks 
and Recreation Department in South Carolina. On behalf of the National 
Recreation and Park Association (NRPA), I want to thank you for 
allowing us the opportunity to provide testimony at this important 
hearing addressing the needs of injured Service Members and the 
Paralympic Military and Veterans Program. As you may know, NRPA is a 
national non-profit 501(c)3 organization dedicated to advancing parks, 
recreation, and conservation efforts that enhance the quality of life 
for all people.
    More than 31,000 military personnel have been severely injured 
while serving our country during the conflicts in Iraq and Afghanistan 
and there are now more than 1.3 million disabled veterans in the United 
States. These individuals want to be physically active but to do that, 
they must have access to close-to-home spaces, places and opportunities 
for physical activity that are able to meet their needs and aid in 
their rehabilitation. The Paralympic program for injured Service 
Members that was authorized in 2008 is beginning to do just that in 
communities throughout our country. These partnerships and programs, 
which have been in development for several years, utilize sports and 
therapeutic recreation to rehabilitate those injured in combat or while 
serving our country. I have seen firsthand the difference Paralympic 
sports programs are making. I applaud this committee for recognizing 
the important role of therapeutic sports and recreation in 
rehabilitating those who were injured while serving our country and for 
your leadership in passing legislation that will ensure their improved 
quality of life, despite their physical limitations.
    Unfortunately, those returning from duty with debilitating injuries 
face a host of challenges as they try to integrate back into their 
community and family life. Research shows that our returning 
Servicemembers with injuries face isolation, depression, anxiety, poor 
physical health, early mortality, and the potential to develop 
secondary conditions, such as chronic disease, as a result of physical 
immobility.
    I faced similar adjustments as a teenager trying to cope with a 
disability. At the age of fifteen, the world as I had known it 
completely changed. In an instant, as a result of a diving accident, I 
went from being a typical teenager without a care in the world to a 
paraplegic who uses a wheelchair. I can relate to the challenges that 
our newly injured Servicemembers and disabled veterans face. Imagine 
being a strong, healthy, confident person-to one lying in a hospital 
bed, unable to move, uncertain of the future and thinking about all the 
things that you will never be able to do again. Add to that the 
emotions and adjustments that your family is experiencing. Fortunately 
for me there was a wheelchair athlete, Paralympic Gold Medalist, Rick 
Siccatto who came to my hospital room with a video on wheelchair 
Paralympic sports. I could not believe all the possibilities that were 
out there: basketball, tennis, track and field, and even swimming. Soon 
after getting out of the hospital I helped to start the first ever 
wheelchair basketball team at a local park and recreation facility in 
Charleston, South Carolina. Participation in adaptive sports changes 
the focus from the things that cannot be done--to the things that can 
be done--and helps those who once felt hopeless due to their disability 
realize the possibilities of what they can do are endless.
    As a public servant, I have seen many disabled Servicemembers and 
their families from the nearby Fort Jackson Army installation, directly 
benefit from programs provided by Richland County Parks and Recreation. 
Servicemembers who were previously sedentary are now out of the house, 
leading a physically active life again, participating in sports with 
the support of family members and able to re-connect with friends. I 
see these programs as a means to break down the barriers that wounded 
Servicemembers face and a key to reintegrating into the community. 
Through participation in community sports programs, such as those 
provided by public parks and recreation agencies they bravely adjust to 
their new and challenging life.
    These agencies realize the importance of helping wounded 
Servicemembers to become acclimated to their new lives and are seeking 
ways to play an active role in their rehabilitation. Take for example 
the wonderful work that is being done in Washington State. Here, Metro 
Tacoma Parks, NRPA, and U.S. Paralympics have organized a taskforce to 
focus on utilizing sports and recreation in the rehabilitation of 
injured Servicemembers. As a result of the taskforce created, Fort 
Lewis began a recreation and sports program for the 450 injured 
Servicemembers stationed there, a sports camp on post, and therapeutic 
recreation programming as well as family integration opportunities for 
injured Servicemembers outside the gates of the military installation. 
By creating and offering adaptive sports and recreation at the 
community level, those with limited abilities are afforded the 
opportunity to stay active and maintain a healthy lifestyle in a 
convenient and welcoming environment. This task force has regular 
communication on how to expand the use of local resources, events, and 
opportunities to benefit local wounded Servicemembers and their 
families.
    Another example comes from the Sacramento Department of Parks and 
Recreation who is working locally in California to introduce Paralympic 
sports to returning warriors. The impact of this work can be summed up 
by comments made from a soldier who recently attended an event:
    ``I wanted to let both of you know that the experience I had at the 
camp was one of the most memorable times I have ever had. I learned a 
lot about myself and about life. I think that the most important thing 
I learned however is that no matter what stumbles life may throw at 
you, if you have the determination, they will not stop you. I would 
also say that as a soldier in the United States Army if all of our 
soldiers could some how take the determination and positive attitude of 
the individuals I met--and bottle it into a formula we would have the 
most unstoppable force in the world.''
    The National Recreation and Park Association has the ability to 
reach into each local community and assist in the recovery and 
rehabilitation of injured Servicemembers and Veterans. NRPA provides a 
tremendous network around the country to provide opportunities for 
physical activity, in additional they have the ability to efficiency 
train park and recreation professionals and provide technical 
assistance to the field. These assets along with the U.S. Paralympics 
expertise prominence, and distinction creates a significant partnership 
that has the potential to impact the lives of injured Servicemembers, 
veterans and their family's around the country.
    In closing, I think we can all agree that serving our country can 
be hard at times, but coming home injured is even harder. These 
innovative partnerships help our servicemembers regain their quality of 
life while improving their mental and physical health as they face a 
challenging return and adjustment. Thank you for your leadership in 
passing legislation and vocal support among your congressional 
colleagues to help our men and women of the armed services confront the 
challenges they face.
    Thank you.

                                 <F-dash>

  Prepared Statement of Carlos Leon, Member and Paralympian, Iraq and 
                    Afghanistan Veterans of America

    Chairman Filner and Ranking Member Buyer, thank you for the 
opportunity to testify on behalf of Iraq and Afghanistan Veterans of 
America (IAVA). IAVA is the Nation's first and largest non-partisan, 
nonprofit organization representing veterans of the wars in Iraq and 
Afghanistan. Chairman Filner and Chairwoman Herseth Sandlin, I am 
especially grateful to both of you for the work you and your committee 
did last year to support the Military Paralympic Program.
    America's newest generation of heroes are surviving injuries 
unthinkable in previous conflicts and, as a result, facing serious 
challenges upon returning home. Thankfully, members of Congress have 
been forward thinking and supported and funded programs like the 
Military Paralympic Program that can give these heroes hope and health 
through athletic training and competition.
    I was 19 years old when I deployed to Iraq. After returning home 
from a successful tour I had a chance to relax a little while before my 
unit moved to Camp Pendleton. I was stationed in Kaneohe Bay, Hawaii 
where we took advantage of the beaches and weather while we were still 
there. On June 18, 2005 I was at the beach, a day that would change my 
life forever. I was the first to go in the water, while my friends 
remained on the shore. As I jogged slowly into the water I turned to 
them and told them to hurry up.
    Before I turned back, I dove forward and hit a coral rock head-on. 
My neck broke instantly and I was immediately left motionless in the 
water. I received a laceration across the top of my head that needed 15 
staples to close up.
    Soon thereafter, in the hospital, I got the news from the doctor: I 
was paralyzed from the neck down. I stayed in Hawaii until I was stable 
enough to fly and then chose to have therapy at the VA medical center 
in Miami, Florida, where I would be closest to my family.
    Early in my therapy, one of my phenomenal therapists came to my 
room and started to talk to me about sports. I did NOT think I could 
play sports again--I thought it was beyond my new life in a wheelchair. 
But learning that that might not be the case, early on in my injury, 
was key to my recovery. After learning about this opportunity, I signed 
up for a military sports camp in San Diego, California. The program was 
a week long and they showed us the different sports we could play in 
our chairs.
    It was more than a positive experience, it opened my eyes to a 
different world--one that I wanted to be a part of.
    I was told I needed to train in order to qualify for a competition 
early the next year. I couldn't wait to get started. When I got home, I 
was ready to start but I had absolutely no idea how to get started. The 
best I could do was just to make sure I was at least fit. So I began 
working out at the local gym. As the time went on, I got stronger and 
stronger. Not only did going to the Military Paralympic Program give me 
something to shoot for, it made my quality of life much better. Instead 
of being at home, bored, I was out and about living my life again.
    There are great benefits to the Military Paralympic Program. Health 
is especially important to a wheelchair user. If I gained weight it 
would be harder to push myself around. If I was always sick I'd be in 
and out of the hospital. Training increased my chances of being a 
Paralympian and improved my physical and mental health.
    After a year of training it was finally time to compete. And, 
unbelievably, I was named to the U.S. Track and Field team that summer. 
I traveled to Beijing and was proud to represent my country as one of 
the first Iraq vets to compete in the Paralympic Games. My story is now 
being included in the upcoming documentary ``Warrior Champions.''
    If it wasn't for the Military Paralympic Program I wouldn't be here 
today or have accomplished any of my proudest feats.
    The program saved my life, but there are still more things we can 
do to pave the way for newly injured vets. Not all injured veterans 
have access to the resources I did. Depending on where they live, they 
may not have the resources to go to the local gym or know who to turn 
to.
    After being invited to testify, I learned all that this committee 
has done to support the Military Paralympic Program. I am grateful that 
this committee was responsible for passing a law last year that created 
a VA grant specifically for this program. I was also encouraged to 
learn that the VA asked Congress to fund that grant program for $6.5 
million starting in 2010. This money will go a long way toward reaching 
out to disabled veterans and involving them in this great program. This 
money can also be used toward ``recruiting, supporting, [and] 
equipping,'' a new generation of paralympians.
    Last summer, I had a chance to be a coach at one of the military 
sports camps. I remember the parents of one veteran, who was recently 
paralyzed, came to me with many question about equipment and training. 
Yet I felt powerless that I didn't have very many answers. There was no 
good place for me to direct these parents and where they lived, they 
did not have access to gyms, let alone gyms that would understand the 
modifications needed to train a handicapped veteran. With this money we 
can build more centers for veterans to train and more resources to 
train them with.
    I was lucky--I found out about the Military Paralympic Program soon 
after my injury. I was able to start training quickly, before the 
physical and emotional strains set-in. Not all handicapped veterans are 
that lucky. I know this new VA grant program will make it easier to 
reach out to vets soon after their injury, introduce them to veterans 
like me, start their training, and give them hope.
    Thank you for all that you have done and will continue to do for 
injured veterans.
                                 <F-dash>
                Prepared Statement of Dinah F.B. Cohen,
         Director, Computer/Electronic Accommodations Program,
 Office of the Assistant Secretary of Defense for Health Affairs, U.S. 
                         Department of Defense

    Chairman Filner, Ranking Member Buyer and distinguished Members of 
the Committee, thank you for the opportunity to discuss the Department 
of Defense's (DoD's) program that provides assistive technology to 
wounded servicemembers. I am pleased to be here today.
Background
    The Computer/Electronic Accommodations Program (CAP), a program in 
the TRICARE Management Activity (TMA), under the direction of the 
Assistant Secretary of Defense for Health Affairs, was established in 
1990 as the centrally funded DoD program that provides assistive 
technology to allow DoD and Federal employees with disabilities to 
access electronic and information environment.
    Following the National Defense Authorization Act for Fiscal Year 
(FY) 2000, Congress granted CAP the authority to provide assistive 
technology, devices, and services to Federal agencies that have a 
partnership agreement with CAP. CAP currently has agreements with 65 
Federal agencies outside of DoD. CAP increases access to information 
and works to remove barriers to employment opportunities by eliminating 
the costs of assistive technology and accommodation solutions.
    Our mission is to ensure that people with disabilities and wounded 
servicemembers have equal access to the information environment and 
opportunities in the DoD and throughout the Federal Government. By 
fulfilling this mission of providing real solutions for real needs, CAP 
is helping to make the Federal Government the model employer for people 
with disabilities.
    Much of CAP's success lies in our ability to provide reasonable 
accommodations to employees quickly and easily, increasing employment 
and retention of employees with disabilities and wounded 
servicemembers. In FY 2008, CAP filled 10,356 requests for 
accommodations for the DoD and other Federal agencies. In FY 2008, CAP 
broke another milestone and filled 2,782 accommodations for DoD 
employees and 2,985 for non-DoD employees. Additionally, CAP provided 
4,589 accommodations for our wounded servicemembers.
Wounded Servicemember Initiative
    Many of our Soldiers, Sailors, Airmen and Marines are returning 
every day from deployments with significant injuries and disabilities. 
CAP works closely with medical providers, therapists, case managers and 
wounded servicemembers across the Nation to ensure they receive 
appropriate assistive technology for their needs. Accommodations are 
available for servicemembers with vision or hearing loss, dexterity 
impairments, including upper extremity amputees, and communication and 
cognitive difficulties.
    Once the appropriate assistive technology has been identified, CAP 
provides the solutions, free of charge, to support a servicemember's 
medical recovery and rehabilitation.
    The CAP Wounded Servicemember (WSM) Initiative provides the 
following services:

    <bullet>  Individualized needs assessments;
    <bullet>  Medical and support personnel training and in-services;
    <bullet>  Assistive technology and training during recovery and 
rehabilitation; and
    <bullet>  Accommodations for internships and/or permanent 
employment within the Federal Government.

    The ability to use assistive technology during the early phases of 
recovery can greatly impact rehabilitation outcomes and future 
employment opportunities. Further, wounded servicemembers may retain 
these devices upon separation from active service.
Accommodations for Wounded Servicemembers
    CAP actively supports wounded servicemembers during their recovery 
and rehabilitation. In FY 2008, CAP provided over 780 needs assessments 
and 4,589 accommodations to servicemembers and military treatment 
facilities throughout the Nation, including Walter Reed and Brooke Army 
Medical Centers. CAP also partnered with several organizations to 
support disabled veteran reemployment efforts and attended Hiring 
Heroes Career Fairs. In order to integrate assistive technology into 
the recovery process, CAP continues to partner with the Army Wounded 
Warrior Program and Marines for Life.
Department of Defense Instruction 6025.22
    The Department of Defense Instruction (DoDI) 6025.22: Assistive 
Technology (AT) for wounded servicemembers secures CAP's eligibility to 
provide AT to servicemembers. The ability to use AT during the early 
phases of recovery promotes positive rehabilitation outcomes and future 
employment opportunities. This Instruction also allows servicemembers 
to retain the equipment after separation from active duty, enabling 
them to pursue education and employment opportunities.
Support Through Training and Needs Assessments
    CAP provides needs assessments, assistive technology, and training 
to our Nation's wounded servicemembers throughout all phases of 
recovery and the transition to employment.
    CAP supports wounded servicemembers, working closely with medical 
providers, therapists, case managers, and military liaisons at military 
treatment facilities to increase awareness and availability of AT.
    Trainings can be conducted onsite, via Video Teleconference (VTC) 
or webcast. In-service trainings include the following objectives:

    <bullet>  Discuss how CAP provides needs assessments and AT to 
wounded servicemembers throughout the recovery and rehabilitation 
process.
    <bullet>  Review and demonstrate available AT for various disabling 
conditions.
    <bullet>  Identify methods to integrate AT into rehabilitative 
services and settings using best practice partnerships and training 
models as examples.

    Needs assessments are a critical step in the CAP accommodation 
process. Many servicemembers sustain multiple injuries and require an 
individualized needs assessment to identify the most appropriate AT 
solutions.
    In an effort to streamline this process and provide the most 
appropriate solutions, the needs assessment questionnaire is required 
as the first step of the CAP process. Additionally, medical 
documentation may be required for certain requests. It is recommended 
to disclose all functional limitations, disabling conditions, and the 
servicemember's current status (i.e., Medical Evaluation Board status, 
Continue on Active Duty plans) when completing the questionnaire in 
order to maximize potential outcomes.
    The CAP Office requires servicemembers and their families to 
coordinate the submission of the needs assessment questionnaire with 
their medical providers and/or therapists. Once coordinated with 
appropriate providers, either the servicemembers, family members, 
medical providers, therapists, or case managers can submit the 
questionnaires via the CAP Wounded Service Member Web site: 
www.tricare.mil/cap/wsm.
Equip with Assistive Technology Solutions
    CAP is available to provide training and in-services to medical 
personnel interested in learning more about needs assessments, AT, and 
the CAP process.
    CAP equips servicemembers with AT devices, accommodations and 
training. Many servicemembers sustain multiple injuries and require a 
combination of AT devices. Accommodations and training are available 
for the conditions described below.
Dexterity
    CAP provides devices to assist servicemembers who have sustained 
nerve damage, fractures, burns, and amputations to their upper 
extremities, including compact keyboards, alternative pointing devices, 
and voice recognition software with certified training.
Cognitive Difficulties, Including Traumatic Brain Injury (TBI)
    For TBI and closed-head injuries, CAP provides various cueing aids 
to Servicemembers who struggle with memory loss and other cognitive 
difficulties. Cueing aids can assist servicemembers in remembering 
appointments, medication schedules, and personal contact information. 
Technology options can vary in complexity, from simple cueing aids to 
powerful computer-based applications.
Vision Loss
    For servicemembers that experience vision issues due to ocular or 
neurological trauma, screen magnification software and/or hardware may 
reduce eye strain, blurry vision, and eye fatigue. Software enlarges 
fonts and changes color contrasts, enabling users to customize the 
application for specific needs. Portable magnification devices are also 
available. For complete vision loss, CAP provides scanners and screen 
reader software with certified training.
Hearing Loss
    CAP supports servicemembers who suffer from hearing loss, including 
fluctuating, progressive, or low-frequency hearing loss and tinnitus. 
Assistive listening devices can be used at an individual's discretion, 
allowing the user to adjust the level of amplification to their needs 
and reduce unwanted background noise. This technology can also be 
beneficial to individuals with TBI.
Empower through Employment
    It is CAP's mission to empower our Nation's heroes by providing 
them with the AT and accommodations they need to increase access and 
employment opportunities in the Federal Government.
    By having AT, our wounded servicemembers can return to school, find 
employment in the private sector or return as a Federal employee in DoD 
or any of our partner agencies.
    DoD greatly appreciates the Committee's strong support of America's 
veterans and the concern you have shown for their health and well 
being. We have made great progress in meeting the challenges on many 
fronts and with the Committee's continued help and support, we will do 
even more.
    Thank you for the opportunity to discuss the Department's program 
that provides assistive technology to wounded servicemembers. I look 
forward to your questions.

                                 <F-dash>

                 Prepared Statement of Charlie Huebner,
         Chief of Paralympics, United States Olympic Committee

    Good morning Chairman Filner and Ranking Member Buyer. My name is 
Charlie Huebner and I am the Chief of Paralympics for the United States 
Olympic Committee (USOC). I appreciate the opportunity to testify.
    First of all, I would like to thank the two of you for your 
leadership in making the VA Paralympic Adaptive Sports Program a 
reality in 2008, and for the amendment ensuring that your legislation 
is fully funded. I would also like to recognize Congressman Boozman, 
Congressman Kennedy, Congressman Langevin, Congressman Murtha and 
Congressman Salazar for their ongoing leadership and support. Because 
of your leadership, the Paralympic Military program has accomplished 
the following in 2009:

    <bullet>  Provided training to more than 1,200 community, military 
and veteran leaders;
    <bullet>  Provided ongoing programming to more than 6,000 injured 
military personnel and veterans;
    <bullet>  Distributed grant funding to more than 45 organizations;
    <bullet>  Created new Paralympic programs in 99 communities to 
support injured servicemembers and veterans. This included providing 
technical assistance and programs to support four military medical 
centers, 11 warrior transition units, and 14 VA facilities.

    Your amendment requesting the full funding of $10mm through the VA, 
in the Paralympic Veterans program, and your support of a $5mm request 
through the DoD, will create the continuum of care from active duty to 
veteran status and expedite the delivery of programs, allowing the USOC 
and its partner organizations in 2010 to:

    <bullet>  Expand programming and services to more than 150 
communities;
    <bullet>  Expand community technical assistance and support from 14 
to 30 VA facilities;
    <bullet>  Expand community warrior transition unit support from 11 
facilities to 20, and;
    <bullet>  Our goal is to establish programming that serves injured 
military personnel and veterans in 250 communities by 2012. Those 
communities are being identified by need.

    We can do this because of collaboration with partner organizations 
like the Department of Veteran Affairs and Department of Defense, and a 
well established infrastructure of community sport programs. More than 
60 organizations are members of the USOC with more than 50 million 
members in big cities and small towns throughout the United States.
    Our strategy is focused on a cost efficient model of training and 
collaboration with key partners such as Disabled Sports USA, the 
Paralyzed Veterans of America, National Recreation & Park Association, 
the American Legion and other USOC member organizations. Collectively, 
we are investing more than 40 million of private resources annually.
    This model eliminates duplication and allows for the USOC and its 
partner organizations to deliver technical assistance, equipment 
funding, and services to local communities.
    I'd like to share with you an example: Our hometown of Colorado 
Springs, Colorado, a community with significant military and veterans 
presence, lacked specific Paralympic programming prior to 2008. The 
USOC collaborated with Fort Carson, the Air Force Academy, and the City 
of Colorado Springs Parks and Recreation Department to develop 
Paralympic Sport Colorado Springs. Today, injured servicemembers and 
veterans no longer have to drive one-to-three hours just to participate 
in daily physical activity programs.
    The USOC's recommended utilization of funds would be to continue 
supporting technical assistance, creating enhanced awareness of program 
opportunities, and provide the majority of the resources via grants to 
organizations that can deliver the services at the local level. The 
USOC has already built a system and infrastructure to manage, monitor, 
and measure impact of grants provided to external organizations.
    The impact of these programs on injured servicemembers is best 
demonstrated through the words of a veteran, or in this case, a parent 
of a veteran, as shared with USOC Paralympic Military employee Chris 
Chandler, himself a veteran who lost his foot during combat in 
Afghanistan.

        ``Hello Chris. I am the mother of a Corporal in the Marines. I 
        originally met you at Balboa hospital when my son was about to 
        undergo his third surgery. You were so gracious to me at a time 
        when we were so full of despair and I appreciate that more than 
        you'll know. At the meeting, I talked to y'all about trying to 
        restore dignity and respect back to those hurt/injured Marines. 
        Mission accomplished for my son!
        One of the ways he has been able to restore his soul is through 
        the Paralympic sports. He had always been an athlete, and 
        realizing that he still could be was a truly enlightening 
        experience for my son. First off, he has lost 60-70 lbs due to 
        his injuries. He has finally gotten the pain in the ankles in 
        control and has even started riding a bike. He is working up to 
        riding on one of the long trips with the battalion. He is 
        playing water basketball and sit down volleyball. He recently 
        was able to attend a Paralympic sports camp. At that time he 
        discovered wheelchair racing. He loved it! He said, ``Mom you 
        can run/race with me!'' This brought tears to my eyes.''

    When most people are injured, a typical support network tends to 
focus on all that was lost. In many cases, it is something as simple as 
skiing with your friends or running with your mom, that allows both the 
injured servicemember and the support network to begin to think about 
the possibilities. Possibilities in sport. Possibilities in education. 
Possibilities in employment. And possibilities in life.
    This is especially critical when a servicemember or veteran leaves 
the military medical center or VA facility and returns home. Immediate 
connection to a local Paralympic program will assist with the 
transition for a veteran returning home and it will allow the veteran 
to return to the norm with friends and family, both physically and 
mentally.
    While a primary focus is the development of ongoing physical 
activity in communities, the USOC is also responsible for helping 
Americans fulfill their dream of representing their Country and sending 
them to the Olympic and Paralympic Games. This provides a great 
opportunity to create awareness about the outstanding work of the VA 
and DoD, the importance of physical activity for persons with physical 
disabilities as part of rehabilitation, and develops role models for 
all Americans. In 2008, 16 veterans represented America at the 
Paralympic Games, including three from the Iraq and Afghanistan 
campaigns. The following video will give you a glimpse of the impact 
your leadership and legislation had on a few of these heroes. Thank you 
for the opportunity to testify today.

                                 <F-dash>

  Prepared Statement of Diane Hartmann, Director, Office of National 
    Programs and Special Events, U.S. Department of Veterans Affairs

    Mr. Chairman and Members of the Committee, thank you for providing 
this opportunity to discuss with you the Department of Veterans 
Affairs' (VA) progress in implementing Title VII of Public Law 110-389 
that requires VA to establish the Office of National Veterans Sports 
Programs and Special Events. Providing our Nation's disabled Veterans 
with the opportunity for self-development while at the same time 
providing important therapeutic assistance is in the highest tradition 
of the Department's mission to ``care for him who shall have borne the 
battle.'' We are very pleased to have the U.S. Olympic Committee (USOC) 
join us in these efforts. Although there is much work left to be done 
in order to fully implement the provisions of the law signed last year, 
VA has already achieved a great deal, which I will share with you 
today.
Public Law 110-389, Implementation and Oversight
    Public Law 110-389 became law on October 10, 2008. Title VII of 
that law was enacted in the spirit of further enhancing the partnership 
between VA and the USOC. To that end, Title VII establishes within VA 
the Office of National Veterans Sports Programs and Special Events 
(ONVSPSE). One of the missions of this office is to facilitate VA's 
cooperation with the USOC, and its partners, to promote the 
participation of disabled Veterans and disabled members of the Armed 
Forces in its sponsored sporting events. Furthermore, Title VII 
authorizes VA to award grants to the USOC, through fiscal year 2013. 
One precondition to awarding these grants was the signing of a 
Memorandum of Understanding (MOU) between VA and the USOC. A MOU was 
signed by VA Deputy Secretary W. Scott Gould and Ms. Stephanie 
Streeter, Chief Executive Officer, USOC, on July 13, 2009.
    However, VA did not wait until July 13 to begin implementing the 
other provisions of Title VII. Funding to support Title VII is in the 
President's FY 2010 Budget. VA has already begun to draft regulations 
for the payment of allowances, and other policy guidelines necessary to 
achieve the full implementation of Title VII.
    VA is collaborating with the USOC to develop a certification 
process and has identified a payment system within the Veterans 
Benefits Administration that can be used to process and authorize the 
monthly assistance allowance paid to a Veteran with a disability 
invited by the U.S. Paralympics, a Division of the USOC, to compete 
for, or participate on, the U.S. Paralympic Team. We are now beginning 
to develop the grant approval and review process with U.S. Paralympics.
    Title VII establishes several reporting requirements for the USOC, 
and VA, regarding the use of funds authorized under the title. 
Specifically, it requires the USOC to report to VA how the grants 
provided to it are used, and permits VA to conduct oversight of the use 
of the grant funds. As no grants have as of yet been issued, no 
oversight has taken place.
Office of National Programs and Special Events (ONPSE)
    In 1999, VA established the Office of National Programs and Special 
Events (ONPSE) to oversee highly-successful and well-attended national 
rehabilitative programs for disabled Veterans: National Disabled 
Veterans Winter Sports Clinic, National Veterans Wheelchair Games, 
National Veterans Golden Age Games, and National Veterans Creative Arts 
Festival. VA currently has MOUs with partner organizations that co-
sponsor these programs: Disabled American Veterans, Paralyzed Veterans 
of America, Veterans Canteen Service, Help Hospitalized Veterans and 
The American Legion Auxiliary. Last year, ONPSE began the Summer Sports 
Clinic, which is specifically designed for recently injured Veterans 
with amputations, traumatic brain injuries, burn injuries, or post-
traumatic stress disorder. In September 2009, the National Veterans TEE 
(Training--Exposure--Experience) Tournament, which was previously a 
local event for visually impaired Veterans to develop new skills and 
strengthen their self esteem through adaptive golf, bowling, horseshoes 
and other activities, will be elevated to a national program under 
ONPSE and opened to Veterans with a wide range of disabilities. The 
goals of these events are to reach disabled Veterans during their 
recovery from traumatic injury or disease, introduce them to adaptive 
recreational activities, and challenge them with activities that give 
them a sense of accomplishment and enable them to redefine their 
capabilities. These events are open to all Veterans enrolled in the VA 
healthcare system. Each event encourages first-time participants. 
However, able bodied and disabled Veterans who meet the eligibility 
criteria can participate. Each year, thousands of Veterans who 
participate in VA's local programs have the opportunity to further 
their self-development through participation in these national events.
    In 2005, VA entered into a MOU with the USOC to increase interest 
in and access to Paralympic sports programs for Veterans with 
disabilities. Prior to Public Law 110-389's enactment, VA partnered 
with the USOC to expand the awareness of Paralympic sports and provide 
elite-level athletes with direct access to the USOC Paralympics 
program.
Office of National Veterans Sports Programs and Special Events 
        (ONVSPSE)
    On February 23, 2009, the Secretary of Veterans Affairs redefined 
the functions of ONPSE to include carrying out the new requirements of 
Sections 702 and 703 of P.L. 110-389, and he realigned the new Office 
of National Veterans Sports Programs and Special Events directly under 
the Office of the Secretary.
Impact of Public Law 110-389 on Existing Programs
    VA has worked diligently to implement the new law. The law states 
that to the extent appropriate and without impacting the services 
provided by the Veterans Health Administration (VHA), VHA may permit 
recreational therapists, physical therapists, and other medical staff 
to facilitate participation of Veterans in sporting events conducted 
under the auspices of the United States Paralympics, Inc., without the 
need for such personnel to take personal leave. VA medical staff is 
currently supporting Veterans participating in Paralympic-sanctioned 
events by accompanying Veterans to such events and assisting with the 
procurement of specially-adapted equipment for these Veterans. At this 
time we do not have an assessment of this impact on local medical 
services.
Conclusion
    VA has made great progress toward implementing the provisions of 
P.L. 110-389 and enhancing its partnership with the USOC. Although work 
remains before us, we have developed a spirit of cooperation and 
teamwork with the USOC, and I am confident that we are moving in the 
right direction. Thank you again for this opportunity to come before 
you. I will be happy to answer any questions that you may have.
                   MATERIAL SUBMITTED FOR THE RECORD

                                     Committee on Veterans' Affairs
                                                    Washington, DC.
                                                      July 30, 2009

Adrian M. Atizado
Assistant National Legislative Director
Disabled American Veterans
807 Maine Avenue, SW
Washington, DC 20024

    Dear Adrian:

    In reference to our Full Committee hearing entitled ``Meeting the 
Needs of Injured Veterans in the Military Paralympic Program'' on July 
29, 2009, I would appreciate it if you could answer the enclosed 
hearing questions by the close of business on September 11, 2009.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for materials for all Full 
Committee and Subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively and single-spaced. In 
addition, please restate the question in its entirety before the 
answer.
    Due to the delay in receiving mail, please provide your response to 
Debbie Smith by fax at 202-225-2034. If you have any questions, please 
call 202-225-9756.

            Sincerely,

                                                         BOB FILNER
                                                           Chairman

    JL:ds

                               __________
                      POST-HEARING SUBMISSION FOR
                           ADRIAN M. ATIZADO
                ASSISTANT NATIONAL LEGISLATIVE DIRECTOR
                                 OF THE
                       DISABLED AMERICAN VETERANS
         FROM THE HOUSE COMMITTEE ON VETERANS' AFFAIRS HEARING
                             JULY 29, 2009

    Question 1: In your testimony you mentioned that approximately 370 
participants from across the country participated in the most recent 
learn-to-ski clinic. How do these participants fund their way to and 
from these events?

    Answer: The veteran is responsible for purchasing their airfare and 
lodging to participate in the National Disabled Veterans Winter Sports 
Clinic (Clinic). Financial support for these items can come from their 
local VA facility that has established general post funds for this 
purpose. On occasion, a local Disabled American Veterans (DAV) Chapter 
or Department or other veterans service organization will sponsor the 
individual veteran. In some cases veteran participants choose to pay 
their own way.
    Transportation from the airport to the Clinic and back, meals, and 
appropriate sports equipment are provided by the event. Participants 
need only to bring clothes for layering, waterproof shoes or boots, 
gloves, hat, sunscreen, sunglasses, medication and personal 
identification.

    Question 2: How soon after a veteran is injured can they attend the 
Winter Sports Clinic?

    Answer: Veterans who wish to participate in the Clinic must submit 
an application, which requires a medical clearance that needs a 
physician's concurrence.

    Question 3: What are DAV's top concerns regarding seriously injured 
veterans and their rehabilitation?

    Answer: The DAV was founded on the principle that this Nation's 
first duty to veterans is the rehabilitation and welfare of its wartime 
disabled.

    Recreational therapy offers diverse rehabilitation benefits 
addressing the needs of disabled veterans with a range of disabling 
conditions. It improves physical, cognitive, social and emotional 
functioning. It helps develop the skills needed to enhance functional 
independence for community living and to promote a higher quality of 
life for the veteran and their family. Recreational therapy also 
prevents the decline in physical, cognitive, and psychosocial 
functioning, and results in a reduced need for health services, to 
include reduction in secondary disability and associated higher 
healthcare costs.
    Through the Clinic, veterans of all ages, all levels of ability and 
impairment, are able to reap the rehabilitation benefits of recreation 
therapy through adaptive sports and recreational activities, such as 
Alpine and Nordic skiing, rock climbing, and scuba diving. Other 
national sports and recreation programs, such as the National Veterans 
Wheelchair Games, National Veterans Golden Age Games, and the National 
Veterans Summer Sports Clinic, focus on the rehabilitation of many 
severely disabled veterans.
    They showcase the preventive and therapeutic values of sports, 
fitness, and recreation, which are key factors in VA's extensive 
rehabilitation programs. They are also extremely beneficial to 
veterans, helping many to overcome or mitigate the physical and 
emotional impact of severe disabilities.
    Accordingly, we believe the responsibility for rehabilitative 
special event programs should be transferred from the Office of Public 
Affairs to the Veterans Health Administration. In addition, we believe 
the primary purpose of rehabilitation through sports (promoting 
rehabilitation, fitness, and an enhanced quality of life) should be 
protected.
    We thank the Committee for its interest and actions taken to expand 
the quantity and quality of sports and recreation opportunities 
available to severely disabled veterans. However, we believe more needs 
to be done to identify and eliminate the barriers severely disabled 
veterans face, and must overcome, to successfully engage and receive 
the benefits from sports and recreation.

                                 <F-dash>


                                     Committee on Veterans' Affairs
                                                    Washington, DC.
                                                      July 30, 2009
Carl Blake
National Legislative Director
Paralyzed Veterans of America
801 18th Street, NW
Washington, DC 20006

    Dear Carl:

    In reference to our Full Committee hearing entitled ``Meeting the 
Needs of Injured Veterans in the Military Paralympic Program'' on July 
29, 2009, I would appreciate it if you could answer the enclosed 
hearing questions by the close of business on September 11, 2009.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for materials for all Full 
Committee and Subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively and single-spaced. In 
addition, please restate the question in its entirety before the 
answer.
    Due to the delay in receiving mail, please provide your response to 
Debbie Smith by fax at 202-225-2034. If you have any questions, please 
call 202-225-9756.

            Sincerely,

                                                         BOB FILNER
                                                           Chairman

    JL:ds

                               __________
                                      Paralyzed Veterans of America
                                                    Washington, DC.
                                                  September 1, 2009
Honorable Bob Filner
Chairman
House Committee on Veterans' Affairs
335 Cannon House Office Building
Washington, DC 20515

    Dear Chairman Filner:

    On behalf of Paralyzed Veterans of America (PVA), I would like to 
thank you for the opportunity to present our views on the Military 
Paralympic Program and how it is serving veterans and servicemembers 
with catastrophic injuries. We were also pleased to outline the many 
sports and recreation programs that PVA sponsors and how they meet the 
rehabilitation needs of our Members, veterans with spinal cord injury 
or dysfunction, and all other disabled veterans.
    We have included with our letter a response to each of the 
questions that you presented following the hearing on July 29, 2009. 
Thank you very much.

            Sincerely,

                                                         Carl Blake
                                      National Legislative Director

                               __________
    Question 1: What are the biggest barriers to participation in a 
sports therapy program?

    Answer: It is critically important to remove barriers to 
participation in sports therapy programs. With this in mind, we would 
like to make a few recommendations. These ideas are at least partially 
based on our observations and experiences with severely injured active 
duty servicemembers at Walter Reed Army Medical Center. In order to 
further facilitate seamless transition, newly injured veterans should 
be provided timely access to education and training regarding sports 
and recreation opportunities. Furthermore, the Department of Veterans 
Affairs (VA) and the Department of Defense (DoD) should facilitate 
outreach efforts of legitimate organizations promoting sports and 
recreation opportunities by improving their access to newly injured 
veterans.
    Interestingly, PVA found in a sports and recreation survey that we 
conducted in 2002 that employment, whether full-time or part-time, is a 
barrier to sports and recreation activities due to a lack of time to 
participate. Furthermore, inadequate training, lack of local programs, 
high equipment and licensing fees, and a shortage of accessible local 
facilities are critical barriers to participation.
    We also believe that the VA, in coordination with DoD, the 
veterans' service organizations, and possibly the United States Olympic 
Committee (USOC), should develop and implement a broad-based, 
comprehensive program that appeals to all veterans, especially our 
newly injured veterans who are more inclined to participate in non-
traditional activities. Furthermore, the VA should develop and 
implement a standardized curriculum for recreation therapy to support 
VA national programs and special events. We do not believe that VA 
recreation therapy programs are consistent across the board. This 
emphasis will provide the training and awareness on the local levels to 
support these programs and maximize their benefits.

    Question 2: What percent of injured veterans participate in 
adaptive sports therapy?
    Answer: The simple answer to this question is that we do not know. 
We are not aware of any particular statistical data that tracks this 
information, nor do we believe that it would be easily obtainable. 
However, we do know that in FY 2009, approximately 600 disabled and 
severely disabled veterans will participate in PVA Sports and 
Recreation programs. Of that number, approximately 95 percent are PVA 
Members.

    Question 3: What are PVA's top concerns regarding seriously injured 
veterans and their rehabilitation?

    Answer: First and foremost, we remain concerned that newly injured 
veterans are not receiving comprehensive information in a timely manner 
regarding sports and recreation opportunities during their 
rehabilitation. Without this assistance, many severely injured veterans 
run the risk of falling through the cracks.
    Moreover, VA should develop and implement a standardized curriculum 
for recreation therapy to support VA national programs and special 
events. Currently, we do not believe that VA recreation therapy 
programs are consistent across the board. By focusing on 
standardization, the VA will be able to better provide the training and 
awareness at the local level to support these programs and maximize 
their benefits.
    As we mentioned previously, the VA should also coordinate with the 
Department of Defense (DoD), veterans' service organizations, and the 
USOC-Paralympics to develop and implement a broad-based, comprehensive 
program that appeals to all veterans, especially our newly injured 
veterans who are more inclined to participate in non-traditional 
activities. VA and DoD should facilitate outreach efforts of legitimate 
organizations promoting sports and recreation opportunities by 
improving their access to newly injured veterans. Without this 
coordination, grant moneys appropriated by the Military Paralympic 
Program may be awarded to organizations that are unable to provide, or 
are ill-equipped to administer, these important rehabilitative 
programs.

                                 <F-dash>


                                     Committee on Veterans' Affairs
                                                    Washington, DC.
                                                      July 30, 2009
Julia Ray, Manager
Wounded Warrior Disabled Sports Project
Disabled Sports USA
451 Hungerford Dr., Suite 100
Rockville, MD 20850

    Dear Julia:

    In reference to our Full Committee hearing entitled ``Meeting the 
Needs of Injured Veterans in the Military Paralympic Program'' on July 
29, 2009, I would appreciate it if you could answer the enclosed 
hearing questions by the close of business on September 11, 2009.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for materials for all Full 
Committee and Subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively and single-spaced. In 
addition, please restate the question in its entirety before the 
answer.
    Due to the delay in receiving mail, please provide your response to 
Debbie Smith by fax at 202-225-2034. If you have any questions, please 
call 202-225-9756.

            Sincerely,

                                                         BOB FILNER
                                                           Chairman
    JL:ds

                               __________

                     Committee on Veterans' Affairs
                     U.S. House of Representatives
                  Post-Hearing Questions for Julia Ray
            Manager, Wounded Warrior Disabled Sports Project
                       Disabled Sports USA, Inc.
                     From the Honorable Bob Filner
                             July 29, 2009
                 Meeting the Needs of Injured Veterans
                   in the Military Paralympic Program

    Question 1: In your testimony, you say that Disabled Sports USA 
encourages families to participate, what is the average cost for a 
family Member to participate?

    Response:  The cost depends on the length and type of sport 
program. For example, a 7 day, ski/snowboard program will cost over 
$1200 per person. A 2 hour, local golf clinic costs approximately $30 
per person.

    Question 1(a): Who pays for the family member?

    Response:  The Wounded Warrior Disabled Sports Project. The wounded 
warrior and family member participate free of charge.

    Question 2: In your testimony you state that you provide for all 
the expenses of participation for a veteran. On average how much does 
it cost to fund all these expenses per veteran?

    Response:  As with a family member it depends on the length and 
type of sport program as we offer a range of sports and clinics. At all 
programs, the Wounded Warrior Disabled Sports Project supplies all 
adaptive equipment, accessible facilities, trained instructors, 
lodging, travel expenses, meals and any other required expenses such as 
lift tickets. A 7 day ski program can cost more than $1200 per person.

    Question 3: How many employees do you have and what type of 
certifications do they need to provide this special therapy?

    Response:  Disabled Sports USA (DS/USA) has 11 employees at their 
National Headquarters located in Rockville, MD. DS/USA partners with 
its nationwide network of 100 chapters to provide year round services 
to the wounded warriors. Each chapter employs their own staff. 
Qualifications vary but commonly include Recreation Therapists (CTR/L); 
Sports Program Managers (Sports Management) and other Outdoor 
Leadership Specialists. Instructors/Coaches used must be trained and 
certified by the appropriate sports governing body and have training, 
certification and/or experience in teaching people with a disability. 
This ensures safe and effective instruction for the wounded warrior.

    Question 4: You state that your organization is experiencing an 
ever increasing demand for services by disabled veterans. What are the 
top three services being requested by veterans?

    Response:  First, because of the severity of the injuries with 
resulting multiple injuries or ``Poly Trauma'', the length of 
rehabilitation for individual wounded warriors requires longer 
rehabilitation and therefore more sports activities and events.

    In addition, the wounded warriors are indicating higher interest in 
the following programs:

    <bullet>  Endurance sports, i.e. marathons, triathlons, other 
outdoor adventure sports
    <bullet>  Skiing and Snowboarding
    <bullet>  Water Sports, especially SCUBA diving, water skiing and 
kayaking

    Question 5: What kind of partnerships does Disabled Sports USA have 
with other similar organizations?

    Response:  Disabled Sports USA primarily partners with 
approximately 40 of its 100 chapter members to offer programs to the 
wounded warriors. These chapters are all well established adaptive 
sports programs and we are confident they will offer a positive first 
time sports experience for the warriors. Others also include:

    <bullet>  Wounded Warrior Project/SoldierRide
    <bullet>  100 member DS/USA Chapter organizations (i.e. Challenge 
Aspen, Sun Valley Adaptive Sports, Soldiers Undertaking Disabled SCUBA, 
Team River Runner)
    <bullet>  PGA of America
    <bullet>  Tee It Up for the Troops
    <bullet>  Non-Commissioned Officers Association
    <bullet>  British Limbless Ex-Servicemembers Association
    <bullet>  Professional Ski Instructors of America/American 
Association of Snowboard Instructors
    <bullet>  Diving Equipment and Marketing Association
    <bullet>  Challenged Athletes Foundation
    <bullet>  American Canoe Association
    <bullet>  USA Water Ski
    <bullet>  National Recreation and Parks Association of Maryland
    <bullet>  Trijicon

                                 <F-dash>


                                     Committee on Veterans' Affairs
                                                    Washington, DC.
                                                      July 30, 2009

Barbara Tulipane
Chief Executive Officer
National Recreation and Park Association
22377 Belmont Ridge Rd.
Ashburn, VA 20148

    Dear Barbara:

    In reference to our Full Committee hearing entitled ``Meeting the 
Needs of Injured Veterans in the Military Paralympic Program'' on July 
29, 2009, I would appreciate it if you could answer the enclosed 
hearing questions by the close of business on September 11, 2009.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for materials for all Full 
Committee and Subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively and single-spaced. In 
addition, please restate the question in its entirety before the 
answer.
    Due to the delay in receiving mail, please provide your response to 
Debbie Smith by faxing your responses to Debbie at 202-225-2034. If you 
have any questions, please call 202-225-9756.

            Sincerely,

                                                         BOB FILNER
                                                           Chairman
                               __________
                           National Recreation and Park Association
                                                    Washington, DC.
                                                 September 10, 2009

The Honorable Bob Filner
U.S. House of Representatives
Committee on Veterans' Affairs
35 Cannon House Office Building
Washington, DC 20515

    Dear Representative Filner:

    First off, thank you for the opportunity for the National 
Recreation and Park Association (NRPA) to provide answers the hearing 
questions posed from the Committee hearing on ``Meeting the Needs of 
Injured Veterans in the Military Paralympic Program''. As you know, 
David Stringer, Human Resources Director for the Richland County, South 
Carolina Parks and Recreation Commission, testified on behalf of NRPA 
at the July 29, 2009 hearing regarding meeting the needs of injured 
veterans in the Military Paralympic Program. We thank you for this 
opportunity and please find below NRPA's responses to the post-hearing 
questions.

    Question 1: What is the key thing that we should be doing to help 
veterans stay healthy and active in their communities?

    Response:  An active lifestyle is important for the mental and 
physical health of all Americans and has become even more important to 
our Nation as we face an obesity epidemic that is claiming the lives of 
millions and causing healthcare costs to spin out of control. The 
veterans and servicemembers, who are now physically disabled, are at an 
increased risk for contracting various chronic diseases and becoming 
obese. In order for these individuals to stay active and maintain a 
healthy lifestyle, they must have convenient, close-to-home access to 
the places, spaces and programs that encourage and help them to become 
physically active.

    Every community in the United States has a park and recreation 
agency that can provide these very resources to veterans and active 
duty servicemembers and, in turn, help ensure they are living a 
healthy, physically active lifestyle. However, Federal funding for park 
and recreation has significantly decreased over the past 9 years 
thereby limiting the ability of communities to meet the personal and 
therapeutic recreational needs of veterans and active duty 
servicemembers who have physical disabilities and now have different 
needs.
    In order for public parks to meet the needs of our veterans and 
active duty servicemembers, especially those with physical 
disabilities, we must ensure communities throughout this country have 
the recreational infrastructure, professional staff, and innovative 
programming to support and enhance the rehabilitation of the many 
veterans and active duty servicemembers who have bravely served our 
country. Currently the National Recreation and Park Association is 
working to do just this in partnership with the U.S. Olympic 
Committee's Paralympics Division, but the need significantly outweighs 
the available resources (funding, staffing, etc.) necessary to 
accomplish this goal. NRPA strongly encourages Congress to provide $10 
million to the Paralympic Adaptive Sports Program and $5 million to the 
Paralympic Military Program (funded through the Department of Defense) 
which will ensure our veterans and servicemembers have the recreational 
resources they need to stay healthy available to them in the 
communities where they live and serve.

    Question 2: Does your organization have an active partnership with 
VA or DoD?

    Response:  Through our partnership with the U.S. Olympic 
Committee's Paralympics Division NRPA has had the opportunity to work 
with representatives from both the Department of Veterans Affairs (VA) 
and the Department of Defense (DoD). We are actively exploring 
opportunities to expand our working relationship with both of these 
Departments as we believe this will greatly assist our efforts to 
ensure veterans and injured servicemembers have the resources and 
outlets to live a physically active life.

    Question 3: The NRPA and U.S. Olympic Committee's Paralympics 
Military Program task force expanded the use of local resources and 
events to benefit local communities. How exactly were local resources 
expanded to benefit local servicemembers and their families?

    Response:  The combined work of NRPA and U.S. Olympic Committee's 
Paralympics Division on the Military Program task force has resulted in 
greater utilization of local resources to increase physical activity of 
veterans and injured servicemembers.

    The task force is systematically working with Warrior Transition 
Units around the country and has been working with the WTU at Fort 
Bragg, Ft Lewis and other select installations. A few examples of the 
work being done in local communities are below.
    A dynamic partnership has formed between Fayetteville-Cumberland 
Parks and Recreation and Fort Bragg, MWR-Sports, Fitness and Aquatics 
to work with the wounded warriors in the Fayetteville area. Masaryk 
Park in Fayetteville has tennis courts, trails, fishing and presented a 
prime opportunity to engage injured servicemembers in physical 
activity. During the first week of a tennis program that Fayetteville-
Cumberland Parks and Recreation created to serve the wounded warriors, 
a game ensued between the warriors and some local senior citizens. The 
seniors were actually WWII Army Veterans and were highly encouraged to 
see how the community and the partnership with Fort Bragg is working to 
take care of their own. Additionally the park and recreation staff 
member who is leading this program is a military veteran and is honored 
to be a part of the partnership with Fort Bragg and witnessing the 
impact on the warriors involved in the program.
    Another example is the innovative work that is being done in 
Washington State. Here, Metro Tacoma Parks, NRPA, and U.S. Olympic 
Committee's Paralympics Division have organized a taskforce to focus on 
utilizing sports and recreation in the rehabilitation of injured 
servicemembers. As a result of the taskforce created, Fort Lewis began 
a recreation and sports program for the 450 injured servicemembers 
stationed there, a sports camp on post and therapeutic recreation 
programming and family integration opportunities for injured 
servicemembers and families outside the gates of the military 
installation. By creating and offering adaptive sports and recreation 
at the community level, those with varied abilities are afforded the 
opportunity to stay active and maintain a healthy lifestyle in a 
convenient and welcoming environment in the community they call home. 
This taskforce has regular communication on how to expand the use of 
local resources, events, and opportunities to benefit local wounded 
servicemembers and their families.
    Further, NRPA has also been working with Fort Lewis on a Remote 
Care Program for wounded warriors. Local park and recreation agencies 
have been assisting in developing physical training plans that meet the 
requirements set forth by the medical staff at Fort Lewis. These plans 
connect soldiers to their hometown public parks and recreation agencies 
thereby allowing them to return home for rehabilitation and recovery. 
The agencies work directly with the base and the soldier to develop a 
plan to ensure their rehabilitation and recreational needs are met.
    A final example comes from the Sacramento Department of Parks and 
Recreation which is working locally in California to introduce 
Paralympic sports to returning warriors. The impact of this work can be 
summed up by comments made from a soldier who recently attended an 
event:
    ``I wanted to let both of you know that the experience I had at the 
camp was one of the most memorable time I have ever had. I learned a 
lot about myself and about life. I think that the most important thing 
I learned however is that no matter what stumbles life may throw at 
you, if you have the determination, they will not stop you. In fact, 
those stumbles may make some of the things you desire to a bit more 
difficult, but with the right attitude more difficult just means a 
challenge and most people love a good challenge.''
    In concert with public park and recreation assets and the U.S. 
Olympic Committee's Paralympics Division's expertise and prominence, 
and distinction creates a unique and particularly beneficial 
partnership that has the potential to impact the lives of injured 
servicemembers, veterans and their families around the country.
    NRPA thanks the Committee for the opportunity to provide testimony 
and information on the many ways in which public park and recreation 
agencies are working to rehabilitate wounded veterans and 
servicemembers. Should you require additional information, please feel 
free to call me or Stacey Pine in our Public Policy office at 202-887-
0290 or <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="b7c4c7ded9d2f7d9c5c7d699d8c5d099">[email&#160;protected]</a>

            Sincerely,

                                              Barbara Tulipane, CAE
                                            Chief Executive Officer

                                 <F-dash>


                                     Committee on Veterans' Affairs
                                                    Washington, DC.
                                                      July 30, 2009

Paul Rieckhoff
Executive Director and Founder
Iraq and Afghanistan Veterans of America
770 Broadway, 2nd Floor
New York, NY 10003

    Dear Paul:

    In reference to our Full Committee hearing entitled ``Meeting the 
Needs of Injured Veterans in the Military Paralympic Program'' on July 
29, 2009, I would appreciate it if you could answer the enclosed 
hearing questions by the close of business on September 11, 2009.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for materials for all Full 
Committee and Subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively and single-spaced. In 
addition, please restate the question in its entirety before the 
answer.
    Due to the delay in receiving mail, please provide your response to 
Debbie Smith by faxing your responses to Debbie at 202-225-2034. If you 
have any questions, please call 202-225-9756.

            Sincerely,

                                                         BOB FILNER
                                                           Chairman
    JL:ds
                               __________
               U.S. House Committee on Veterans' Affairs,
  ``Meeting the Needs of Injured Veterans in the Military Paralympic 
                               Program''
       Followup Questions, Carlos Leon, IAVA Member & Paralympian

    Question 1: What percentage of injured veterans from the Iraq and 
Afghanistan War have participated in adaptive sports therapy?

    Response:  An estimated 30,000 OEF/OIF servicemembers have been 
injured since 2003. The USOC and its partner organizations are 
currently providing physical activity programming at the community 
level to more than 6,000 injured servicemembers and veterans.

    Question 2: Currently what outreach is being done by VA and other 
similar organizations to inform seriously injured veterans from the 
Iraq and Afghanistan War about these adaptive sports programs?

    Response:  In my experience, I was informed of these programs 
within days of starting my physical therapy at the VA. Shortly after 
learning about these programs I was signed up for my first military 
sport camp. Once I was brought into the USOC community they then 
informed me of more programs in my community.

    Question 3: When is the best time to inform an injured member about 
these adaptive sports therapy programs?

    Response:  I believe the sooner the better. I can't stress enough 
how important it is for the servicemembers not to go into depression. 
It is vital that they're informed of these programs in the beginning of 
their therapy. This not only gives the veteran something to look 
forward to while in therapy, but more importantly it does not let 
emotional strain set in. That is key to a health recovery.

    Question 4: With the new appropriated funds, how do you think the 
Paralympics Military Program should use the resources to help injured 
veterans or servicemembers participate in sports programs?

    Response:  I would recommend utilizing the existing system 
developed by the U.S. Olympic Committee to distribute funds to 
Paralympic, veteran and USOC member organizations at the community 
level. By providing the funds to the USOC, they can utilize the 
existing grant system that reviews applications, distributes funds and 
evaluates impact for reporting back to the DoD, VA and Congress.

                                 <F-dash>


                                     Committee on Veterans' Affairs
                                                    Washington, DC.
                                                      July 30, 2009

Hon. Robert M. Gates,
Secretary
U.S. Department of Defense
The Pentagon
Washington, DC 20301-1155

    Dear Mr. Secretary:

    In reference to our Full Committee hearing entitled ``Meeting the 
Needs of Injured Veterans in the Military Paralympic Program'' on July 
29, 2009, I would appreciate it if you could answer the enclosed 
hearing questions by the close of business on September 11, 2009.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for materials for all Full 
Committee and Subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively and single-spaced. In 
addition, please restate the question in its entirety before the 
answer.
    Due to the delay in receiving mail, please provide your response to 
Debbie Smith by fax at 202-225-2034. If you have any questions, please 
call 202-225-9756.

            Sincerely,

                                                         BOB FILNER
                                                           Chairman
                               __________
                      Hearing Date: July 29, 2009
                             Committee: HVA
                       Member: Congressman Filner
                           Witness: Ms. Cohen

    Question 1: Does DoD have an active partnership with VA regarding 
assistive technology?

    Question 1(a): If so, how are both agencies working together?

    Answer: The Computer/Electronic Accommodations Program (CAP) was 
established in 1990 as the centrally funded reasonable accommodations 
program for employees with disabilities in the Department of Defense 
(DoD). Following the National Defense Authorization Act (NDAA) of FY 
2000, Congress granted CAP the authority to provide assistive 
technology, devices, and services free of charge to Federal agencies 
that have a partnership agreement with CAP. The TRICARE Management 
Activity, a field activity in the Office of the Assistant Secretary of 
Defense (Health Affairs), serves as the executive agent for CAP.
    On February 27, 2002, CAP established a partnership agreement with 
the Department of Veterans Affairs (VA) to provide assistive technology 
to VA employees with disabilities as outlined in the NDAA. Since the 
inception of this VA partnership, CAP has filled over 3,200 requests 
for assistive technology and accommodations.
    The assistive technology is provided to VA employees as a work-site 
accommodation. Equipment remains with the VA as government property. 
This supports VA's compliance with the Rehabilitation Act of 1973, as 
amended, to ``recruit, place, accommodate and retain employees with 
disabilities.''
    VA employees may submit their requests for accommodations to CAP 
via the web at www.tricare.mil/cap. CAP provides the accommodation and 
training at no cost to the VA or the employee. The VA provides the 
accommodations outside of CAP scope per the NDAA.
    In the area of accommodations for wounded servicemembers, CAP 
provides accommodations to them during their recovery and 
rehabilitation in the military treatment facilities. Once a 
servicemember separates from active duty, he/she will receive any 
additional assistive technology from the VA. CAP and the VA work 
closely to ensure they are providing similar assistive technology that 
makes it easy for the servicemember to receive upgrades and continue to 
use the technology provided by CAP.

    Question 2: Has the assistive technology that DoD provides 
permitted any servicemember to return to active duty?

    Answer: Yes. Since the inception of the Computer/Electronic 
Accommodations Program (CAP) to provide assistive technology to wounded 
servicemembers, we have filled over 12,300 requests for accommodations.

    We have filled over 941 accommodations for servicemembers who have 
remained on Active Duty. Examples of the assistive technology 
accommodations include:

    <bullet>  Alternative keyboards, input devices, and voice 
recognition software for servicemembers with dexterity impairments;
    <bullet>  Screen readers and training, magnification software, 
closed-circuit televisions (CCTVs) for servicemembers with vision loss;
    <bullet>  Assistive listening devices (ALDs) and personal 
amplification devices for servicemembers with hearing loss; and
    <bullet>  Cueing and memory aids, literacy software, screen 
readers, ALDs, augmentative communication devices for servicemembers 
with cognitive impairments, including Traumatic Brain Injuries (TBI).

    We have also provided 104 accommodations to wounded servicemembers 
who have separated and returned to the Federal Governmant as civilian 
employees. One of the many servicemembers that have remained on active 
duty is Capt. Scott Smiley. While deployed in Mosul, Iraq, he was hit 
by shrapnel in the face from an improvised explosive device, causing 
brain injury and permanent blindness. He was introduced to assistive 
technology by CAP during his recovery at Walter Reed Army Medical 
Center. He has completed his MBA and is now an instructor at U.S. 
Military Academy at West Point and continues to use the assistive 
technology from CAP. His full story can be found at http://
militarytimes.com/smoy/army/army-
winner-2007.php. Employees with disabilities and wounded servicemembers 
can see and test the various assistive technologies at the CAP 
Technology Evaluation Center (CAPTEC) at the Pentagon. CAPTEC provides 
needs assessments and demonstrations of the latest assistive 
technologies.

    Question 3: Can you give us the number of veterans who have needed 
assistive technology in the past 3 years?

    Answer: We have filled over 11,300 accommodations for wounded 
servicemembers during their recovery and rehabilitation at military 
treatment facilities during the past 3 years.
    As they separate from Active Duty, the Department of Veterans 
Affairs (VA) tracks if any have requested additional or new assistive 
technology. We are aware of 30 disabled veterans who have returned to 
Federal employment and requested technology from the Computer/
Electronic Accommodations Program (CAP) for their work location.
    CAP has also been involved in 12 VA training/conferences over the 
past 3 years, including a session at the Veterans Benefits 
Administration Leadership Conference. Over 600 VA case managers, 
rehabilitation specialists, and medical professionals have attended the 
trainings and received information on the CAP process and assistive 
technology.
    Additional information on CAP can be found at www.tricare.mil/cap.

    Question 4: How many adaptive sports therapy programs does DoD have 
at this time?

    Answer: Sports and recreation therapy programs are available 
throughout DoD within the medical treatment facilities and on DoD 
installations that have wounded warriors assigned. The ability of 
injured servicemembers to engage in recreational activities is a very 
important component of rehabilitation and reintegration. Our 
installation MWR specialists are successfully working with medical 
personnel, wounded warrior units, community parks and recreation, and 
non-profits to integrate sports and recreation as part of the healing 
process. The number and type of activities vary by location based on 
types of injuries, identified needs and interests, staff and volunteer 
expertise, and accessible facilities. Activities may include swimming, 
kayaking, skiing, hiking, rock climbing, rafting, fishing, horseback 
riding, biking, and team sports such as basketball and volleyball.
    The Department has contracted with Penn State University to provide 
12 joint Inclusive Recreation Training Courses over 3 years. The 4 day 
course trains 30 installation recreation specialists to successfully 
integrate wounded warriors and family members into existing MWR 
programs. Feedback from the first year (four courses) has been very 
positive.
    Thanks to support from Congress, the United States Olympic 
Committee's Paralympic Military Program has been hugely successful in 
enhancing the rehabilitation, readiness, and quality of life of 
severely injured servicemembers and veterans. The U.S. Paralympics has 
provided training to develop adaptive sports and fitness programs at 
many military treatment facilities, VA Polytrauma hospitals, warrior 
transition units, and wounded warrior regiments. The program engages 
Paralympic mentors in all aspects of program development and 
implementation. Another key component are the U.S. Paralympic staff who 
help connect injured military personnel to sports and fitness 
programming in their local communities.
    Additionally, there are many other civilian non-profit 
organizations providing recreation programs for wounded warriors and 
their families.

    Question 5: Does DoD participate in any of the national adaptive 
sports events sponsored by VA?

    Answer: Active-duty members have participated in two events: the 
winter sports clinic and the wheelchair games. Active Duty members can 
participate if they meet the eligibility requirements and the Secretary 
signs a waiver authorizing their participation in that event. Travel 
related expenses have been paid by donations, as VA is not authorized 
to use appropriated funds.

                                 <F-dash>
                                     Committee on Veterans' Affairs
                                                    Washington, DC.
                                                      July 30, 2009

Charlie Huebner
U.S. Olympic Committee Chief
U.S. Paralympics Division
1101 17th Street, NW
Washington, DC 20036

    Dear Charlie:

    In reference to our Full Committee hearing entitled ``Meeting the 
Needs of Injured Veterans in the Military Paralympic Program'' on July 
29, 2009, I would appreciate it if you could answer the enclosed 
hearing questions by the close of business on September 11, 2009.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for materials for all Full 
Committee and Subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively and single-spaced. In 
addition, please restate the question in its entirety before the 
answer.
    Due to the delay in receiving mail, please provide your response to 
Debbie Smith by fax at 202-225-2034. If you have any questions, please 
call 202-225-9756.

            Sincerely,

                                                         BOB FILNER
                                                           Chairman

    JL:ds

                               __________
                     Committee on Veterans' Affairs
                     U.S. House of Representatives
               Post-Hearing Questions for Charlie Huebner
                          Chief of Paralympics
                         U.S. Olympic Committee
                     From the Honorable Bob Filner
                             July 29, 2009
   Meeting the Needs of Injured Veterans in the Military Paralympic 
                                Program

    Question 1: During the March 13, 2008, hearing on U.S. Paralympics 
Military Program, in your testimony you stated that the USOC goal was 
to establish new Paralympics-based programs in 75 communities by the 
end of 2008. Can you provide us an update on this goal?

    USOC Response:  Please see the attached list (Attachment A) of USOC 
Paralympic and Veteran program locations in addition to a listing 
(Attachment B) of the 99 current community-based programs (Paralympic 
Sport Clubs). As of July 29, 2009, the USOC has created Paralympic 
community-based programs in 99 U.S. communities.

    Question 2: In your testimony you refer to a collective $40 million 
in private resources invested annually. I applaud your tenacity in 
finding these resources. Can you give us a sense of how much an event 
like the National Veterans Wheelchair Games costs to plan and execute?

    USOC Response:  Our primary focus with the Paralympic Military and 
Veterans Program is to provide daily physical activity programming at 
the community level for injured servicemembers or veterans that return 
home. The National Veterans Games is a week-long event that provides 
competition and introduction to sport at a national level. U.S. 
Paralympics is not involved in the planning of the Veterans Games. 
Diane Hartman of the VA would be able to give you an accurate figure of 
the cost to host the Games. The Veterans Games is an important aspect 
of the rehab process, but not our focus. The focus for U.S. Paralympics 
is to implement ongoing sport programs that veterans and injured 
servicemembers can participate on a daily basis in their local 
community.

    Question 3: What changes has the USOC implemented since 2005, when 
USOC and VA signed a memorandum of understanding, to ensure lessons 
learned are implemented in future events?

    USOC Response:  The memorandum of understanding signed in 2005, 
created the avenue for the USOC and VA to work together. We have signed 
a new in MOU in June 2009 that focuses on the programming relating to 
the 2008 legislation. Our primary focus is to work with DoD and VA 
facilities at the community level to provide physical activity 
training, resources, Paralympic mentors and equipment for ongoing 
programming. This is done in a flexible manner based on the need and 
wishes of the local facility. Included in the list of program locations 
as referenced in response #1 is a list of communities where we are 
currently working on developing and establishing ongoing sport programs 
with VA facilities. One success story of our VA partnerships involves 
our relationship with the VA Hospital in Tampa FL. We have worked 
closely with leadership at the hospital to implement a variety of 
ongoing sport programs that are regularly scheduled and accessible to 
both in and out patients. In fact, the Tampa VA just had one of their 
sport program athletes named to the National Adaptive Rowing Team and 
will compete in the 2009 World Rowing Championships. This athletes' 
success is due in part to the ongoing sport training he continues to 
receive through the VA. The Tampa VA also has a working relationship 
with the local community-based sport program, Paralympic Sport Club 
Tampa Bay. The local Sport Club assists the VA programs by providing 
sport facilities, necessary adaptive equipment and coaching.

    Question 4: What is your vision on how to spend the appropriated 10 
million?

    USOC Response: Our primary recommendation for funds would be to 
provide program grants to Veteran, Paralympic, and Community-Based 
programs to implement ongoing physical activity programs at the 
community level. The USOC already has an infrastructure in place to 
implement a grant program (see attachment C). A small portion of the 
funds, would be to expand infrastructure to support ongoing training 
and technical assistance to develop community programs in cities that 
have needs. We would also expand the education and awareness materials 
available to DoD and VA staff, injured military personnel, veterans and 
their family member to make them aware of programs in their local 
communities.

    Question 5: You have provided grant funding to 45 organizations. 
Who are these organizations, what do they do and what was the average 
dollar amount of the grant awarded?

    USOC Response: Please note the attached list (Attachment D) of 
grants distributed to date to a variety of organizations to develop 
ongoing sport programming and to enhance the rehabilitation of injured 
servicemembers and veterans. You'll note from the list that grant 
recipients range from Veteran, Paralympic and/or community-based 
organizations that request funding to meet a specific need for injured 
military personnel and/or veterans, utilizing physical activity as part 
of the rehab process. The grants funds distributed provide a variety of 
functions in order to develop ongoing programming for injured 
servicemembers and/or veterans including, but not limited to equipment, 
coaching, training, and facilities/sport venues. Examples include a 
grant to a local parks and recreation department to support an archery 
program for veterans or a grant to a Veterans organization to implement 
hand cycling clinics in four cities.
    Grant activity is monitored through regularly scheduled progress 
reports. Staff members also complete site visits whenever possible to 
ensure program quality.

    Question 6: You state in your written testimony, that you have 
provided technical assistance. What does technical assistance 
encompass?

    USOC Response: The technical assistance we provide involves a 
number of initiatives from `Train the Trainer' programs, focusing on 
coaching techniques for particular sports, to leadership training on 
how to implement military programs. In addition, we provide partnering 
organizations with strategic planning tools for program implementation 
and expansion, educational materials and opportunities to learn from 
others through forums and conferences. A majority of the technical 
assistance we provide is customized as the needs of organizations we 
work with are different. Technical assistance is broad and maybe 
different in each situation. Primarily it is leadership training for 
local military, veteran or community leaders to be trained in how to 
implement a local program, or coaching expertise to run a specific 
physical activity program at the local level. It also may include 
identifying and providing funds for renting of facilities, creating 
education and awareness materials, or providing sport equipment.

    Question 7: Can you elaborate on what you and the: 4 medical 
centers, 11 warrior transition units and the 14 VA facilities are 
providing to veterans and servicemembers?

    USOC Response: To date more than 6,000 injured servicemembers have 
been introduced to physical activity through ongoing sports programs at 
the community level in collaboration with Military and Veteran Medical 
Treatment Facilities and/or installations. As examples, at the 4 DoD 
Medical Treatment Facilities the Paralympic Military Program is 
offering an average of 6 sports per facility to nearly 1,000 injured 
servicemembers. Of the WTU's we're currently working with 8 Units are 
offering an average of 7 sports while the other 3 Units are in the 
strategic planning and/or train the trainer phase of implementation and 
will be offering a variety of sports in the near future. Our work with 
each of the VA's is different based on their population and program 
needs. Being flexible and building programs with the input from local 
leadership is a core component of success with each of the VA's. Some 
will partner with local community-based programs others find it works 
best to offer sport programs in-house. We are there to support each VA 
and their sport offerings by helping them gain an understanding of the 
concept--enhancing rehabilitation through sport.
    Based on a training model we developed in collaboration with the 
Ft. Lewis WTU, we are providing train-the-trainer sessions on how to 
implement physical activity programs as part of duties at WTU's 
throughout the U.S. We also create alignment with local Paralympic or 
community-based sport organizations to assist. In military medical 
centers, we have full-time Paralympic mentors providing ongoing 
physical activity to soldiers in the wards based on their sport 
interest. At VA facilities, we have aligned our local resources--a 
Paralympic Sport Club or community-based organization--to provide 
ongoing physical activity at the VA facility or in the community for 
injured Veterans.

    Question 8: In your testimony you state that the communities to 
which you are expanding are being selected based on need. How do you 
define need?

    USOC Response: Creating a stronger link to DoD and VA systems to 
communicate with injured servicemembers, especially as they return to 
local communities, is a primary driver for identifying communities 
based on need. Our focus in community growth is based on the number of 
injured servicemembers or veterans returning to a specific community 
and/or the infrastructure needed to implement programs. By 
collaborating with USOC Member organizations, we can cost efficiently 
provide training and programming to meet the needs of urban and rural 
areas.
    A majority of our programs are currently centralized in areas with 
a service Member population center. Our concern is reaching out to and 
serving those servicemembers that reside in rural communities. Edmond 
Oklahoma has been a good model for us in serving injured servicemembers 
in rural communities. By collaborating with the University of Central 
Oklahoma we've been able to reach a number of injured servicemembers in 
the surrounding rural areas. The University offers programs on campus 
and has also taken their programs on the road to reach those that may 
have difficulty getting to the University campus.

    Question 9: How exactly do you manage, monitor and measure the 
impact of grants provided to external organizations?

    USOC Response: In each grant application to the USOC, specific 
programs and measurables are outlined. We have dedicated staff that is 
focused on quarterly monitoring of grant applications with a focus on 
outcomes. We are also collaborating with Paralympic, Veteran and 
University resources to create long-term research focused on the impact 
of ongoing physical activity as it relates to overall health; long-term 
success in education and employment.
                               __________
                              Attachment A
2008-2009 Paralympic Military and Veterans Programs Highlights
    During the past year the USOC Paralympic Military Program has been 
using several distinct components to collectively enhance the 
rehabilitation of injured servicemembers and veterans through ongoing 
activities at local, regional and national levels.

    <bullet>  Training in the development and implementation of sports 
and physical activity programs for injured servicemembers has been 
provided to nearly 1,000 community leaders within the past year;
    <bullet>  New programs have been initiated at 15 Warrior Transition 
Units and 14 Veterans facilities with ongoing programming, technical 
assistance and provision of Paralympic mentors;
    <bullet>  Through the fourth quarter, 5,700 injured servicemembers 
have been introduced to physical activity through ongoing sports 
programs at the community level in collaboration with Military and 
Veteran Medical Treatment Facilities and/or installations;
    <bullet>  Grants have been provided to nineteen community/military 
partnerships throughout the country. These programs offer 3,500 injured 
servicemembers sports opportunities to enhance their rehabilitation at 
the community level;
    <bullet>  More than 60 injured servicemembers have been identified 
as individuals who have demonstrated the potential to pursue higher 
levels of athlete training and performance, and;
    <bullet>  Five Veterans, four of which have physical disabilities, 
have been hired to implement the program.

    The USOC and Paralympic Organizations throughout the country 
continue to utilize existing infrastructure and resources to meet the 
needs of injured servicemembers and veterans, thus making the program 
extremely cost effective.

2010 Goals

    <bullet>  Provide training-of-trainers for local community leaders 
to expand programming support in targeted areas of need;
    <bullet>  Increase programming, technical assistance and Paralympic 
mentor support at Warrior Transition Units, Veterans facilities and in 
community programs;
    <bullet>  Enhance communication and awareness capabilities to 
ensure injured servicemembers, Veterans and their families are aware of 
programming options in their local communities;
    <bullet>  Increase grant support to enhance and develop programming 
in communities with needs, and;
    <bullet>  Provide resources for equipment to participate in 
everyday physical activity.

USOC Paralympic and Veterans Program Locations

    Veterans Administration Hospital Facilities:

    <bullet>  Richmond, VA
    <bullet>  Palo Alto, CA (2 programs)
    <bullet>  Minneapolis, MN
    <bullet>  Tampa, FL
    <bullet>  Augusta, GA
    <bullet>  Oklahoma City, OK
    <bullet>  Cheyenne, WY (via Eldora Ski Program)
    <bullet>  Denver/Boulder, CO
    <bullet>  Tucson, AZ (via USABA)
    <bullet>  Birmingham, AL (via USABA)
    <bullet>  Hines, IL (Chicago--2 programs)
    <bullet>  Jesse Brown, IL (Chicago)
    <bullet>  La Jolla, CA
    <bullet>  Washington DC, VA

    Warrior Transition Units: 

    <bullet>  Ft. Bragg, NC
    <bullet>  Ft. Campbell, KY
    <bullet>  Ft. Lewis, WA
    <bullet>  Brook Army Medical Center, TX
    <bullet>  Balboa, CA
    <bullet>  Ft. Stewart, GA
    <bullet>  Walter Reed Army Medical Center, Washington, DC
    <bullet>  Ft. Carson, CO
    <bullet>  Ft. Sill, OK
    <bullet>  Ft. Gordon, GA
    <bullet>  Ft. Benning, GA
    <bullet>  Ft. Richardson/Wainwright, AK
    <bullet>  Ft. Drum, NY
    <bullet>  Ft. Hood, TX
    <bullet>  Ft. Riley, KS

    Department of Defense Medical Centers: 

    <bullet>  Walter Reed Army Medical Center, Washington, DC
    <bullet>  National Naval Medical Center, Bethesda MD
    <bullet>  San Diego Naval Medical Center, San Diego CA
    <bullet>  Brooke Army Medical Center, San Antonio TX

    Wounded Warrior Battalions: 

    <bullet>  Camp Lejeune,
    <bullet>  NC Camp Pendleton, CA

                               __________

                              Attachment B

                         Paralympic Sport Clubs
------------------------------------------------------------------------------------------------------------------------------------------------
Paralympic Sport       A program of Challenge Alaska       Anchorage, AK
 Alaska
------------------------------------------------------------------------
Paralympic Sport       A program of STRIDE Adaptive        Rensselaer,
 Albany                 Sports                              NY
------------------------------------------------------------------------
Paralympic Sport       A program of University of Texas--  Arlington, TX
 Arlington              Arlington
------------------------------------------------------------------------
Paralympic Sport       A program of Challenge Aspen        Snowmass
 Aspen                                                      Village, CO
------------------------------------------------------------------------
Paralympic Sport       A program of BlazeSports Atlanta    Atlanta, GA
 Atlanta
------------------------------------------------------------------------
Paralympic Sport       A program of Texas Rowing Center    Austin, TX
 Austin
------------------------------------------------------------------------
Paralympic Sport       A program of Lakeshore Foundation   Birmingham,
 Birmingham                                                 AL
------------------------------------------------------------------------
Paralympic Sport       A program of City of Boulder Parks  Boulder, CO
 Boulder                and Recreation EXPAND Program
------------------------------------------------------------------------
Paralympic Sport       A program of Breckenridge Outdoor   Breckenridge,
 Breckenridge           Education Center                    CO
------------------------------------------------------------------------
Paralympic Sport       A program of New England            Newport, NH
 Central New            Handicapped Sports Association
 Hampshire
------------------------------------------------------------------------
Paralympic Sport       A program of Mecklenburg County     Charlotte, NC
 Charlotte              Park and Recreation
------------------------------------------------------------------------
Paralympic Sport       A program of City of Chattanooga,   Chattanooga,
 Chattanooga            Chattanooga Parks & Recreation,     TN
                        Therapeutic Recreation Division
------------------------------------------------------------------------
Paralympic Sport       A program of Chicago Park District  Chicago, IL
 Chicago
------------------------------------------------------------------------
Paralympic Sport       A program of Rehabilitation         Chicago, IL
 Chicago                Institute of Chicago (RIC)
------------------------------------------------------------------------
Paralympic Sport       A program of Cincinnati Recreation  Cincinnati,
 Cincinnati             Commission Foundation               OH
------------------------------------------------------------------------
Paralympic Sport       A program of City of Colorado       Colorado
 Colorado Springs       Springs Parks, Recreation and       Springs, CO
                        Cultural Services, Therapeutic
                        Recreation Program
------------------------------------------------------------------------
Paralympic Sport       A program of Columbus Recreation    Columbus, OH
 Columbus               and Parks Department
------------------------------------------------------------------------
Paralympic Sport       A program of Columbus Parks &       Columbus, GA
 Columbus               Recreation Department
------------------------------------------------------------------------
Paralympic Sport       A program of National Sports        Denver, CO
 Denver                 Center for the Disabled-- Denver
------------------------------------------------------------------------


                    Paralympic Sport Clubs--Continued
------------------------------------------------------------------------------------------------------------------------------------------------
Paralympic Sport       A program of Craig Hospital         Englewood, CO
 Denver
------------------------------------------------------------------------
Paralympic Sport Fort  A program of Turnstone Center for   Fort Wayne,
 Wayne                  Children and Adults with            IN
                        Disabilities
------------------------------------------------------------------------
Paralympic Sport       A program of Great Lakes Adaptive   Lake Forest,
 Great Lakes Region     Sports Association                  IL
------------------------------------------------------------------------
Paralympic Sport       A program of Champions Made From    Evans, GA
 Greater Augusta        Adversity (BlazeSports Augusta)
------------------------------------------------------------------------
Paralympic Sport       A program of Houston Parks and      Houston, TX
 Houston                Recreation Department-- Adaptive
                        Recreation
------------------------------------------------------------------------
Paralympic Sport       A program of TIRR Memorial Hermann  Houston, TX
 Houston
------------------------------------------------------------------------
Paralympic Sport       A program of Rehabilitation         Indianapolis,
 Indianapolis           Hospital of Indiana (RHI)           IN
------------------------------------------------------------------------
Paralympic Sport       A program of National Sports        Kansas City,
 Kansas City            Center for the Disabled-- Kansas    MO
                        City
------------------------------------------------------------------------
Paralympic Sport       A program of Kennesaw State         Kennesaw, GA
 Kennesaw State         University-- College of Health
 University             and Human Services-- Global
                        Center for Social Change
------------------------------------------------------------------------
Paralympic Sport       A program of Kentwood Parks &       Kentwood, MI
 Kentwood               Recreation Department
------------------------------------------------------------------------
Paralympic Sport Lake  A program of Disabled Sports USA    Tahoe City,
 Tahoe                  Far West                            CA
------------------------------------------------------------------------
Paralympic Sport Las   A program of City of Las Vegas      Las Vegas, NV
 Vegas                  Adaptive Recreation and Clark
                        County School District
------------------------------------------------------------------------
Paralympic Sport Loma  A program of PossAbilities          Loma Linda,
 Linda                                                      CA
------------------------------------------------------------------------
Paralympic Sport       A program of Louisiana GUMBO Inc.   Pineville, LA
 Louisiana
------------------------------------------------------------------------
Paralympic Sport       A program of Frazier Rehab          Louisville,
 Louisville             Institute                           KY
------------------------------------------------------------------------
Paralympic Sport       A program of Disabled Sports        Mammoth
 Mammoth Lakes          Eastern Sierra                      Lakes, CA
------------------------------------------------------------------------
Paralympic Sport       A program of MidSouth Adaptive      Memphis, TN
 Memphis                Sports & Recreation, Inc.
------------------------------------------------------------------------
Paralympic Sport Mesa  A program of City of Mesa Adaptive  Mesa, AZ
                        Sports and Recreation
------------------------------------------------------------------------
Paralympic Sport       A program of Miami-Dade Parks &     Miami, FL
 Miami                  Recreation Leisure Access
                        Services
------------------------------------------------------------------------
Paralympic Sport       A program of Milwaukee Recreation   Milwaukee, WI
 Milwaukee              Department
------------------------------------------------------------------------
Paralympic Sport New   A program of New England Disabled   Lincoln, NH
 Hampshire              Sports
------------------------------------------------------------------------
Paralympic Sport New   A program of AbilityPLUS, Inc.--    Waterville
 Hampshire              New Hampshire                       Valley, NH
------------------------------------------------------------------------


                    Paralympic Sport Clubs--Continued
------------------------------------------------------------------------------------------------------------------------------------------------
Paralympic Sport New   A program of Charles T. Sitrin      New Hartford,
 Hartford               Medical Rehabilitation Center       NY
------------------------------------------------------------------------
Paralympic Sport New   A program of Children's Lightening  Mountainside,
 Jersey                 Wheels                              NJ
------------------------------------------------------------------------
Paralympic Sport New   A program of New York City          New York, NY
 York City              Department of Parks & Recreation
------------------------------------------------------------------------
Paralympic Sport       A program of Northeast DuPage       Addison, IL
 Northeast DuPage       Special Recreation Association--
                        NEDSRA
------------------------------------------------------------------------
Paralympic Sport       A program of South West Suburban    Alsip, IL
 Northern Illinois      Special Recreation Association
                        (SWSRA)
------------------------------------------------------------------------
Paralympic Sport       A program of Fox Valley Special     Aurora, IL
 Northern Illinois      Recreation Association (FVSRA)
------------------------------------------------------------------------
Paralympic Sport       A program of Special Recreation     Dolton, IL
 Northern Illinois      Services
------------------------------------------------------------------------
Paralympic Sport       A program of Lincolnway Special     Frankfort, IL
 Northern Illinois      Recreation Association
------------------------------------------------------------------------
Paralympic Sport       A program of West Suburban Special  Franklin
 Northern Illinois      Recreation Association (WSSRA)      Park, IL
------------------------------------------------------------------------
Paralympic Sport       A program of Warren Special         Gurnee, IL
 Northern Illinois      Recreation Association (WSRA)
------------------------------------------------------------------------
Paralympic Sport       A program of Illinois Therapeutic   Northbrook,
 Northern Illinois      Recreation section Adapted Sports   IL
                        Committee
------------------------------------------------------------------------
Paralympic Sport       A program of Maine-Niles            Northbrook,
 Northern Illinois      Association for Special Recration   IL
                        (M-NASR)
------------------------------------------------------------------------
Paralympic Sport       A program of Northern Suburban      Northbrook,
 Northern Illinois      Special Recreation (NSSRA)          IL
------------------------------------------------------------------------
Paralympic Sport       A program of Oak Lawn Park          Oak Lawn, IL
 Northern Illinois      District/Special Recreation
                        Cooperative
------------------------------------------------------------------------
Paralympic Sport       A program of Heart of Illinois      Peoria, IL
 Northern Illinois      Special Recreation Association
                        (HISRA)
------------------------------------------------------------------------
Paralympic Sport       A program of Northwest Special      Rolling
 Northern Illinois      Recreation Association (NWSRA)      Meadows, IL
------------------------------------------------------------------------
Paralympic Sport       A program of Tri County Special     Romeoville,
 Northern Illinois      Recreation Association              IL
------------------------------------------------------------------------
Paralympic Sport       A program of South Suburban         Tinley Park,
 Northern Illinois      Special Recreation Association      IL
                        (SSSRA)
------------------------------------------------------------------------
Paralympic Sport       A program of Special Recreation     Vernon Hills,
 Northern Illinois      Association of Central Lake         IL
                        County (SRACLC)
------------------------------------------------------------------------
Paralympic Sport       A program of Special Recreation     Zion, IL
 Northern Illinois      Service of Northern Lake County
                        (SRSNLC)
------------------------------------------------------------------------
Paralympic Sport       A program of Southeast Association  IL
 Northern Illinois      for Special Parks and Recreation
                        (SEASPAR)
------------------------------------------------------------------------
Paralympic Sport       A program of Northern Illinois      IL
 Northern Illinois      Special Recreation (NISRA)
------------------------------------------------------------------------


                    Paralympic Sport Clubs--Continued
------------------------------------------------------------------------------------------------------------------------------------------------
Paralympic Sport Park  A program of National Ability       Park City, UT
 City                   Center
------------------------------------------------------------------------
Paralympic Sport       A program of City of Pasadena       Pasadena, TX
 Pasadena               Verne Cox Multipurpose Recreation
                        Center
------------------------------------------------------------------------
Paralympic Sport       A program of Pennsylvania Center    Philadelphia,
 Philadelphia           for Adaptive Sports                 PA
------------------------------------------------------------------------
Paralympic Sport       A program of Grand Canyon State     Apache
 Phoenix                Fencing Foundation                  Junction, AZ
------------------------------------------------------------------------
Paralympic Sport       A program of HOPE Network           Pittsburgh,
 Pittsburgh                                                 PA
------------------------------------------------------------------------
Paralympic Sport       A program of Oregon Disability      Portland, OR
 Portland               Sports
------------------------------------------------------------------------
Paralympic Sport Reno  A program of City of Reno Parks,    Reno, NV
                        Recreation and Community Services
------------------------------------------------------------------------
Paralympic Sport       A program of Rockford Park          Rockford, IL
 Rockford               District
------------------------------------------------------------------------
Paralympic Sport       A program of City of Sacramento     Sacramento,
 Sacramento             Department of Parks and             CA
                        Recreation, Access Leisure
                        section
------------------------------------------------------------------------
Paralympic Sport       A program of Michigan Sports        Saginaw, MI
 Saginaw                Unlimited
------------------------------------------------------------------------
Paralympic Sport Salt  A program of Salt Lake County       Midvale, UT
 Lake County            Adaptive Recreation
------------------------------------------------------------------------
Paralympic Sport San   A program of The San Antonio        Kyle, TX
 Antonio                Fencing Center
------------------------------------------------------------------------
Paralympic Sport San   A program of San Diego Adaptive     San Diego, CA
 Diego                  Sports Foundation
------------------------------------------------------------------------
Paralympic Sport San   A program of Far West Wheelchair    San Jose, CA
 Jose                   Sports
------------------------------------------------------------------------
Paralympic Sport       A program of Seattle Adaptive       Seattle, WA
 Seattle                Sports
------------------------------------------------------------------------
Paralympic Sport       A program of Midwest Wheelchair     Dolton, IL
 Southern Cook & Will   Sport & Social Club (MDWSSC)
 County
------------------------------------------------------------------------
Paralympic Sport       A program of Northeast Passage      Durham, NH
 Southern New
 Hampshire
------------------------------------------------------------------------
Paralympic Sport       A program of St. Lukes              Spokane, WA
 Spokane                Rehabilitation Institute
------------------------------------------------------------------------
Paralympic Sport St.   A program of Disabled Athlete       St. Peters,
 Louis                  Sports Association                  MO
------------------------------------------------------------------------
Paralympic Sport Sun   A program of Wood River Ability     Sun Valley,
 Valley-Ketchum         Program                             ID
------------------------------------------------------------------------
Paralympic Sport       A program of Metro Parks of Tacoma  Tacoma, WA
 Tacoma
------------------------------------------------------------------------
Paralympic Sport       A program of Hillsborough County    Tampa, FL
 Tampa Bay              Parks, Recreation & Conservation
------------------------------------------------------------------------
Paralympic Sport       A program of Telluride Adaptive     Telluride, CO
 Telluride              Sports Program
------------------------------------------------------------------------
Paralympic Sport       A program of Bridge II Sports       Durham, NC
 Triangle
------------------------------------------------------------------------


                    Paralympic Sport Clubs--Continued
------------------------------------------------------------------------------------------------------------------------------------------------
Paralympic Sport Twin  A program of Courage Center         Golden
 Cities                                                     Valley, MN
------------------------------------------------------------------------
Paralympic Sport       A program of Ability Athletics and  University
 University Park        Disability Recreation Program of    Park, PA
                        Penn State University
------------------------------------------------------------------------
Paralympic Sport       A program of Penn State Ability     University
 University Park        Athletes Program and Disability     Park, PA
                        Recreation
------------------------------------------------------------------------
Paralympic Sport       A program of Vermont Adaptive Ski   Killington,
 Vermont                and Sports                          VT
------------------------------------------------------------------------
Paralympic Sport       A program of AbilityPLUS, Inc.--    West Dover,
 Vermont                Vermont                             VT
------------------------------------------------------------------------
Paralympic Sport       A program of National               Washington,
 Washington DC          Rehabilitation Hospital             DC
------------------------------------------------------------------------
Paralympic Sport       A program of Oakland County Parks   Waterford, MI
 Waterford
------------------------------------------------------------------------
Paralympic Sport       A program of Western DuPage         Carol Stream,
 Western DuPage         Special Recreation Association      IL
------------------------------------------------------------------------
Paralympic Sport       A program of Wheelchair Sports      Wichita, KS
 Wichita                Inc.
------------------------------------------------------------------------
Paralympic Sport       A program of Adaptive Sports        Windham, NY
 Windham                Foundation
------------------------------------------------------------------------
Paralympic Sport       A program of National Sports        Winter Park,
 Winter Park            Center for the Disabled-- Winter    CO
                        Park
------------------------------------------------------------------------
Paralympic Sport       A program of Huggins Hospital       Wolfeboro, NH
 Wolfeboro              Adaptive Sports Program
------------------------------------------------------------------------


                              Attachment C

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                               __________

                              Attachment D

                                             U.S. Paralympic Grants
----------------------------------------------------------------------------------------------------------------
             Grantee               Grant Total               Grant commitment                       Type
----------------------------------------------------------------------------------------------------------------
Achilles International, Inc.          $15,000   fund injured military in handcycling       Community/Military
                                                 events
----------------------------------------------------------------------------------------------------------------
Adaptive Sports Foundation at         $10,000   military fund injured military with the    PSC/Military
 Windham Mountain                                Stratton VA
----------------------------------------------------------------------------------------------------------------
Bay Area Outreach & Recreation        $15,000   injured military cycling, wheelchair       Community/Military
 Program (SF Bay Area)                           basketball and Goalball
----------------------------------------------------------------------------------------------------------------
Blaze Sports America (Atlanta         $75,000   BSA shall provide technical assistance &
 GA)                                             support to Paralympic Sport Clubs that
                                                 provide services/programming to injured
                                                 servicemembers.
----------------------------------------------------------------------------------------------------------------
BlazeSports America Inc.               $5,000   swimming program                           PSC Only
 (Atlanta GA)
----------------------------------------------------------------------------------------------------------------
Bridge II Sports (Durham NC)           $5,000   Paralympic skills program                  PSC Only
----------------------------------------------------------------------------------------------------------------
Central Cross Country Ski             $25,000   construct and loan out sit skis to         Community/Military
 Association (Hayward WI)                        injured military
----------------------------------------------------------------------------------------------------------------
Challenge Aspen                       $50,000   support military athletes who qualify for
                                                 and commit to training with Challenge
                                                 Aspen
----------------------------------------------------------------------------------------------------------------
Challenged Athletes Foundation        $25,000   support Operation Rebound to provide       Community/Military
 (San Diego CA)                                  funding to injured military for training
                                                 and competition in Paralympic-related
                                                 Sports
----------------------------------------------------------------------------------------------------------------
Champions Made from Adversity         $60,000   develop and implement ongoing programs
 (Augusta GA)                                    for the soldiers assigned to the Warrior
                                                 Transition Battalion at Fort Gordon, the
                                                 Charlie Norwood Veterans Affairs Medical
                                                 Facility and for local veterans in the
                                                 Central Savannah River Area of Georgia
                                                 and South Carolina
----------------------------------------------------------------------------------------------------------------
City of Boulder Parks and              $5,000   track program                              PSC Only
 Recreation Exciting Programs,
 Adventures and New Dimensions
 ``EXPAND''
----------------------------------------------------------------------------------------------------------------
City of Colorado Springs Parks,       $32,000   handcyling and shooting for injured        PSC/Military
 Recreation & Cultural Services,                 military
 Therapeutic Recreation Program
----------------------------------------------------------------------------------------------------------------
City of Reno Parks                     $1,500   Paralympic Academy                         PSC Only
----------------------------------------------------------------------------------------------------------------
City of Sacramento Department of       $5,200   track program                              PSC Only
 Parks and Recreation, Access
 Leisure section
----------------------------------------------------------------------------------------------------------------
Eldora Special Recreation             $28,000   injured military skiing program            PSC/Military
 Program (Boulder CO)
----------------------------------------------------------------------------------------------------------------
Great Lakes Adaptive Sports           $13,000   track and swimming for injured military    PSC/Military
 Association (Lake Forest ILL)
----------------------------------------------------------------------------------------------------------------
Greater Metro Parks Tacoma            $21,000   rowing for injured military                PSC/Military
 Foundation
----------------------------------------------------------------------------------------------------------------
Headquarter Air Force Command         $17,500   archery for injured military               Community/Military
 (Colorado Springs)
----------------------------------------------------------------------------------------------------------------
Hillsborough County Parks,             $5,000   basketball and archery programs            PSC Only
 Recreation and Conservation
 Department (Tampa FL)
----------------------------------------------------------------------------------------------------------------
HOPE Network (Pittsburgh PA)           $5,000   adaptive sport equipment for injured       Community/Military
                                                 military
----------------------------------------------------------------------------------------------------------------
Lakeshore Foundation (Birmingham      $25,000   hosting military camp
 AL)
----------------------------------------------------------------------------------------------------------------
Lakeshore Foundation (Birmingham       $5,000   track program                              PSC Only
 AL)
----------------------------------------------------------------------------------------------------------------
Louisiana Games Uniting Mind and       $5,000   expand adaptive equipment                  PSC Only
 Body ``GUMBO''
----------------------------------------------------------------------------------------------------------------
Memorial Hermann Foundation            $4,500   sled hockey                                PSC Only
 (Houston)
----------------------------------------------------------------------------------------------------------------
Miami-Dade County Park and             $5,000   judo                                       PSC Only
 Recreation Department
----------------------------------------------------------------------------------------------------------------
Midsouth Adaptive Sports and           $5,000   expand adaptive equipment                  PSC Only
 Recreation Inc. (Memphis TN)
----------------------------------------------------------------------------------------------------------------
Milwaukee Public Schools--             $5,000   cycling equipment                          PSC Only
 Department of Recreation
----------------------------------------------------------------------------------------------------------------
National Recreation and Parks        $200,000   expand community programs and
 Association                                     opportunities for injured military
                                                 personnel to pursue physically active
                                                 lives through the use of grants for
                                                 equipment, training, and program
                                                 development by public park and
                                                 recreation agencies around the country
----------------------------------------------------------------------------------------------------------------
National Sports Center for the         $7,500   soccer                                     PSC Only
 Disabled (Denver)
----------------------------------------------------------------------------------------------------------------
National Sports Center for the        $20,000   skiing equipment loaner program for        Community/Military
 Disabled (Denver)                               injured military
----------------------------------------------------------------------------------------------------------------
New England Disabled Sports            $5,000   biathlon                                   PSC Only
 (Lincoln NH)
----------------------------------------------------------------------------------------------------------------
New England Disabled Sports           $15,000   hosting military camp
 (Lincoln NH)
----------------------------------------------------------------------------------------------------------------
Northeast Passage (Durham NH)          $5,000   training camp                              PSC Only
----------------------------------------------------------------------------------------------------------------
National Wheelchair Basketball        $75,000   NWBA's commitment to recruit injured
 Association (NWBA)                              servicemembers to wheelchair basketball
                                                 teams
----------------------------------------------------------------------------------------------------------------
Operation Comfort (San Antonio        $16,000   sled hockey for injured military           Community/Military
 TX)
----------------------------------------------------------------------------------------------------------------
Oregon Disability Sports               $5,000   expand adaptive equipment                  PSC Only
 (Portland OR)
----------------------------------------------------------------------------------------------------------------
Paralyzed Veterans of America        $143,000   PVA staff to plan and implement a
 Handcycling                                     Paralympic Military Handcycling Program
                                                 in four strategic locations (Washington
                                                 DC/Richmond, Chicago, San Antonio and
                                                 San Diego).
----------------------------------------------------------------------------------------------------------------
Rehabilitation Hospital of             $5,000   archery & track programs                   PSC Only
 Indiana Sports Program
----------------------------------------------------------------------------------------------------------------
Rehabilitation Institute of            $8,000   hosting military camp
 Chicago
----------------------------------------------------------------------------------------------------------------
Rockford Illinois Park District        $5,000   expand adaptive equipment                  PSC Only
----------------------------------------------------------------------------------------------------------------
San Diego Adaptive Sports             $24,000   year round sports programs for injured     Community/Military
 Foundation                                      military
----------------------------------------------------------------------------------------------------------------
Tampa VA                              $57,500   Tampa VA staff to implement Paralympic
                                                 Sports opportunities for military
                                                 servicemembers and veterans in the Tampa
                                                 Bay area as an extension of their
                                                 rehabilitation.
----------------------------------------------------------------------------------------------------------------
Team Semper FI                        $35,000   expand adaptive equipment and programming
                                                 for wounded Marines at Camp Pendleton
----------------------------------------------------------------------------------------------------------------
Team St. Luke's (Spokane WA)           $7,500   field equipment                            PSC Only
----------------------------------------------------------------------------------------------------------------
Telluride Adaptive Sports              $5,000   ski camp                                   PSC Only
 Program
----------------------------------------------------------------------------------------------------------------
Texas Rowing Center-- Adaptive        $17,500   rowing for injured military                PSC/Military
 Rowing Program (Austin TX)
----------------------------------------------------------------------------------------------------------------
The University of Central             $14,000   purchase of trailer to transport           Community/Military
 Oklahoma's Sports and                           equipment for injured military
 Recreation
----------------------------------------------------------------------------------------------------------------
The University of Texas at            $16,000   college sport programs for injured         Community/Military
 Arlington                                       military
----------------------------------------------------------------------------------------------------------------
The Washington DC VA Medical          $22,000   rowing and judo for injured military       Community/Military
 Center
----------------------------------------------------------------------------------------------------------------
Therapeutic Recreation and            $23,600   handcycling and skiing for injured         Community/Military
 Independent Lifestyles                          military at George E. Wahlen VA Medical
 ``TRAILS''                                      Center
----------------------------------------------------------------------------------------------------------------
U.S. Handcycling                      $15,000   competitive handcycling series for         Community/Military
                                                 injured military
----------------------------------------------------------------------------------------------------------------
The University of Central             $75,000   to coordinate 2009 Endeavor Games
 Oklahoma's Sports and                           focusing on injured servicemembers
 Recreation
----------------------------------------------------------------------------------------------------------------
Underwater Warriors Foundation         $6,000   scuba program
 (Ft. Campbell KY)
----------------------------------------------------------------------------------------------------------------
U.S. Association of Blind             $50,000   to develop and implement programs for
 Athletes (USABA) Opportunity                    injured servicemembers with eye injuries
 Fund Grant extension
----------------------------------------------------------------------------------------------------------------
USABA position grant proposal         $50,000   grant is for hiring consultant to
                                                 implement the programs noted above-- it
                                                 is a matching grant where USABA will
                                                 match 25% or $12,500 for total of
                                                 $62,500
----------------------------------------------------------------------------------------------------------------
Vail Veterans Adventure Team           $6,000   Adventure Team race
----------------------------------------------------------------------------------------------------------------
Vail Veterans Program                 $35,000   winter sport programming
----------------------------------------------------------------------------------------------------------------
Vermont Adaptive Ski and Sports        $5,000   purchase of van to transport equipment     PSC Only
                                                 for injured military
----------------------------------------------------------------------------------------------------------------
Total                              $1,446,300
----------------------------------------------------------------------------------------------------------------


                                 <F-dash>

                                     Committee on Veterans' Affairs
                                                    Washington, DC.
                                                      July 30, 2009

Hon. Eric K. Shinseki
Secretary
U.S. Department of Veterans Affairs
810 Vermont Ave., NW
Washington, DC 20420

    Dear Mr. Secretary:

    In reference to our Full Committee hearing entitled ``Meeting the 
Needs of Injured Veterans in the Military Paralympic Program'' on July 
29, 2009, I would appreciate it if you could answer the enclosed 
hearing questions by the close of business on September 11, 2009.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for materials for all Full 
Committee and Subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively and single-spaced. In 
addition, please restate the question in its entirety before the 
answer.
    Due to the delay in receiving mail, please provide your response to 
Debbie Smith by fax your responses to Debbie at 202-225-2034. If you 
have any questions, please call 202-225-9756.

            Sincerely,

                                                         BOB FILNER
                                                           Chairman

    JL:ds

                               __________

                        Questions for the Record
                       Hon. Bob Filner, Chairman
                  House Committee on Veterans' Affairs
                             July 29, 2009
   Meeting the Needs of Injured Veterans in the Military Paralympic 
                                Program

    Question 1: In the last Congress, the Subcommittee on Economic 
Opportunity conducted a hearing on this same subject. They received 
testimony from Disabled Sports USA expressing concern that the VA was 
considering a rule change to re-classify the hand-cycle as a sports 
wheelchair. The concern is that this rule change may negatively affect 
one's ability to participate in rehabilitative sports activities. Can 
you provide us an update on this matter? (The concern is that they will 
get one wheelchair as opposed to two.)

    Response: The Department of Veterans Affairs (VA) has made great 
progress to alleviate concerns regarding a Veteran's ability to 
participate in rehabilitative sports activities. In April, 2008, the 
Under Secretary for Health of the Veterans Health Administration (VHA) 
issued new clinical practice recommendations (CPR) for the issuance of 
recreational and sports equipment. These guidelines are available on 
VA's prosthetics service Web site: http://www.prosthetics.va.gov/
cpr.asp. The guidelines indicate that each Veteran is entitled to an 
individualized evaluation and that VA can provide adaptive sporting 
equipment to a Veteran for the sport(s) in which the Veteran is 
actively engaged with options for demonstrating active participation 
outlined in the document. The guidelines do not identify a specific 
number of sports/activities to be supported; rather, decisions are 
based on meeting the criteria for the requested equipment. Thus, if a 
Veteran meets the criteria for each sport for which equipment is 
requested, they can receive that piece of adaptive sporting equipment. 
Furthermore, the guidelines establish an independent review of each 
device requested. With the publication of this CPR, the availability of 
adaptive sports and recreation equipment has been greatly broadened. 
Prior to this CPR, VA provided handcycles and sports wheelchairs only 
(i.e. basketball, rugby, tennis, etc). Now, when an enrolled Veteran 
meets the identified indications, mono-skis, adaptive Nordic skis, ice 
sleds, and tandem bikes for those with visual impairment, and other 
pieces of adaptive equipment may be considered for issuance when 
prescribed by a VA clinician.

    Question 2: Public Law 110-389 requires the VA Secretary to draft 
oversight reporting requirements. Has the VA begun drafting its 
oversight reporting requirements? If so, when do you expect to have 
this finalized?

    Response: VA is drafting regulations for implementing a monthly 
assistance allowance as specified in section 703 of Public Law (P.L.) 
110-389 that includes specific provisions for oversight, including 
access to Paralympics-sanctioned events and activities to provide such 
oversight. In regards to the grant program specified in section 702 of 
P.L. 110-389, VA is still in the process of determining the appropriate 
level of oversight. However, through collaborative efforts with U.S. 
Paralympics, VA is examining the feasibility of a quarterly reporting 
mechanism to include information on budget, cash transaction reports, 
and a summary of grant-funded activities, participants and outcomes. VA 
will follow the prescribed process for publishing a notice of proposed 
rulemaking and a final rule. VA officials are tracking this action 
closely as a means to expedite publication in the Federal Register.

    Question 3: What kind of outreach campaign does the VA plan to 
implement to reach Veterans, especially rural Veterans who may be 
interested in participating in a VA sponsored event? Do you plan on 
using mass media (TV or radio) as authorized by Public Law 110-389?

    Response: VA is currently focused on implementing the allowance and 
grant programs authorized under P.L. 110-389. VA is developing the 
outreach plan and will implement it as we move forward in fiscal 2010.

    Question 4: We have heard complaints that there is insufficient 
followup after a flagship event. Can you explain how VA plans to 
followup with veterans participating in a major event like this month's 
National Veterans Wheelchair Games that took place in Spokane, 
Washington?

    Response: VA is not aware of complaints regarding insufficient 
followup to VA's National Rehabilitation Special Events. Each 
participant in our National Veterans Wheelchair Games receives a survey 
upon the completion of the event. Through this survey, participants 
have an opportunity to provide direct feedback which VA uses to shape 
subsequent events. In addition to this followup, these events are an 
extension of the rehabilitation that occurs daily at VA medical 
facilities. As such, Veteran patients are sent from their local VA 
medical centers to participate in these events. Upon their return home, 
followup continues at the local level as they resume recreation therapy 
through their local VA medical center programs. VA welcomes the 
opportunity to examine specific complaints from Veterans, and requests 
the Committee staff provide any available details of these complaints.

    Question 5: The 2005 memorandum of understanding (MOU) between the 
VA and U.S. Olympic Committee requires both parties to collectively 
establish a mechanism for annual evaluation of the Paralympic sports 
program. Can you elaborate on what are the key elements of the 
evaluation and the results of any evaluations done?

    Response: VA's 2005 MOU with the U.S. Olympic Committee (USOC) 
specifies that both parties evaluate the effectiveness of a program to 
build upon the National Disabled Veterans Winter Sports Clinic and the 
National Veterans Wheelchair Games by expanding opportunities for 
disabled Veterans to participate in Paralympic sporting activities. As 
such, VA has collaborated with the USOC to introduce and evaluate 
Paralympic sporting events for participants at the National Disabled 
Veterans Winter Sports Clinic and the National Veterans Wheelchair 
Games. This evaluation is specific to these events and is based upon 
Veteran interest, attendance and satisfaction in specific Paralympic 
introductory events. The results of the evaluation are used to further 
enhance these opportunities. For example, at the Winter Sports Clinic, 
we originally introduced an elite training component as part of our MOU 
with the USOC. VA was pleased to see much interest among Veterans in 
this new event. However, through an ongoing evaluation in conjunction 
with USOC, we determined that only a few participants had serious 
potential. Many of those originally interested were 55 years and older 
and did not have the skill and level of commitment required for serious 
Paralympic contention.
    VA and USOC did, however, notice a great deal of interest in 
advanced training and education for Veterans and adaptive ski 
instructors. As a result VA implemented a program whereby Veterans can 
test ride new, higher-end equipment and be fitted by a VA adaptive-
equipment expert. This is a tremendous new aspect to the Winter Sports 
Clinic as it allows Veterans to identify the proper model of adaptive 
equipment and have direct access to the VA purchasing official on site 
at the event. Based on the program evaluation, VA is providing 
personalized services to a greater number of Veterans while still 
providing high performance training experiences for those looking to 
take their training to the Paralympic level.
    VA also added curling, biathlon and alternate wheelchair fencing to 
the activities at the Clinic to introduce Veterans to these Paralympic 
sports. At the 2007 Wheelchair Games, VA established a ``stand-up'' 
track and field clinic for Veterans with amputations. An evaluation of 
this clinic led to the introduction of new and permanent Paralympic 
``stand-up'' events in table tennis and archery at subsequent 
Wheelchair Games.

                                 <F-dash>


                                     Committee on Veterans' Affairs
                                                    Washington, DC.
                                                      July 30, 2009

Hon. Eric K. Shinseki
Secretary
U.S. Department of Veterans Affairs
810 Vermont Avenue, NW
Washington, DC 20420

    Dear Secretary Shinseki,

    In reference to our Committee hearing of July 29, 2009, I would 
appreciate your response to the question below for the record by close 
of business Wednesday, August 26, 2009.
    Public Law 110-389 requires that the Director of the Office of 
National Veterans Sports Programs and Special Events report to one of 
the following: the Secretary, the Deputy Secretary, or a person in VBA 
as determined by the Secretary. To whom will the Director report and 
when will that reorganization take place?
    It would be appreciated if you could provide your answers 
consecutively on letter size paper, single spaced. Please restate the 
question in its entirety before providing the answer.
    Thank you for your cooperation in this matter.

            Sincerely,

                                                        Steve Buyer
                                          Ranking Republican Member

    SB:dwc

                               __________

                        Questions for the Record
              Hon. Steve Buyer, Ranking Republican Member
                  House Committee on Veterans' Affairs
                             July 29, 2009
   Meeting the Needs of Injured Veterans in the Military Paralympic 
                                Program
    Question 1: Public Law 110-389 requires that the Director of the 
Office of National Veterans Sports Programs and Special Events report 
to one of the following: the Secretary, the Deputy Secretary, or a 
person in VBA as determined by the Secretary. To whom will the Director 
Report and when will that reorganization take place.

    Response: The new Office of National Veterans Sports Programs and 
Special Events will be aligned under the Office of the Secretary and 
the Director shall report to the Secretary through the Chief of Staff. 
The decision to realign that office was made in late February and the 
reorganization will take place with the new fiscal year.

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
